<html>
<title> - THE IMPACT OF THE 2008 OLYMPIC GAMES ON HUMAN RIGHTS AND THE RULE OF LAW IN CHINA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                THE IMPACT OF THE 2008 OLYMPIC GAMES ON


               HUMAN RIGHTS AND THE RULE OF LAW IN CHINA

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2008

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                     U.S. GOVERNMENT PRINTING OFFICE

41-150 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

SANDER LEVIN, Michigan, Chairman
MARCY KAPTUR, Ohio
MICHAEL M. HONDA, California
TOM UDALL, New Mexico
TIMOTHY J. WALZ, Minnesota
DONALD A. MANZULLO, Illinois
JOSEPH R. PITTS, Pennsylvania
EDWARD R. ROYCE, California
CHRISTOPHER H. SMITH, New Jersey

                                     BYRON DORGAN, North Dakota, Co-
                                     Chairman
                                     MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     SHERROD BROWN, Ohio
                                     SAM BROWNBACK, Kansas
                                     CHUCK HAGEL, Nebraska
                                     GORDON H. SMITH, Oregon
                                     MEL MARTINEZ, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                  HOWARD M. RADZELY, Department Labor

                      Douglas Grob, Staff Director

             Charlotte Oldham-Moore, Deputy Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Opening statement of Hon. Sander Levin, a U.S. Representative 
  from Michigan, Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Dorgan, Hon. Byron, a U.S. Senator from North Dakota, Co-
  Chairman, Congressional-Executive Commission on China..........     3
Pitts, Hon. Joseph R., a U.S. Representative from Pennsylvania, 
  Member, Congressional-Executive Commission on China............     5
Smith, Hon. Christopher H., a U.S. Representative from New 
  Jersey, Member, Congressional-Executive Commission on China....     7
Walz, Hon. Tim, a U.S. Representative from Minnesota, Member, 
  Congressional-Executive Commission on China....................     8
Royce, Hon. Edward R., a U.S. Representative from California, 
  Member, Congressional-Executive Commission on China............     9
Martella, Roger R., Jr., General Counsel, U.S. Environmental 
  Protection Agency, Washington, DC..............................    10
Hom, Sharon K., Executive Director, Human Rights in China, 
  Professor of Law Emerita, City University of New York School of 
  Law, New York, NY..............................................    12
Dietz, Robert, Asia Program Coordinator, Committee to Protect 
  Journalists, New York, NY......................................    15
Richardson, Sophie, Asia Advocacy Director, Human Rights Watch, 
  Washington, DC.................................................    17
Munro, Robin, Research Director, China Labour Bulletin, Hong 
  Kong, China....................................................    19

                                APPENDIX
                          Prepared Statements

Martella, Roger R., Jr...........................................    32
Hom, Sharon......................................................    36
Dietz, Robert....................................................    41
Richardson, Sophie...............................................    45
Munro, Robin.....................................................    48

Levin, Hon. Sander...............................................    53
Dorgan, Hon. Byron...............................................    54
Manzullo, Hon. Donald A..........................................    55
Smith, Hon. Christopher H........................................    55
Hagel, Hon. Chuck................................................    57
Smith, Hon. Gordon H.............................................    58

                       Submissions for the Record

Prepared statement and responses to Commission's questions by 
  Mario Mancuso, Under Secretary for Industry and Security, U.S. 
  Department of Commerce.........................................    59
Cases of Political Imprisonment in China: List of political 
  prisoners, submitted by Senator Byron Dorgan...................    64
An Appeal From the Tiananmen Mothers to the Government: Set a 
  Timetable for Dialogue on the June Fourth Massacre, submitted 
  by Sharon Hom..................................................    64
HRIC Olympics Take Action Campaign Individual Cases, submitted by 
  Sharon Hom.....................................................    66
China Labour Bulletin Article by Geoffrey Crothall and Han 
  Dongfang, submitted by Robin Munro.............................    68
Responses by Robin Munro to questions from Representative 
  Christopher Smith..............................................    72


 THE IMPACT OF THE 2008 OLYMPIC GAMES ON HUMAN RIGHTS AND THE RULE OF 
                              LAW IN CHINA

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:30 p.m., 
in room B-318, Rayburn House Office Building, Representative 
Sander Levin (Chairman of the Commission) presiding.
    Also present: Senator Byron Dorgan, Co-Chairman; Senator 
Mel Martinez; Representative Joseph R. Pitts; Representative 
Tim Walz; Representative Edward R. Royce; Representative 
Michael M. Honda; Representative Christopher H. Smith; 
Representative Donald A. Manzullo; and Representative Marcy 
Kaptur.

 OPENING STATEMENT OF HON. SANDER LEVIN, A U.S. REPRESENTATIVE 
FROM MICHIGAN, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Chairman Levin. Well, let's begin. We'll do so with opening 
statements. There is going to be a House vote in 15 or 20 
minutes, and Senator Dorgan and the other Commissioners will 
carry on. We'll try to miss as little of the testimony as 
possible.
     All of you were excellent in submitting your testimony in 
advance, and somewhat well in advance, which is not always 
true, so we have all had a chance to read your testimony. Your 
testimony will be entered into the record. As Senator Dorgan 
and I will indicate, you can do whatever you want with your 
five minutes, either going over it in its entirety if you can 
do so in five minutes, or summarizing, hitting high points, 
whatever you would like to do. We very much look forward to 
this hearing and thank all of you for coming.
    Indeed, this hearing embodies why this commission was 
created some years ago. The Commission convenes this hearing to 
examine the likely impact of the 2008 Summer Olympics on human 
rights and the rule of law in China. In its Olympic bid 
documents and its preparations for the 2008 Summer Games, China 
made commitments pertaining to human rights and the rule of 
law. Our witnesses today will help us to evaluate those 
commitments and to 
assess the openness with which China has allowed the rest of 
the world to monitor its progress in fulfilling them.
    In the days before the International Olympic Committee 
voted to select Beijing, there was consideration of human 
rights and related issues, as had been the case--and I 
emphasize this--in previous deliberations about appropriate 
sites for the Olympics. China made a point of raising the link 
between human rights and the 2008 Games. On July 12, 2001, the 
state-run China Daily reported that Wang Wei, the Secretary 
General of the Beijing Olympics Bid Committee, said, ``We are 
confident that the Games coming to China not only promotes our 
economy, but also enhances all social conditions, including 
education, health, and human rights.'' These words could not 
have been clearer. Human rights in the 2008 Olympics were 
linked before Beijing was awarded the Games, and China itself 
linked them.
    Just yesterday, China's Foreign Minister announced that 
China is ready to resume the human rights dialogue with the 
United States that was suspended in 2004. That announcement 
underlines the relevance of this hearing--which was announced 
several weeks ago--and means that there is considerable and 
appropriate ground to cover today.
    On press freedom, Beijing's bid documents state, ``There 
will be no restrictions on journalists and reporting of the 
Olympic Games.'' At the same time they also stated, ``There 
will be no restriction concerning the use of media material 
produced in China and intended primarily for broadcast 
outside.''
    On openness in general, Beijing's action plan for the 
Olympics states, ``In the preparation for the Games we will be 
open in every aspect to the rest of the country and the whole 
world.''
    On government transparency, more specifically, Beijing's 
action plan for the Olympics states, ``Government work will be 
open to public supervision and information concerning major 
Olympic construction projects shall be made available 
regularly.''
    This last point deserves extra attention because it 
underscores the importance of China's new regulation on the 
public disclosure of government information which takes effect 
on May 1 of this year. This new regulation promises people in 
China the legal means to obtain access to government records 
relating to construction, labor affairs, health and safety, the 
environment, and much more before the Games begin, and also 
after.
    Much of the world's attention also has focused on China's 
environment. Beijing's bid documents stated, ``By 2008, the 
environmental quality in Beijing will be comparable to that of 
major cities in developed countries, with clean and fresh air, 
a beautiful environment, and healthy ecology. Meteorological 
observations in the area of Beijing in the past 10 years have 
indicated that July and August are good times to hold the 
Olympic Games.''
    I must note that China's security preparations for the 
Olympics also have raised concerns. Congress banned the 
transfer of crime control equipment to China after the 
Tiananmen killings of 1989. Nonetheless, recent press reports 
describe the export from the United States to China of 
equipment identified as commercial, but with crime control 
applications.
    This merits attention because after the Olympics high-tech 
surveillance products will be left in the hands of China's 
public security and state security organs who could use them to 
monitor political activists, religious practitioners, and 
members of certain ethnic minority groups.
    The Commission asked the Under Secretary of Commerce for 
Industry and Security, Mario Mancuso, to testify today, but 
he's in India on official business and unfortunately could not 
join us. However, he has offered to respond to questions in 
writing, and we will be submitting them.
    So, finally, let me say this. China does not want to be 
labeled as a gross violator of human rights, and yet it makes 
its determination to eliminate dissent painfully clear to the 
world. Thousands of prisoners of conscience languish in jails 
across China. Just in the last few weeks, China has detained 
individuals who have mentioned the Olympics when speaking out 
for human rights. Officials have cast their public-mindedness 
as a subversion of state power.
    These same authorities assert that raising concern over 
human rights in the context of the 2008 Games violates the 
Olympic spirit. Nothing could be further from the truth. 
Fairness on the field of play, fair judgments, and the 
opportunity to witness human potential unleashed to the fullest 
extent are the very essence of the Olympic spirit. They are 
also the essence of freedom and fundamental human rights.
    In seeking the 2008 Olympics, China made specific 
commitments. Seven years have passed, and the Games begin in 
less than six months. This hearing is a necessary part of 
determining whether China is fulfilling its commitments. China 
is, as we all know, an increasingly important part of the 
international community and it is vital that there be 
continuing assessment of its commitments, whether as a member 
of the WTO or as the awarded host of the Olympics. Other 
nations, including our own, have both the responsibility and a 
legitimate interest in ensuring compliance with those 
commitments.
    Senator Dorgan, now it is your turn. This is an opportunity 
for all of us to gather, and it is my pleasure that we can be 
doing this together.
    [The questions to Mr. Mancuso and his responses appear in 
the appendix.]
    [The prepared statement of Chairman Levin appears in the 
appendix.]

   STATEMENT OF HON. BYRON DORGAN, A U.S. SENATOR FROM NORTH 
  DAKOTA, CO-CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Co-Chairman Dorgan. Well, Congressman Levin, thank you very 
much. I appreciate working with you as co-chair of this 
important commission.
    Let me say that the purpose of this hearing is to evaluate 
whether the 2008 Olympics will in fact bring benefits, or any 
lasting benefits, to the Chinese people by enhancing human 
rights and accelerating rule of law development.
    China views the 2008 Olympics as not merely just an 
athletic event, but as recognition of its global, economic, 
diplomatic, and military power. It is a way of extending 
themselves to the world. It is, to them, a political event in 
many ways, and one of great significance. It will confirm their 
acceptance in China as a proud and prominent participant on the 
international stage.
    So, now how did China get to this position? China lost its 
bid in 2000 to host the Olympics and I think in part because of 
the long shadow cast by the government's crackdown in Tiananmen 
Square.
    The government negotiators for China worked a long time to 
secure a better outcome on their second effort to host the 
Olympics, and they were successful, in part, by promising 
international Olympic Committee members and others that China 
would commit itself to significant reforms that included 
international reporters having the unfettered ability to 
interview, to exercise free speech, and to report. China also 
responded to the issue of the environment. There is so much 
that the Chinese promised. Now the question for this hearing 
is, to what effect, what should we, members of the 
international community, expect?
    Now, there was a hearing before the European Parliament, 
and I believe I am told that Ms. Hom was a part of that 
hearing. At that hearing a few months ago, there was a witness 
named Hu Jia. He called in by telephone to that hearing before 
the European Parliament. He, as a courageous dissident, 
addressed the issue of the Olympics and the Chinese Government 
at the hearing. Well, the hearing was very similar to this one, 
as I understand it, with witnesses, and then a telephone 
presentation by Mr. Hu.
    One result of that hearing testimony was Mr. Hu being 
dragged from his house by Chinese state police agents. He now 
sits in jail. His wife and his three-month-old child are under 
house arrest in their Beijing apartment. The Chinese Government 
has a three-month-old under house arrest, mind you, and Mr. Hu 
sits in jail. Their apartment's telephone and Internet 
connections are cut. All this, for speaking to a committee--
before the European Parliament--very much like this commission. 
So much for free speech and free expression.
    Just last week, Yang Chunlin, an unemployed factory worker, 
went on trial for subversion in northeast China. He was 
arrested last year for reportedly helping nearby villagers seek 
compensation for lost land. He had collected 10,000 signatures 
from local farmers. The signatures were for a letter that read 
in part: ``We Want Human Rights, Not the Olympics.'' 
Prosecutors said that that letter stained China's international 
image, and that it amounted to subversion, so this unemployed 
factory worker went on trial.
    Mr. Chairman, I am going to ask that we include a list of 
political prisoners in China, which I have attached to my 
statement, to be a part of this hearing record. It is a short 
list; not exhaustive, just representative. A short 
representative list of those who now sit in prison for the very 
thing that we will exercise in this room: speaking freely.
    We were promised, all of us were promised, the world was 
promised by the Chinese Government that they would move in the 
direction of allowing more discussion, free speech, and other 
freedoms. We are now discovering that that was just a promise. 
We expect, I hope through this hearing, to hear more about 
whether and how China is meeting its commitments.
    I hope the Chinese Government is listening. I hope they 
will hear the message from this commission that we expect 
progress. We 
expect the Chinese Government to keep its word. We expect the 
Chinese Government to stop detaining under house arrest three-
month-old children. We expect them to release people like Mr. 
Hu and others from their prisons, people who are jailed 
precisely because, and only because, they had the courage to 
speak out and exercise the right of free speech, something we 
take for granted every single day of our lives here in this 
great country.
    So, Mr. Chairman, I will ask consent that we include in the 
record this list of political prisoners that I have included in 
my statement.
    Chairman Levin. Without any objection, so ordered.
    Would anybody else like to make a short statement?
    Co-Chairman Dorgan. Mr. Chairman, let me also ask that 
Senator Hagel's statement be included in the record, at his 
request.
    Chairman Levin. Without objection.
    So this doesn't always happen at committee or commission 
meetings. It's usually just two of us. So, let each of us who 
would like make a short statement, then we'll hear from the 
witnesses.
    [The prepared statement of Co-Chairman Dorgan appears in 
the appendix.]
    [The list of prisoners appears in the appendix.]
    [The prepared statement of Senator Hagel appears in the 
appendix.]
    Senator Martinez. Thank you. Let me just say from my 
standpoint, I just associate myself with the comments of 
Senator Dorgan and thank the Chair for holding this hearing.
    Chairman Levin. Thank you very much, Senator. 
Representative Pitts? Thank you.

 STATEMENT OF HON. JOSEPH R. PITTS, A U.S. REPRESENTATIVE FROM 
              PENNSYLVANIA, MEMBER, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Representative Pitts. Mr. Chairman, thank you for holding 
this important hearing on ``The Impact of the 2008 Olympic 
Games on Human Rights and the Rule of Law in China.'' In 
preparing for this hearing, I have been pleased to see some of 
the positive changes occurring in China as a result of the 
government's commitment to uphold the mandate of the Olympic 
Charter; however, I remain concerned about the staying power of 
any of these changes. The question remains as to whether or not 
the people of China will benefit from the increased observation 
of and attention to Chinese Government regulations on issues as 
varied as refugees, migrant workers, and the peaceful 
expression of religious faith.
    Over the years, as I have watched changes in China, I have 
been encouraged and discouraged during countless cycles of two 
steps forward and then three steps backward. While some might 
dispute that assessment, the fact that we continue to receive 
numerous reports about Chinese officials' actions against North 
Korean refugees, Uighur Muslims in Xinjiang province, child 
laborers, and Protestant house church leaders and congregants 
reflects that there still is a long way to go. Unfortunately, 
the government does not seem bent on protecting, assisting, or 
improving the lives and/or the peaceful expression of beliefs 
by any of these groups.
    While this hearing focuses on the impact domestically of 
the Olympics being held in China, there is another side to 
China's recent and even long-term activities. China's support 
for the government of Sudan is highly problematic, particularly 
in light of the rape, death, and destruction occurring in 
Darfur.
    While the Chinese Government making a recent statement to 
the government of Sudan on this issue is a small positive step, 
much more pressure and leadership on behalf of the people of 
Darfur should come from Chinese officials.
    Chinese officials constantly use the refrain that they do 
not interfere in the internal matters of other countries--that 
is an interesting statement in light of the fact that their 
presence, money, and resources automatically do interfere in 
the internal matters of other nations. In Burma, for instance, 
reports suggest that since 1989, the Chinese Government has 
provided the dictators in Burma with over 2 billion dollars' 
worth of weapons and military equipment. This Chinese weaponry 
has allowed the regime to quadruple the size of its forces to 
450,000. As a result, Chinese weaponry has directly contributed 
to the brutal dictatorship's targeting of children, women, and 
ethnic groups in its attacks against its population. Chinese 
officials can't tell me that they have no responsibility for 
what is going on in Burma--it's simply not true. As is well 
known, the Burmese regime uses rape as a weapon of terror, uses 
individuals captured in raids as human landmine sweepers, and 
destroys food sources, homes, and places of worship. 
Specifically, the dictators of Burma could not implement their 
attacks without Chinese weaponry.
    In terms of North Korea, the Chinese Government targets 
North Korean refugees who have fled to China and sends them 
back to certain torture and likely death at the hands of the 
North Korean officials. If the Chinese Government refused to 
deport North Korean refugees and instead allowed, as they 
should under their international commitments, the UN High 
Commissioner for Refugees [UNHCR] to assist and resettle the 
refugees, it would undermine the North Korean Government. 
China's actions against 
refugees directly helps the brutal North Korean regime.
    The Chinese Government must understand that statements that 
it does not interfere in the internal affairs of other nations 
is belied by its actions. If the Chinese Government wants to 
curtail criticism of its actions, then it needs to implement 
long-term, lasting changes that improve the lives and protect 
the freedoms of the Chinese people and other peoples around the 
world.
    I sincerely hope that China's hosting of the Olympics is 
the first step toward an era of new openness and positive 
change that will benefit the Chinese people and others. 
However, only time will tell. I stand with those Chinese 
journalists, peaceful religious leaders, peaceful political 
activists, and NGO leaders who continue, with great courage, to 
fight for change in China.
    I look forward to hearing from our very distinguished 
witnesses and receiving their insights and recommendations on 
steps the U.S. Government should take to further support the 
people of China.
    Chairman Levin. Thank you.
    Representative Smith? And let me just mention, I think we 
are going to have a vote soon. So if each of you could try to 
summarize, your entire statement will be placed in the record. 
Chris?

 STATEMENT OF HON. CHRISTOPHER H. SMITH, A U.S. REPRESENTATIVE 
FROM NEW JERSEY, MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Representative Smith of New Jersey. Thank you very much, 
Mr. Chairman. Let me just say at the outset that I also serve 
as Ranking Member on the Africa and Global Health Subcommittee 
and we have a very important hearing on tuberculosis, so I will 
have to return to that hearing. As the Ranking Republican, I 
want to thank our witnesses in advance for the work they are 
doing here. Like Mr. Pitts and all of our colleagues, all of us 
have been joined at the hip with Mr. Levin in trying to promote 
human rights and the rule of law in China.
     A few weeks ago, the New York Times reported the arrest of 
a 34-year-old Chinese dissident named Hu Jia. Mr. Hu's crime? 
Using his home computer to disseminate information on human 
rights violations. He joins a huge, ever-growing number of 
cyber dissidents who today in China are being hauled off to 
jail simply for promoting human rights and democracy.
    The Times article suggests the obvious in the run-up to the 
Beijing Olympics in August. The People's Republic of China 
[PRC] is using its iron fist to eradicate dissent. Even Mr. 
Hu's wife and two-month-old daughter, who are now under house 
arrest, prompted the Times to note that the baby is probably 
the youngest political prisoner in China.
    But in this particular case we can, and must, take direct 
action. I'm afraid that many American companies like Google, 
Microsoft, and Yahoo! have cooperated with the Chinese 
Government in turning the Internet into a tool of surveillance 
and censorship. Last year, as some of you may know, I 
introduced the Global Online Freedom Act, which is making its 
way through Congress to prevent U.S. high-tech Internet 
companies from turning information over to the Chinese police 
that identifies individual Internet users and 
requires them to disclose how the Chinese version of their 
search engines censors the Internet. In October, the Foreign 
Affairs Committee approved it and we hope it will be on the 
floor soon.
    In China--and I think this is the one issue that is often 
not 
focused upon--the whole issue of the one-child-per-couple 
policy continues to be one of the most egregious human rights 
violations, especially against women and especially against 
children, ever perpetuated in human kind.
    The one-child-per-couple policy, with its heavy reliance on 
forced abortion and coerced sterilization, has led to an 
unbelievable, disproportionate number of girl children and girl 
babies. One estimate puts it at as many as 100 million missing 
girls in China as directly attributable to more than 30 years 
of one-child-per-couple, which went into effect in 1979. This 
is gendercide. These children, these girls, are targeted simply 
because they are little girls. My wife and I have four 
children. If we lived in China, we would have one, maybe 
Melissa. The other three would be dead, because brothers and 
sisters are illegal in that particular country.
    We also know that there is no religious freedom, that the 
house church movement continues to be suppressed, the Falun 
Gong, the Uighurs. I do believe the Olympics give us a window 
of opportunity that we can ill afford not to seize to raise 
these issues robustly, and hopefully have an impact. That is 
why this hearing is being held.
    Finally, the Chinese Government needs to crack down and we 
need to investigate this whole issue of bodies. I know you are 
all following it; ``20/20,'' Harry Wu, and so many others have 
raised the issue, as it ought to be raised: how did those 
individuals get the plasticization that has occurred to their 
bodies, many of these men and women, very much in the prime of 
their life?
    I happen to believe, having actually been in a Laogai 
prison camp soon after Tiananmen Square, Prison Camp #1 in 
Beijing, that they have been shot. We were looking for more 
evidence, but all of the evidence suggests--but has not yet 
been proven--that they are there through a very nefarious way 
and we need to investigate that as well.
    Again, Mr. Chairman, my full statement will be made a part 
of the record. But human rights in China are non-existent--and 
I would just add this. The United Nations needs to step up to 
the plate. The Human Rights Council has not done its work. 
China is a member in good standing, and when that went from the 
Human Rights Commission to the Human Rights Council, all of 
these promises were made about how that new body would 
represent an honest, transparent, aggressive, and incisive 
look, particularly at countries that are part of the council. 
Nothing could be further from the truth. Other treaty bodies, 
genocide conventions, conventions against torture, all those 
others need to step up to the plate because they have not done 
the kind of scrutiny on China that they need to do.
    Thank you, Mr. Chairman.
    [The prepared statement of Representative Smith appears in 
the appendix.]
    Chairman Levin. Thank you.
    Senator Dorgan and I have quietly consulted. If each of the 
rest of you could take just a minute, try to do that so that we 
can get to the witnesses.
    Representative Walz?

    STATEMENT OF HON. TIM WALZ, A U.S. REPRESENTATIVE FROM 
 MINNESOTA, MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Representative Walz. Thank you, Mr. Chairman and our 
colleague from the Senate. I appreciate the opportunity, and 
all of our witnesses.
    The Olympic Games have great potential, as they embody the 
greatness of the human spirit, to give us an opportunity to 
look, as they should, at what it means to be part of the human 
community. The issue of human rights obviously needs to be at 
the center of that.
    This commission and this body--and I would say the American 
people--take very seriously that responsibility to look at it 
as a world citizen and understanding what is there. I have had 
the opportunity to live and work amongst my Chinese friends, 
and having been in China during Tiananmen Square and after, 
understanding that that spirit is there amongst the Chinese 
people, too.
    There is a sense of responsibility for us to probe deeply 
as a people, looking at the Games and letting those Olympic 
Games be a mirror to us also. The Universal Declaration of 
Human Rights that this nation was party to in 1947, there are 
some core beliefs there that I think, by asking these questions 
about the Olympics, by asking these questions how the Chinese 
Government is fulfilling their responsibility to their people, 
lets us as a human nation get beyond some of these sticking 
points and get to some true solutions.
    So I thank the Chairman for the opportunity to be here, and 
thank the witnesses.
    Chairman Levin. Thank you.
    Mr. Royce?

 STATEMENT OF HON. EDWARD R. ROYCE, A U.S. REPRESENTATIVE FROM 
CALIFORNIA, MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Representative Royce. Thank you, Mr. Chairman. I appreciate 
the opportunity to serve on this commission. I think the 
Olympic Games have put a light on China. It is soon going to be 
a spotlight. I think many of us have come to view China's 
hosting of these Games as some pretty key leverage in pushing 
for greater press freedom, transparency, and human rights. I 
think we have to be realistic. I think Secretary Rice put it 
well the other day. ``Let us not get carried away,''she said, 
``with what listening to Dvorjak is going to do in North 
Korea.''
    I think the same could be said of the Olympics in Beijing. 
The Games are going to come and go, and they are going to go 
pretty quickly. It is the long-term impact that we are 
interested in.
    I want to give one example, Mr. Chairman. It was announced 
today that, sensitive of its image leading up to the Games, 
China will resume its human rights dialogue with the United 
States, and that is very positive. Yet, we have heard that 
commitment before. We need to make sure that this isn't an 
empty promise that disappears after those closing ceremonies.
    I would also like just to point out that this commission 
has been working on an issue which I hope we continue to work 
on. This is an issue that humanitarians here have brought to 
us, working on behalf of North Korean refugees inside China. 
There are a number of North Korean refugees in China under 
UNHCR protection, yet China has refused to issue them an exit 
visa unless the UNHCR agrees not to process any more asylum 
seekers until after the Beijing Olympics are over.
    Now, I understand that China's policy is now undermining 
the UNHCR's ability to bring additional refugees into 
protection. Mr. Chairman, this is unacceptable. These refugees 
could be quickly resettled in third countries. China knows 
this, we know it. I hope that this is an issue that the 
Commission can further explore, and I thank you again, Mr. 
Chairman, Co-Chairman, for your good work here on the 
Commission.
    Chairman Levin. Mr. Honda?
    Representative Honda. Thank you, Mr. Chairman, for allowing 
us to speak. I will yield my time to you and to our witnesses 
so we can get on with the program.
    Chairman Levin. Mr. Manzullo?
    Representative Manzullo. I have no statement. I ask that my 
written statement be entered into the record.
    Chairman Levin. All right.
    We are going to begin. The bell has rung. But Mr. Dorgan 
will carry on.
    I think what I will do, is introduce the five of you, and 
again, thank you. The focus of this hearing is on human rights 
and the rule of law in China. That is the basic purview of this 
commission. That has really determined the kind of testimony 
that we want today.
    We will first hear from Mr. Martella, who is the General 
Counsel for the Environmental Protection Agency. Each of you 
has a long list of accomplishments, but I will just give the 
titles, if I might.
    Sharon K. Hom is the Executive Director of Human Rights in 
China, and a Professor of Law Emerita at the City University of 
New York School of Law. I stumbled over emerita; you are much 
too young. I do not quite understand that.
    Bob Dietz. Mr. Dietz is Asia Program Coordinator for the 
Committee to Protect Journalists [CPJ]. Sophie Richardson is 
the Asia Advocacy Director of Human Rights Watch. Robin Munro 
is the Research Director for the China Labour Bulletin.
    So, Mr. Co-Chair, take over. We will stay for a few 
minutes. Is there just one vote? Does anybody know? I hope so.
    [The prepared statement of Representative Manzullo appears 
in the appendix.]
    Co-Chairman Dorgan [presiding]. Mr. Martella, thank you 
very much. Why don't you proceed? Your formal statements will 
be part of the record. We will ask each of you to summarize 
your statement now for us.

     STATEMENT OF ROGER R. MARTELLA, JR., GENERAL COUNSEL, 
        ENVIRONMENTAL PROTECTION AGENCY, WASHINGTON, DC

    Mr. Martella. Chairman Levin, Co-Chairman Dorgan, members 
of the Commission, thank you for providing me with the 
opportunity and the honor to appear before you today.
    The subject of today's hearing raises issues of critical 
importance not just to China, but to the world. Beyond the 
sporting events and pageantry, the Beijing Olympics, more 
importantly, may offer spectators the broadest window yet into 
a much more needed feat of strength: has the planet's fastest-
growing economy developed the fundamental legal pillars worthy 
of the world's greatest stage?
    After the torch is extinguished in August, international 
opinion likely will remember less the medals Chinese athletes 
take home, but more of the nation's achievements--or the lack 
thereof--on the fundamental issues of human rights, the rule of 
law, and environmental protection.
    I am here today to address China's efforts to provide one 
of the most vital pillars of human life: a safe, healthy, and 
clean environment. Environmental leaders and scholars have 
often framed environmental protection as critical to human 
rights.
    In September 2007, I instituted the EPA China Environmental 
Law Initiative. The initiative is premised on the experience in 
the United States that a strong environmental law framework is 
a critical prerequisite to a strong environment. At the center 
of our initiative is the only Web site we are aware of 
dedicated to Chinese environmental laws.
    In China, according to the World Bank, between 1981 and 
2001 the proportion of those living in poverty fell from 53 
percent to 8 percent. While this indisputably is a laudable 
accomplishment, what is less clear in 2008 is the percentage of 
those not living in economic poverty, but environmental 
poverty. To give just one insight regarding air issues alone, 
particulate levels in Beijing are as much as six times that of 
New York City.
    Reportedly, more than 300,000 people per year die 
prematurely from air pollution in China. With this backdrop, 
China is planning to build over 500 coal-fired power plants 
before 2020. Just today on the Associated Press there was an 
article: ``Pollution Turns China River Red and Foamy, Two 
Hundred Thousand Lose Water.''
    In the face of these issues it is important to make one 
point clear. From my firsthand observations, what China does 
will make a better environment. Several factors motivate that 
goal, including the Olympics. As Senator Dorgan recognized a 
few minutes ago, with the international media presence and all 
eyes on Beijing this August, China knows the world is watching 
not just its athletes, but its gray skies as well, and needs to 
promote a positive image of the environment.
    From the beginning, the 2008 Beijing Olympic Games 
Organizing Committee (BOCOG) has promoted the event as the 
``Green Olympics.'' A report from the United Nations last year 
credited Beijing with significant strides in an investment of 
$12 billion to improve the environment in advance of the 
Olympics. At the same time, it recognized significant concerns 
remaining with air pollution, particularly due to the 
introduction of 1,000 new car registrations every day in 
Beijing.
    In its own way, the 2008 Beijing Olympics demonstrates both 
everything China is doing well to provide a healthier 
environment for its residents and the significant challenges 
that lie ahead.
    First, the Olympics demonstrate China's world-class 
sophistication and ability to understand, communicate, and 
address environmental issues and challenges. In other words, 
the Olympics demonstrate clearly that China possesses the 
scientific, technical, and financial resources needed to 
promote a better environment.
    Second, the 2008 Olympics demonstrate the government's 
flexibility, prioritizing environmental concerns and targeting 
solutions toward those concerns. However, questions that must 
be considered after August include the extent to which, by 
focusing on an Olympic priority, China merely transported 
environmental concerns from one area to another, the extent to 
which this Olympic priority was at the expense of other 
existing environmental concerns, and to the extent to which the 
lessons learned in Beijing will be applied elsewhere in China.
    Third, critical to convincing the world of a message is the 
assurance that the message is authentic, that the public trusts 
it, and that it is enabled to participate through public 
participation and a transparent process. In this way China has 
arguably made less progress. The plethora of numbers, criteria, 
and accomplishments cited by the government frequently come 
without the transparency we would expect and which are critical 
to other environmental law frameworks. This, in turn, can raise 
doubts about authenticity. While on the other hand there are 
some positive trends toward public participation in 
environmental lawmaking, the pace must improve for the public 
to have meaningful input.
    Finally, perhaps the most significant contribution to the 
Green Olympics will not be any specific measurable 
environmental benefit, but hopefully an awakening to a new 
approach toward achieving both economic success and 
environmental protection long-term, as Commissioner Royce 
suggested as well, looking for long-term solutions.
    Beyond specific solutions for a single event, what is more 
sorely needed are approaches on a national scale. This will 
require a system of cooperative federalism that encourages 
local governments to realize and achieve the goals of a clean 
nation.
    The PRC could overcome its most significant hurdle by 
holding local governments accountable for environmental 
protection in addition to pure gross domestic product [GDP]. We 
may begin to see improvements in these lines in the coming 
months, but I believe this remains the most significant hurdle 
to a clean environment today in China.
    Clearly, the Olympics have brought environmental 
improvements to the residents of Beijing. What the 2008 
Olympics hopefully will bring to all China is an environmental 
awakening that it can realize a better environment and economic 
prosperity as mutually achievable and not exclusive goals.
    Thank you, Mr. Chairman and Mr. Co-Chairman.
    [The prepared statement of Mr. Martella appears in the 
appendix.]
    Co-Chairman Dorgan. Mr. Martella, thank you very much.
    Next, we will hear from Ms. Hom. We will again encourage 
you to know that your entire statements are part of the record, 
and we will ask you to summarize.

STATEMENT OF SHARON K. HOM, EXECUTIVE DIRECTOR, HUMAN RIGHTS IN 
 CHINA, PROFESSOR OF LAW EMERITA, CITY UNIVERSITY OF NEW YORK 
                  SCHOOL OF LAW, NEW YORK, NY

    Ms. Hom. Congressman Levin, Senator Dorgan, and members of 
the Commission, thank you for this opportunity to engage in 
both the discussion and question and answer session afterward. 
It is an honor to testify alongside of the distinguished 
experts and my human rights colleagues on this panel.
    With only about five months left to the opening of the 
Games, we appreciate the Commission's timely attention to the 
issue, and the rule of law issues as well. We particularly 
welcome the Commission's ``2007 Annual Report,'' which not only 
called for an end to the harassment of activists like Hu Jia 
and other activities, but also raised the really important 
issues that we will be continuing to discuss today.
    There have already been references to the Beijing-specific 
Olympic obligations, but I would like to put these obligations 
and promises, and the issue of whether these Olympic promises 
will lead to any lasting impact, within a broader framework of 
China's international obligations, including its international 
human rights obligations.
    Additionally, the Olympic obligations and the international 
obligations are implemented in relationship to domestic Chinese 
law, in particular, the provisions of the Chinese Constitution, 
which does include provisions for protecting freedom of speech, 
press, assembly, association, privacy, correspondence, and the 
right to criticize the government. So I think that that is the 
normative universe for assessing the promises. They do not 
exist in isolation. They did not exist in isolation prior to, 
during, or after the Olympics. That is the way we can think 
about leverage for lasting structural change.
    Another key rule of law issue is that many of the 
substantive and legal reforms that have been referenced, 
including the Open Government initiatives [OGI], and some 
others that I believe my colleagues will also be talking about, 
have mostly been formal, law on the books. The real question is 
implementation.
    There are two implementation challenges. One is the 
hostility of the Chinese authorities to any international or 
domestic human rights-related criticism, especially criticism 
related to the Olympics, because the Chinese authorities have 
characterized any questioning of government policies in the 
lead-up to the Games as an attack on China itself. This 
intolerance of criticism and related nationalism conflates 
China with the Chinese Government.
    A government ready to host a major international event, a 
mature government that respects the rule of law, needs to 
demonstrate a much higher tolerance for thoughtful, critical, 
and difficult individual decisions of the conscience. Instead, 
for example, the recent response by the Chinese authorities to 
Steven Spielberg's decision was to dismiss him as ``naive and 
foolish.''
    Domestically, as has already been referenced, there are 
cases of individuals who are in detention and in prison for 
raising Olympics-related criticisms. Many are being charged 
with incitement to subvert state power, with procedural 
consequences; criminal procedural protections that had been 
introduced as part of the criminal procedure reforms back in 
1997 are no longer available to those charged with subversion 
or state secrets crimes, resulting in limited access to your 
lawyer, family, the evidence, and an open trial.
    Underlying these implementation issues is a rhetorical zero 
tolerance for critical voices, despite guarantees in China's 
own Constitution.
    Going forward, a rule of law must be built on 
accountability and an effective response to the justice claims 
of the past. Today, at the request of the Tiananmen Mothers, a 
group within China composed of the families of the victims of 
June 4th, Human Rights in China [HRIC] is releasing an open 
letter from the Tiananmen Mothers calling for justice in the 
lead-up to the Olympics. These brave individuals have made it 
quite clear that the authorities must address the past if China 
is to move forward. I would ask that the full text of the 
Tiananmen Mothers' open letter be entered into the record.
    Co-Chairman Dorgan. Without objection.
    [The letter appears in the appendix.]
     Ms. Hom. Thank you.
    The Tiananmen Mothers' open letter states eloquently, ``The 
disastrous aftermath of that brutal massacre, one of the 
greatest tragedies of our times, even after 18 years is still 
unresolved. The wounds deep in the heart of the people are not 
healed. Because of this, the current political and societal 
landscape continues to deteriorate into disorder and imbalance. 
This proves that June 4th, this bloody page in history, has yet 
to be turned and remains a knot deep inside the people's 
heart.''
    The letter calls on the Chinese authorities to meet face-
to-face and to dialogue with the Tiananmen Mothers. This is a 
first-time request. In light of the Chinese authorities' recent 
openness to dialogue with the United States, we would urge and 
encourage them to also dialogue with their own people.
    The Tiananmen Mothers clearly link the human rights issues 
with the Olympics, asking, ``When the government has repeatedly 
refused dialogue with the victims' families, how can it face 
the whole world? Is it really possible that as the host of the 
2008 Olympic Games the government can be at ease allowing 
athletes from all over the world to tread on this blood-stained 
soil and participate in the Olympics? ''
    So let me take the remaining minute to wrap up and 
highlight some of the suggestions and questions and concerns 
that we have. HRIC is not calling for a boycott, as we believe 
that the hosting of the Games still presents an opportunity and 
the responsibility to get some traction on the human rights 
issues and to advance rule of law.
    This is up to each of the different actors within our 
respective sectors: governments, athletes, sponsors, tourists, 
business people, corporate leaders, and academic exchange 
programs. For example, a number of journalism and media 
programs have initiated exchange programs to send journalism 
students to the BOCOG to help them draft their English-language 
media work. I would suggest that some important areas to 
examine include focusing on the 
orientation for these students, and what kinds of actual media 
assistance are being offered. We also urge the U.S. Government 
to continue to raise individual cases at high-level visits and 
other fora with the Chinese authorities. This sends very clear 
messages of support. Secretary Rice's recently reported 
engagement and raising of the case of Hu Jia and other 
activists is a good example.
    We would also like to enter into the record the list of 12 
individual rights defenders that Human Rights in China's 
Olympics Take Action Campaign has featured. These 12 
individuals include Shi Tao, Chen Guangcheng, and Mao Hengfeng 
for March, who has been in detention as a result of violating 
the one-child population policy. Collectively, these 12, 
imprisoned for rights-related work, represent the full range of 
human rights issues addressed by the Campaign.
    Regarding these 12 individuals, at least 5 of them have 
received decisions from the United Nations Working Group on 
Arbitrary Detention--an international, independent human rights 
body--that their detentions are arbitrary and in violation of 
international human rights law. Therefore, urging their 
immediate releases could not be rejected as interference in the 
internal matters of China.
    Co-Chairman Dorgan. Ms. Hom, we will include those 
materials in the record. I want to ask you to summarize your 
statement so that we can get on with the other witnesses.
    [The list appears in the appendix.]
    Ms. Hom. Thank you.
    With respect to censorship and surveillance, we urge the 
Commission to monitor two areas of concern presented by the 
security preparations and technology: first is the appropriate 
balancing of security concerns and protections for human 
rights--the Johannesburg Principles set forth relevant and 
appropriate standards; and the other is the post-Olympic use of 
the advanced security technology that has already been 
implemented, because there are post-Olympic use provisions in 
the host city contracts of other cities.
    Finally, we would urge the Commission to publicly express 
your support for the Tiananmen Mothers and other domestic 
rights defenders. Despite the dismissals of June 4th as 
belonging to the past by the International Olympic Committee 
[IOC] president and others, June 4th does not belong to the 
past, and a peaceful resolution of it will enable a successful 
future.
    Thank you.
    [The prepared statement of Ms. Hom appears in the 
appendix.]
    Co-Chairman Dorgan. Ms. Hom, thank you very much for being 
here, and thank you for your testimony.
    Next, we will hear from Mr. Dietz.
    Mr. Dietz, you may proceed.

STATEMENT OF ROBERT DIETZ, ASIA PROGRAM COORDINATOR, COMMITTEE 
              TO PROTECT JOURNALISTS, NEW YORK, NY

    Mr. Dietz. Thank you very much for this opportunity. Let me 
cut right to the chase. China is the world's largest jailer of 
journalists, and it has held that record since 1999. Currently, 
CPJ counts 25 journalists behind bars. It is interesting to 
note that that number is down from 29 of last year and 31 of 
the year before.
    Those raw numbers might make you think that there is a 
downward trend going on, but in fact what we see is that in 
China, with the state having advanced its censorship capacity 
to such a level, that very few journalists, frankly, are 
willing to take a risk. They are operating in a very 
commercialized and competitive atmosphere, though, and they 
continue to push the limits of news 
coverage.
    Let me address our greatest fear in terms of journalism and 
journalists going into the Olympic Games. It is not the 25,000 
to 35,000 foreign journalists who will go to China. Our 
greatest fear is the Chinese journalists who will find 
themselves in a heady, new, freer atmosphere, at least in terms 
of ability for foreign journalists to operate, and that those 
local journalists might suffer consequences once the spotlight 
of the Games moves on.
    Specifically, we are calling on the foreign media companies 
which are going to China and will be hiring hundreds, and most 
likely several thousands, of young people to assist them as 
production assistants, runners, gofers, drivers, translators, 
people who can arrange meetings.
    We want international media to be aware that the rules 
under which they are allowed to operate at this point in China, 
which have been liberalized, do not apply to the Chinese 
journalists. And that especially when you are dealing with 
younger people who will be working for these foreign media 
companies, we want to impress upon them that they must take 
into concern the fact that even though these young people will 
be eager to follow orders to try and prove themselves to their 
new employers, they are doing that at some degree of risk. The 
one thing we are trying to impress on all of our colleagues in 
the media is, frankly, to be very aware of that.
    Ms. Hom ran down the way that the Chinese use state 
subversion laws to jail people. That is also the case with 
journalists, too. More than one-half of the journalists in jail 
are behind bars because of similar charges. The charge varies 
at times, but basically ``state security'' is the catch-all 
phrase that lets the judge throw the book at a journalist.
    It is also interesting to note that more than half of the 
journalists in jail are imprisoned because of Internet-related 
activities. When we look at the Internet in China, we see a 
very dynamic situation. There is still a battle being fought 
between the government and people who would seek to make use of 
the Internet and its free speech capabilities as is done in 
much of the West.
    The jury is out on who will win that technological battle. 
I think what we see on the Internet now is a drive from 
underneath, people using the Internet in rural villages in 
protests and factory strikes, places where the local government 
has come down and tried to suppress dissent. It is on the 
Internet that we see the source material from the grassroots 
that tends to rise up, and at times gets covered in mainstream 
Chinese media.
    We have three journalists who are due to be released 
sometime before the Games start in August. It would be a 
significant gesture on their part to release them immediately. 
We really think that at this point China has to begin to move 
ahead on these sorts of issues.
    We are pleased to see that all of a sudden a door, an 
apparent window of opportunity, is opening in which our 
government will engage with them on pressing these issues. In 
my longer testimony I have supplied the names of the three 
journalists who are due out. Frankly, we think it should be 
more than just the three. All 25 should be released. But we are 
ready to take this just one step at a time.
    It is also interesting to note that China is in a race with 
Cuba to be the world's largest jailer of journalists. It would 
be great if China were to lose that race to the bottom, to lose 
that perverse contest.
    I will end my remarks fairly quickly. All the people that 
you see at this table know each other. We work together. We 
have had this challenge on our plate for a couple of years now. 
We saw the period as a window of opportunity. We jumped on it. 
Last year we prepared this report, ``Falling Short,'' and we 
are revising it for release again this year, detailing how 
China controls journalists.
    So, to the extent that we have seen any change, we would 
like to think that we have had a role in that and their 
activities. But, frankly, there has not been that much. The 
situation for media in China is nowhere near what was promised 
by either the IOC or the Chinese Government back in 2001 when 
they assured everyone that this would be a much better 
situation. It is just not.
    I think we all agree that we have to call on you, the 
members of this commission, and the members of our governments 
to begin to bring this pressure, as well as us. We have done 
what we can. We are going to continue to do this. But at some 
point the onus falls on you as well.
    In doing that advocacy, we hope that in addition to 
pressuring China specifically on these media issues, that you 
take on the International Olympics Committee, who entered into 
an agreement in 2001 with the Chinese Government, reassured 
everyone over very loud complaints, a very loud expression of 
concern, about what would happen. They said, don't worry, this 
is a done deal and it is going to work. Well, it is nowhere 
near working and it certainly seems like it is not going to 
change in any significant or acceptable way by the August 
Games.
    You have my testimony. I think I have hit the high spots, 
and I am ready to allow others to speak and use up any time 
that is left over.
    [The prepared statement of Mr. Dietz appears in the 
appendix.]
    Co-Chairman Dorgan. Mr. Dietz, thank you.
    Congressman Levin has rejoined us. Perhaps----
    Chairman Levin. No, keep going.
    Co-Chairman Dorgan. We will continue with Ms. Richardson.
    Chairman Levin. And we have, fortunately, a Motion to 
Recommit. Hopefully, they will take the full 10 minutes, and 
then we will have 15 minutes to vote. So if each of you could, 
take five minutes if possible and then let us do some 
questioning. Okay. Thank you.

 STATEMENT OF SOPHIE RICHARDSON, ASIA ADVOCACY DIRECTOR, HUMAN 
                  RIGHTS WATCH, WASHINGTON, DC

    Ms. Richardson. Thank you. I will be brief.
    Chairman Levin, Co-Chairman Dorgan, thank you very much for 
inviting Human Rights Watch to join you today. This is a timely 
hearing and it is always a privilege to participate with such 
other distinguished panelists.
    There are three key questions before us today. The first, 
is whether the human rights situation in advance of the 2008 
Beijing Games is improving as the Chinese Government has 
repeatedly insisted it would. We regretfully submit that it is 
not.
    Over the past year we have continued to document not only 
chronic human rights abuses such as the restrictions on speech, 
assembly, and participation, but also abuses that are taking 
place specifically because of the Games. Those issues are 
discussed at length in our written testimony.
    The second question is whether this negative impact will be 
a lasting one. Human Rights Watch believes that these abuses 
constitute a failure of the Chinese Government to fulfill its 
own voluntary promises to improve rights in order to win the 
bid to host the Olympics, and that unless significant pressure 
is brought to bear, we fear the negative impact will not only 
be very difficult to reverse, but it will also mean that in 
effect the international community will have tacitly endorsed 
the repression necessary to engineer this particular vision of 
a modern cosmopolitan China that the Chinese Government so 
badly wants to portray.
    The third question, therefore, is what we can do to alter 
the current situation to ensure a better outcome. Senator 
Dorgan, in your opening remarks you suggested your hope that 
what got discussed today in the messages of this hearing would 
be heard by the Chinese Government. We think it is equally 
important to explain to the Chinese people what exactly the 
U.S. Government is going to do to help defend their human 
rights.
    The Administration and the State Department assure us that 
they are constantly raising these human rights concerns, and 
while we applaud those efforts--we really do--we question the 
efficacy of quiet diplomacy and the absence of more public 
measures. After all, the decreasing volume of U.S. criticism of 
China's rights record over the past decade is in part to blame 
for the current situation.
    We are encouraged by Secretary Rice's public discussions in 
Beijing about specific rights concerns and we strongly urge 
similar 
efforts over the coming months. The Chinese Government 
desperately wants a positive international assessment of its 
country during this time of unprecedented scrutiny and we 
believe that, if pressed, it will make progress in order to get 
such positive reviews, particularly from the United States.
    To that end, we respectfully urge a number of steps, 
including that all Members of Congress and senior 
Administration officials who visit China in the coming months 
speak publicly about human rights abuses, and when security for 
all involved can be assured, that you visit those under house 
or actual arrest for challenging the Chinese Government.
    Second, we urge that the members of this commission request 
public assurances, particularly from U.S.-based Olympic 
sponsors, that their business practices in China do not 
contribute to rights abuses.
    Third, that the Administration be asked to articulate how 
it will respond to rights abuses in the coming months, 
particularly how it is prepared to assist American journalists 
who themselves are harassed, detained, or abused while trying 
to take advantage of the new freedoms that Bob spoke about a 
moment ago.
    Fourth, we ask that the Administration describe what 
specific rights-promoting activities the President will engage 
in while he is in Beijing this summer to demonstrate that his 
rhetorical commitments will in fact be made real. These could 
include making himself available for online discussions to 
underscore the importance of Internet freedom, attending the 
trials of dissidents who have been charged with inciting state 
subversion, visiting unregistered churches to emphasize the 
right to practice religion freely, or speaking publicly about 
the constraints under which Chinese journalists continue to be 
forced to operate.
    Fifth, we urge that if the United States agrees to China's 
proposal to resume the bilateral human rights dialogues, which 
at the moment certainly appear like a fairly cynical gesture 
from Beijing given the timing of this offer, that the United 
States insist on including the kinds of timelines and 
benchmarks that were absent from past dialogues and that would 
have made them much more meaningful exercises.
    Finally, we urge that if the current crackdown shows no 
sign of abating in the current months that you ask the 
Administration to publicly reconsider whether it is appropriate 
for the President and other senior members of the 
Administration to attend the opening or closing ceremonies of 
the Games. If steps like these are not taken and taken soon, 
the U.S. Government does run the risk of giving imprimatur of 
approval to the Chinese Government's rights record.
    Thank you very much for the opportunity to participate. I 
will yield my time to Robin.
    [The prepared statement of Ms. Richardson appears in the 
appendix.]
    Co-Chairman Dorgan. Dr. Munro, you may proceed. Thank you 
very much.

   STATEMENT OF ROBIN MUNRO, RESEARCH DIRECTOR, CHINA LABOUR 
                   BULLETIN, HONG KONG, CHINA

    Mr. Munro. Thank you, Mr. Chairman. It is a pleasure to be 
invited to testify at this important hearing today.
    The focus of my comments will be on China's current labor 
rights situation in general, and I would like to broaden this 
theme somewhat to address the wider range of human rights and 
labor rights problems faced by ordinary, non-elite members of 
society, or what we at China Labour Bulletin in Hong Kong 
sometimes call human rights for the millions. These are the 
issues, the rights-related, deeper social issues which will be 
with us during and long after the Olympics.
    But, first, on the Olympics, on the question of whether the 
upcoming Olympics will or may bring lasting benefits to Chinese 
citizens and have a positive impact on human rights, I think 
only one conclusion is possible. We have heard the evidence 
from my colleagues in the human rights community here today and 
I will not repeat that.
    Basically, the official record to date, I think, makes a 
mockery of Beijing's pledges to the IOC and to the world, that 
holding the Games would advance the human rights cause in 
China. I have been following human rights in China for many 
years, and even I was surprised at the flagrant and 
unrestrained way in which the authorities have dealt with 
dissent or potential dissent in the run-up to the Games. I 
think anything that moves on the human rights front is going to 
be taken down.
    Clearly, Beijing 2008 is not going to be anything like 
Seoul 1988. I think it is possible that Beijing may produce a 
human rights trump card or pull a rabbit out of the hat on the 
eve of the Olympics, for example, by announcing ratification of 
the International Covenant on Civil and Political Rights 
[ICCPR], although that is a long shot, or by more probably 
releasing one or more high-profile political prisoners.
    We have just seen today the announcement that the U.S.-
China human rights dialogue will resume. I think, as much as I 
wish the renewed dialogue well, I think it is a ploy by 
Beijing. Things like this are used as a smokescreen to deflect 
international attention away from the continuing Games-related 
crackdown on civil liberties. Given the severity of that 
current clamp-down, all these 
gestures I have mentioned, I think, would be left as hollow and 
meaningless.
    The real danger, though, I think, is that the tight social 
and political controls set in place for the upcoming Olympics 
will, once the Games are over, simply become the new normal in 
China's internal security regime. If that happens, the Games 
will actually have set the clock back on human rights and civil 
liberties there.
    The government tries nowadays to project two images to the 
world. One is of the harmonious society, and the other, through 
the Olympics, is ``One World, One Dream.'' The reality, though, 
is that China today is very far from being harmonious and it 
embodies two very different worlds and dreams. On the one hand, 
there are the dreams and the world of the rising new elite, who 
enjoy unfettered access to all the best things in life. On the 
other, you have those of the ordinary people, hundreds of 
millions of citizens who have no meaningful vote and whose main 
dream is somehow to make ends meet for the family until the 
next payday. In the government's view, though, if the desired 
social harmony cannot be achieved through consensus, then it 
must be enforced by repression, by silencing popular discontent 
and demands.
    So what, then, are the main long-term social justice, or 
human rights for the millions, issues I mentioned? Here are a 
few key examples. First, I think the country's medical care 
system needs to be completely redesigned to make it more 
accessible and available to ordinary citizens. For at least the 
past decade, the cost of medical treatment has been prohibitive 
for ordinary Chinese citizens, even in the cities. Under the 
present system, a major illness can bankrupt an entire family 
within weeks.
    Second, the rural education system needs to be completely 
overhauled and properly funded. School fees are often extremely 
high, and the result is that poor rural families increasingly 
cannot afford to keep their children in school for the full 
nine-year period of compulsory education. So, child labor is on 
the rise in many parts of the country today. I think, after 
more than a decade of 10-percent-plus annual GDP growth, the 
government's failure to make a priority of providing decent 
medical care and rural education for its citizens is 
deplorable.
    Third, the entrenched problem of official corruption which 
is now endemic at every level of the administration. Corruption 
by local officials is at the root of almost every major social 
injustice and protest issue in the country today and is deeply 
resented by the great majority of ordinary citizens.
    Fourth, the basic livelihood of hundreds of millions of 
urban and rural workers and their families needs to be 
guaranteed and protected in terms of access to proper 
employment, enforcement of legal minimum pay and maximum 
working hours, and provision of safe working conditions. The 
appalling situation in China's coal mines, where several 
thousand miners die needlessly each year as a result of mine 
bosses' disregard for workplace safety, is only the most 
dramatic example. The construction industry is another.
    The only effective remedy for these workplace problems is 
for workers to be allowed to form effective self-protection 
organizations. Trade unions would be the most obvious form, but 
while legal prohibitions on such groups persist, workers should 
at least be allowed to form front-line work safety committees 
and to engage in real collective bargaining with their 
employers aimed at negotiating minimally acceptable terms and 
conditions of employment.
    All these are the real factors promoting social and 
political instability in China today, not, as the Chinese 
Government claims, the dissidents, the civil rights lawyers, 
and the massively over-exploited migrant workers who are 
increasingly getting up and protesting.
    I think the international community has less and less real 
influence nowadays over Beijing, on how it treats its citizens, 
because of China's economic rise and so forth. But does this 
mean that future prospects for human rights and great social 
justice in China are bleak? Perhaps surprisingly, I would argue 
not. The other side of the story is that we are finally seeing, 
after several decades of economic reform, the emergence of new 
domestic social forces in China that may well have the will and 
potential to transform the country's governance from the inside 
and from the bottom up.
    I am thinking of two things, mainly. One, there is now a 
recognizable worker's rights movement of considerable size 
taking shape in China, something scarcely conceivable just a 
decade ago. Tens of thousands of mass labor protests and other 
acts of worker unrest are taking place across the country each 
year, despite the strict legal prohibition on trade unions.
    These protests are spontaneous. They are not coordinated or 
interconnected, but they are having a real and tangible effect 
in promoting greater respect by employers for the country's own 
labor laws. China's workers, especially the 150 million or so 
migrant workers, are now clearly on the move. They are no 
longer playing the role of passive victim to China's economic 
success story. Instead, they are standing up for themselves and 
their rights.
    And the one-party state, which typically preys on the weak 
and isolated--the dissidents, the civil rights lawyers, the 
Falun Gong and others--but fears the strong and numerous, is in 
turn showing the workers increasing attention and respect as a 
social force. It is no coincidence that the start of 2008 saw 
the introduction of three new labor laws in China: the labor 
contract law, the law on employment promotion, and the law on 
labor dispute mediation and arbitration. All of these new laws 
have in significant ways raised the bar on employment standards 
and labor rights.
    Chairman Levin [presiding]. Mr. Munro, if you could wrap up 
quickly to give us time before those darned bells ring again.
    Mr. Munro. I will, thank you.
    The second main force is the rise of the ``rights defense 
movement'' in China, to my mind the most hopeful and optimistic 
sign in the country on the human rights front for decades. For 
reasons of time, I refer the panel to my written testimony for 
more information on that.
    I would like to conclude by giving several suggestions on 
what the international community can do to best lend its 
support to the promising new developments taking place at the 
grassroots level in China. These developments, I should add, 
are not ones fostered or initiated by the government, this is 
ordinary Chinese people taking the initiative, creating the 
social space, and fighting for their rights against local 
officials.
    First, I think Western governments need to continue to 
press China to ratify core agreements on freedom of speech and 
association. This is fundamental. If Chinese citizens cannot 
freely associate to press for peaceful change and reform, the 
country will 
become more and more of a political powder keg on the world 
stage.
    Governments should also continue to press Beijing for the 
release of individual prisoners of conscience. Human rights 
dialogue or not, this should now, I think, be put back as a 
major part of government policy by Western nations.
    I think Western foundations should greatly increase the 
kind of support they give to grassroots-based civic action 
groups of all kinds in China. As I have indicated, these groups 
are the country's main hope for the future.
    Multinationals operating in China have a moral duty to 
maintain strong codes of conduct and pursue corporate social 
responsibility, but social justice in the workplace in China 
cannot be planned and executed from corporate board rooms and 
Western capitals. China's workers are quite capable of 
protecting themselves, given the necessary rights and tools, 
and there is no shortcut for them doing so.
    Finally, I think both multinationals and consumers in the 
West need to recognize that if acceptable labor standards are 
to come in China, the cost of China's exported goods will have 
to rise. These goods are too cheap, and under-priced Chinese 
goods means continued labor rights violations in China.
    In conclusion, China's hosting of the Games may be 
momentous for reasons of national pride, but I would submit it 
is largely irrelevant to the real social issues facing China 
and its people today. 
Unless these issues are addressed by the government, China's 
Olympic slogan of ``One World, One Dream'' will end up being 
viewed by its people as one more cynical diversion from 
reality, to be added to the scrap heap of similar slogans used 
by the party over the past 60 years.
    Mr. Chairman, I request, following my written statement, 
that an article drafted by my colleagues at China Labour 
Bulletin be included in the hearing record. This is an article 
to be published in the upcoming book, ``China's Great Leap,'' 
and it addresses the conditions of migrant workers both at 
Olympic construction sites and across the country.
    Thank you for your time and attention.
    Chairman Levin. Thank you. Without objection.
    [The article appears in the appendix.]
    [The prepared statement of Dr. Munro appears in the 
appendix.]
    Chairman Levin. We have a vote, but I'm going to ask a 
question, if you would start discussing it. I don't know that 
there's any controversy left about the need to engage China. 
The issue of China's ascendancy to the WTO was very 
controversial, but with its growth, with its importance, I do 
not think any longer there is much debate that they are an 
important part of the international spectrum. This commission 
was set up as part of that debate to look at human rights 
issues, including worker rights issues and the rule of law.
    Let me just ask you this. I know there are various views as 
to how our government and our private and public groups should 
approach these issues of relationship with China, especially 
human rights, worker rights issues, and rule of law.
    I quote one person who was in a previous administration: 
``It's a striking example,'' talking about the pressure to 
raise these issues, ``of how single-issue groups of all kinds 
are trying to use the Olympics to hammer China.'' Then he goes 
on to say, ``Linking Darfur, for example, to the Olympic Games 
will not help to resolve this issue. The Chinese tend to 
respond badly to public pressure.''
    React to that, what you believe is the appropriate 
approach--you've commented on it in part. These are key issues, 
human rights issues, worker rights issues, rule of law. How do 
we approach these issues, both governmentally and non-
governmentally in this country?
    Each of you, if you would take a crack at that, I'd give 
each of you time to discuss it. You've touched on it, but this 
is one of the nubs. We are holding this hearing on the 
assumption that it is wise for this to be out in the open, 
right? That it is wise for Congress to be engaged, it is right 
for the Administration, which is part of this commission, to be 
engaged, and you are here, Mr. Martella, as part of it. So just 
comment on that: what should we do in these next months. You 
want to go down the line?
    Ms. Hom. Thank you. I think it is a difficult question. We 
hear that a lot from different sectors, the media, the 
corporate sector, the IOC, and most recently from the foreign 
media representative for BOCOG, who had the misfortune, or 
fortune, to be on the same panel with me on a recent NPR 
program. He essentially denied that there are human rights 
problems in China and claimed the list of human rights issues I 
outlined--media control and censorship, attacks on defenders, 
etc.--was ``hogwash.'' What is appropriate to expect? I think 
what we would begin with, what is appropriate, totally 
appropriate is to expect of the Chinese authorities what they 
themselves have promised, what they promised the international 
community, what they have promised to their own people, and 
what China has promised to its Olympic Movement partners, its 
government partners, et cetera.
    Second, it is important that there be respect for diverse 
approaches, which is not in the Chinese official universe.
    Finally, on engagement, apropos of the resumption of 
dialogue--and I want to align myself with many of the comments 
that have already been made on the panel--any dialogue that is 
resumed between the United States and China needs to really be 
much more transparent to the public.
    Perhaps two lessons from the EU-China dialogue might be 
kept in mind. While the EU-China human rights dialogue does 
have publicly announced benchmarks, the benchmarks have 
produced limited results: benchmarks are only as good as the 
level of transparency, and availability of accurate, reliable, 
and comprehensive information, and that is a major problem, as 
we know in China, primarily because of the state secrets 
framework.
    Second, the EU-China human rights dialogue is perhaps one 
of the most advanced and developed ones, along with the 
Norwegian dialogue, in terms of including different actors, 
including civil society actors and NGOs. Yet, China has been 
extremely active in its strategy to throw around its weight and 
control, to shape the dialogue, and to exclude the very civil 
society voices that the EU Government is trying to include. 
Most recently, China's efforts to 
exclude China Labour Bulletin and Human Rights in China from 
the Human Rights dialogue seminar in Berlin, and then walking 
out, is instructive.
    Chairman Levin. All right. Good.
    Mr. Dietz, if you would, all of you, briefly comment. Then 
after, Mr. Smith and I have to leave and Mr. Dorgan is going to 
wrap things up.
    Mr. Dietz. I will give you the advice of my high school 
defensive football coach who said, ``Hit 'em high, hit 'em 
low.'' CPJ engages many countries, not just China, on these 
sorts of issues. At times we pull back for fear of jeopardizing 
someone's safety, other times we are very vocal, other times we 
play a balance.
    I was in Hong Kong at the beginning of last month, sitting 
around the Foreign Correspondence Club with a bunch of 
journalists from the Hong Kong Journalists Association, and I 
said there are times when I'm not sure that I am doing anything 
of value and that I am just making things worse for people in 
jail. Their response was, if CPJ does not speak out, then who 
will?
    There was a journalist released just at the beginning of 
February, Ching Chong, a Singapore Straits Times reporter who 
had been held in jail for five years on state subversion 
charges, state security violations. His wife had been very 
active over the years, sometimes calling out, sometimes asking 
us to make statements, other times withdrawing. When we were 
having our annual press conference in Hong Kong in February, 
this year she said, ``Bob, not this year. We're getting a 
message that Ching might get out.'' Sure enough, the day after 
that he was released and he is now free to walk around in Hong 
Kong on parole.
    I think, in dealing with China, that sensible engagement 
around these issues is important. And specifically, given the 
opportunity that we got with the IOC agreement with China about 
media freedom issues, this is the time to push to fix these 
things. It was a pledge that was made to the international 
community, to all of us. I think we have an opportunity to 
demand that these things be fixed--and we have a right to 
demand it of China and the IOC.
    Chairman Levin. You emphasized, as Sharon Hom did, the 
commitments that were made in fulfillment. Mr. Martella, I 
don't know if you, before Mr. Smith and I have to leave and Mr. 
Dorgan takes over to finish, whether you feel comfortable 
saying something. If so, please do.
    Mr. Martella. Well, thank you, Mr. Chairman. I actually 
think you raise a very important question that I get in a 
different format, which is why, from an environmental 
perspective, should EPA or my office care about these issues. I 
commend the Commission for recognizing the important 
relationship between environmental issues and human rights 
issues.
    Briefly, I give three reasons. One is a purely altruistic 
reason, which is, we've learned our lessons here in creating a 
strong environment in the United States, and we should share 
that with developing countries and help them do the same. The 
less altruistic reason is that what happens in China affects us 
here. Thirty percent of the particulate matter in the West is 
created in China, 25 percent of the world's mercury emissions 
come from China.
    They are the largest polluter in the Pacific Ocean. They 
are close, if not beyond us, as a greenhouse gas emitter for 
climate change, and they have a tremendous thirst for energy, 
as well as, we are concerned about imports, including lead in 
toys from China, so we should be concerned about gauging what 
is happening there as it affects us.
    Then the third reason pertains to multinationals, both 
organizations and companies that are operating there as a 
matter of doing business in the global world. January 31, 2008, 
China issued a press release that they are bringing 130 
multinationals to the book, and these are their words, ``for 
breaking environmental protection laws,'' but the press release 
is very vague and ambiguous.
    So I do think it is important from an environmental 
perspective, as you say, that we gauge what is happening there, 
both because we want to help advance the environment there, 
which probably should be a primary concern, but also because it 
does affect both people and organizations here in the United 
States.
    Chairman Levin. We have, Mr. Smith and I, just five 
minutes. After I leave, if you would also put this in the 
context of the Beijing Games. I think it is important for us to 
ask ourselves, in terms of our efforts, whether it is 
appropriate--which I think it is--to use this opportunity to 
ask China--to insist--that they fulfill their commitments. I 
will tell them to hold open the vote.
    Representative Smith of New Jersey. Thank you very much, 
Mr. Chairman. I would like to ask a couple of questions, very 
briefly, through you, Mr. Chairman. I thank you for yielding.
    A couple of points; this commission was formed to be kind 
of a carbon copy of the Helsinki Commission. I chaired that 
commission for 12 years, and have been on it for 26 of my 28 
years as a Member of Congress. It works because of the 
engagement. When the Eastern Bloc and the Soviet Union were 
absolutely intransigent, we were able to get concessions, 
political prisoners out because we had some economic leverage. 
We had a lot of things going for us.
    Unfortunately, a lot of the economic leverage has been 
forfeited with the permanent normal trade relations [PNTR], in 
my opinion, and we have little more than moral suasion left in 
our quiver. They do not get held to account by the United 
Nations. I remember after Wei Jingsheng got out of prison, I 
was in China during his release when the Beijing Government was 
vying for the 2000 Olympics. I met with him for three hours 
before he got rearrested and then was brutally beaten, as we 
all know. When he was let out, his first stop was my committee 
room. I chaired the Human Rights Committee.
    He reiterated what he told me in that dinner conversation. 
He said, this is counter-intuitive, but when you make nice and 
when you, America and Europe, clank the champagne glasses, they 
beat us more. But when you're tough and consistent, they get 
the message that you mean business and they beat us less. 
That's when prisoners may find release.
    Your thoughts on that would be appreciated. Like the 
Chairman, I am going to have to go for a vote, or the second 
one, because I'll miss this one. But the idea of soft 
diplomacy, it needs to be very consistent and strong and 
equally applied over and over and over again--but I'm more for 
just total transparency.
    I remember when Frank Wolf and I met with Li Peng. We gave 
him a list of prisoners. He wouldn't even touch it. But he was 
so incensed by it that he brought it up the next day. Then we 
heard that some of the people got more lenient treatment. Now, 
we cannot for sure prove it, but we have to be bolder, but 
diplomatic. I think, unfortunately, we have squandered a lot of 
that.
    Second, on the labor issue, a year ago Ben Cardin and I 
went on record on an AFL-CIO complaint that was extremely well 
written about labor issues. Dr. Munro, you might want to answer 
this. The USTR would not even take it up. I mean, 10 to 15 
cents per hour, 126,000 people killed; that is what they report 
that could have been prevented if they had OSHA-type 
protections. All the litany of problems, just on the labor 
rights issue. They wouldn't even take it up. I hope it is not a 
lost opportunity. Unfair labor is against our law. I hope that 
maybe this commission could pressure the USTR to take that up 
anew. Maybe your comments on that would be helpful.
    The venues for the Olympics; have any of them been made 
with gulag labor? I was just in Kinshasa in DR Congo for a 
week. I went to a place where there is a huge Chinese effort of 
building and I was told--and we have not verified it yet--but 
the suspicion is that some of those who were working at that 
venue, at that building, are gulag labor. Harry Wu has 
testified many times about how forced labor is endemic. But are 
any of the Olympic venues made by gulag labor? If not gulag 
labor, were those who worked on the stadiums and the track and 
field aspects of it paid? What was the situation there? I think 
it is a very valid question.
    Ms. Hom, you might want to touch on the issue, if you 
could, briefly, of the missing girls in China. I said it at the 
opening. Very often, the human rights community has been mum on 
the fact that the family has been violated with impunity. Women 
have been raped by the state. Forced abortion is rape. It is 
horrible. It is used with particular impunity against the 
Uighurs, against the Tibetans, and against girls.
    The Chinese Government loves to say they have this policy 
or that policy. Since 1998 or 1999, they've been saying we 
signed the International Covenant for Civil and Political 
Rights, usually when one of their heads of state are heading to 
our shores, so that it allays concerns, just like the 
resumption of the human rights dialogue. So perhaps, Ms. Hom, 
you could speak to the issue of this terrible crime of missing 
girls.
    One demographer in China has said, by the year 2020, 40 
million men will not be able to find a wife because, since 
1979, systematically girls have been targeted for extinction. 
It is genocide, gendercide, and it is only going to get worse. 
It will exacerbate human trafficking because it will become a 
magnet, the dearth of women, the disproportion will lead to 
horrible consequences. So, if you could touch on that.
    Finally, some of you might want to speak to the issue of 
global online freedom. I know, Sophie Richardson, your 
organization has strongly endorsed it.
    Co-Chairman Dorgan [presiding]. I am going to ask now, 
since you have got about eight questions on the table here that 
we have the witnesses respond in writing to some of them.
    Representative Smith of New Jersey. That would be good.
    Co-Chairman Dorgan. I have limited time as well. I have to 
go back to the Senate in a few moments.
    But why don't we have Ms. Hom respond to the question that 
you just asked about the women.
    Ms. Hom. Very quickly, and we can submit some additional 
information. I had mentioned that HRIC's Take Action Campaign 
for the Olympics features an individual every month. The woman 
we are featuring in March is Mao Hengfeng, who has been 
tortured, detained, beat up, and subjected to all kinds of 
abuse. She is currently serving a two-and-a-half-year prison 
sentence for breaking a lamp. She is one example of a 
particularly draconian and coercive implementation of the one-
child population policy.
    On the Campaign Web site, www.ir2008.org, in addition to 
finding out more about her case, there are also issue 
backgrounders, both from the perspective of women's health and 
women's rights, and the issue of petitioners, because Mao 
Hengfeng is an example of the thousands of petitioners who 
exercise their right to petition and then face detention and 
abuse. Finally, one of the main reasons, in addition to the 
economic reasons, that this policy continues is the devaluation 
of female life. The value of female life is not as ``a future 
wife''--that has to change.
    Representative Smith of New Jersey. Right. Excellent.
    Co-Chairman Dorgan. Mr. Smith, you have a long history of 
passionate care and concern about these issues and I hate to 
cut you short.
    Representative Smith of New Jersey. I understand.
    Co-Chairman Dorgan. I'd like to ask just two questions.
    Representative Smith of New Jersey. If you could provide 
that for the record, the other individuals.
    Co-Chairman Dorgan. Yes. Let us ask if you would submit for 
the record----
    Representative Smith of New Jersey. As to the venue, if you 
could find that out.
    [The responses to Representative Smith's questions appear 
in the appendix.]
    Co-Chairman Dorgan. I think you have asked a lot of very 
important questions and I think we will want responses on the 
record.
    Ms. Hom, do you believe that what you have said here today 
would make you eligible for a criminal charge, and perhaps 
jailing, in the country of China were you a resident of China 
living in China at the time of making these statements?
    Ms. Hom. Actually, I have made many of these statements 
publicly, and I got an interesting hate e-mail on Monday from 
someone who purports to be Chinese.
    Co-Chairman Dorgan. But I'm saying, if you lived in 
Beijing.
    Dr. Munro, would you be jailed in China if you were a 
Chinese citizen living in Beijing, speaking of the issues you 
have addressed today?
    Mr. Munro. Well, my subject today was more labor rights, 
which is somewhat less controversial. But in general, the 
things I've said on human rights in China over the years, I 
have no doubt, yes, my feet wouldn't touch the floor. I'd be 
straight off to prison.
    Co-Chairman Dorgan. Mr. Martella, my understanding is that 
the steel production in China generates about three times the 
amount of carbon per ton of production as steel production in 
the United States. I believe that's the case. I understand that 
the Chinese have decided to move one of the mammoth steelworks 
away from Beijing to an island 140 miles or so away from 
Beijing. Is that 
correct?
    Mr. Martella. That's correct, Senator. Yes.
    Co-Chairman Dorgan. So that's the way they deal with air 
pollution?
    Mr. Martella. Well, you raise a very important point. 
China's greenhouse gas intensity, this is how much greenhouse 
gases you emit as you produce, say, $1 of GDP, is the highest 
in the world, even higher than the developing countries as a 
whole. So they are very energy inefficient and they anticipate 
that their CO2 emissions will be going up. They have gone up 80 
percent since 1990. They are projected to go up another 65 to 
80 percent by 2020.
    But you raise a very good point. When I was in Beijing, 
there were many smokestacks. Virtually all the ones we saw had 
been shut down. We asked--we would see new industrial 
facilities built within 10, 15 years ago and we asked, where 
are the businesses? This is 30 miles outside Beijing. They said 
they've been relocated. We didn't know where they relocated to, 
but they've been relocated.
    So they have taken incredibly dramatic efforts, including 
relocating entire industries outside Beijing, to prepare for 
the Olympics. Having said that, if you were to go there today 
there is a good chance the air quality would still be quite 
poor despite those very dramatic efforts to relocate almost 
entire industries.
    Co-Chairman Dorgan. Mr. Martella, I wrote a book a couple 
of years ago called ``Take This Job and Ship It,'' about 
shipping jobs overseas. I described in that book the China 
haze, which is to say that we all live in the same fishbowl, 
the same environment.
    Mr. Martella. Yes.
    Co-Chairman Dorgan. What they do in China, we breathe. It 
is just a matter of fact. I understand, in one of the pieces of 
testimony I read last evening, they are saying that some 
athletes preparing for the Olympics are testing their ability 
to train with face masks, anticipating an air quality problem 
when they compete. Have you heard of this?
    Mr. Martella. That was something we realized earlier this 
month, that many countries that set up training camps, 
apparently including the United States, I believe, outside of 
China so people can fly in at the last minute, they are also 
testing with dust masks on to give themselves kind of 
acclimation to what they're anticipating once they get there. 
My own personal view on this, I am 37 years old. I feel very 
fortunate having grown up in a country where I have never had 
ramifications from my environment. The only time that has ever 
happened was spending a couple days in Beijing. It was the 
first time in my life where I have actually had physical 
reactions to the quality of the air.
    Co-Chairman Dorgan. From my understanding, this issue of 
human rights, making progress on human rights, progress on the 
environment and so on, these are commitments that the Chinese 
Government itself made, are they not? I mean, is this not the 
case where, as they ramped up to try to get the International 
Olympic Committee to select them for the Olympics, they made 
representations about their commitments with respect to air 
quality, environment, human rights. Is that right?
    Mr. Martella. That is right.
    Co-Chairman Dorgan. It is not a case of us saying to the 
Chinese, look, here's what we expect you to do. It is a case of 
the Chinese saying, here is what we will do, and now we are 
saying, when, and why aren't you doing it now? Isn't that 
right?
    Mr. Martella. They held themselves out as the Green 
Olympics. That's the name they adopted for themselves. To give 
them credit, they have accomplished a great many things in that 
time. But at the same time, particularly regarding air quality, 
they have not achieved the goals. The other questions that 
remain are, while they may have devoted all these resources 
toward Beijing and the Olympics, what have they done in other 
places and what has not been done as a result of prioritizing 
these resources toward one event?
    Co-Chairman Dorgan. Well, all of you, I know, have done a 
lot of work. Dr. Munro, I am told you are back on an airplane, 
is it tomorrow, back to Hong Kong? Ms. Richardson, I am very 
familiar with your organization and the work you do. Mr. Dietz, 
the journalists are soldiers in search of truth across the 
world, and many not only risk losing their lives, as some do, 
but others find themselves in prison for telling the truth and 
printing the truth.
    I really appreciate the work that all of you have done to 
shed light on these issues before this commission. What we're 
trying to do is to hold up a mirror and find out what was 
promised and what has been the result. The fact is, China is 
going to be a significant part of our future and our lives. The 
question is, for good or ill? It is a major player on the world 
stage. We, I think all of us, want the same thing for China and 
its people. We want greater human rights, we want it through 
engagement of trade and travel and opportunities such as this 
one today to move China in a very constructive direction in 
terms of the way it creates its society, being open and 
providing opportunities for folks.
    I must say, it has been a good many years since I served in 
the U.S. House and I had forgotten about these bells and how 
often they vote here. In the U.S. Senate, we do not vote until 
it gets dark, so you notice I have not been interrupted. But 
when the sun goes down and it gets dark, we will have Senators 
show up on the floor demanding votes. That is the way the 
Senate works.
    So my colleagues, I know, feel badly that they had to rush 
back and forth and back and forth, but you know by the number 
of people who came at the start of this hearing, we care about 
this very much. This commission is not just some afterthought, 
this commission is very important. China is a very important 
part of the world community. We are very concerned. We have put 
in the record now I think two lists of Chinese prisoners. We 
also have a database, I believe, at our Congressional-Executive 
Commission on China that is the most credible database on those 
individuals who are held in Chinese prisons as a result of what 
we consider to be a violation of human rights.
    So we are going to continue this work. We appreciate all of 
you being willing to take some time from your schedule and to 
attend this hearing.
    This hearing is adjourned.
    [Whereupon, at 4:08 p.m. the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


              Prepared Statement of Roger R. Martella, Jr.

                           february 27, 2008
    Chairman Levin, Chairman Dorgan, members of the Commission:
    Thank you for providing me the opportunity and the honor to appear 
before you today.
    The subject of today's hearing, ``The Impact of the 2008 Olympic 
Games on Human Rights and Rule of Law in China,'' raises issues of 
critical importance not just to China, but to the world. Beyond the 
sporting events and pageantry, the Beijing Olympics more importantly 
may offer spectators the broadest window yet into a more needed feat of 
strength: whether the planet's fastest growing economy has developed 
the fundamental legal pillars worthy of the world's greatest stage. 
After the torch is extinguished at the Beijing National Stadium in 
August, international opinion likely will remember less the medals 
China's athletes take home than the nation's achievements--or lack 
thereof--on the fundamental issues of human rights, the rule of law, 
and environmental protection.
    I am here today to address China's efforts to provide one of the 
most vital pillars of human life--a safe, healthy, and clean 
environment. Environmental leaders and scholars have often framed 
environmental protection as critical to human rights. For example, the 
landmark National Environmental Policy Act provides that Congress 
recognizes that ``each person should enjoy a healthful environment and 
[that] each person has a responsibility to contribute to the 
preservation and enhancement of the environment.'' \1\ In 1992 the U.N. 
Conference on Environment and Development noted that ``human beings are 
entitled to a healthy and productive life in harmony with nature.'' \2\
---------------------------------------------------------------------------
    \1\ 42 U.S.C. Section 4331(c).
    \2\ Rio Declaration, Principle 1, June 3-14, 1992.
---------------------------------------------------------------------------
    With that backdrop, the 2008 Beijing Olympics are providing an 
extraordinary front row seat to assess China's accomplishments and 
challenges in providing a safe environment for the world's largest 
population. Importantly, though, while the Olympics may provide the 
world with its most vivid snapshots to date of China's environmental 
efforts preparing for a single event, it likely will be harder to glean 
China's ability to conquer the challenges facing the nation's 
environment beyond Beijing in the years and decades to come.
                epa's china environmental law initiative
    In September 2007, I instituted the EPA China Environmental Law 
Initiative after meeting in China with environmental officials, 
academics, students, nongovernmental organizations, and multinational 
corporations. The Initiative is premised on the experience in the 
United States that a strong environmental law framework is the critical 
prerequisite to a strong environment. In seeking to improve China's 
environmental laws I identified three reasons why the United States 
should help China advance its environmental laws, and thus its 
environment as a whole.
    First, the American environmental law framework is the strongest in 
the world. Implementing the toolbox of environmental protection 
statutes Congress started passing in the 1970s has resulted in heralded 
improvements in environmental protection, and safe air, water, and 
environment for the nation. From an altruistic point of view, we should 
share this framework and our experience with China to help it develop a 
thorough framework tailored to its own geographic, economic, and 
political circumstances.
    Second, and perhaps less altruistic, is the reality that what 
happens in China increasingly affects the environment here in several 
ways. Air pollution transported from Asia adds to levels of air 
pollution in the United States--increasing the challenge of air quality 
and public health protection. Researchers at Harvard University, using 
models, have estimated that Asia contributes roughly 30 percent of the 
background sulfate particulate matter in the Western United States.\3\ 
In 2000, China reportedly emitted over 25 percent of the total 
estimated worldwide human-generated mercury emissions into the 
atmosphere, contributing to the global pool of atmospheric mercury that 
circulates around the northern hemisphere and falls out in Asia, North 
America, and Europe.\4\
---------------------------------------------------------------------------
    \3\ R. J. Park et al., Natural and Transboundary Pollution 
Influences on Sulfate-nitrate-ammonium Aerosols in the United States: 
implications for policy, 109 J. OF GEOPHYSICAL RESEARCH (2004).
    \4\ David Streets et al. (2004) US Geological Survey China-Mercury 
Meeting. ``Mercury emissions in China: Update.''; Elisabeth Pacyna et 
al., Global anthropogenic mercury emission inventory for 2000, 40 
ATMOSPHERIC ENVIRONMENT 4048, 4048 (2006).
---------------------------------------------------------------------------
    Some researchers believe that China already has overtaken the 
United States as the leading emitter of greenhouse gas emissions while 
others believe it inevitably will do so in the near term. China's 
thirst for energy and other resources brings with it environmental 
consequences across the globe.\5\ And less stringent controls over 
exports such as lead in toys can lead to environmental harms on any 
continent.
---------------------------------------------------------------------------
    \5\ According to one account, to produce goods worth $10,000, China 
uses six times the resources used by the United States. See Elizabeth 
C. Economy, The Great Leap Backward?, FOREIGN AFFAIRS (Sept/Oct 2007).
---------------------------------------------------------------------------
    Third, multinational organizations and corporations increasingly 
are relying on China both as a growing market and a source of products, 
while NGOs and academics see an increasing need to understand 
environmental issues in China as well. Ambiguities in the Chinese 
environmental law framework create unique challenges for those seeking 
to understand environmental compliance in China. Thus, one goal of the 
Initiative is to help digest this information in the interest of 
advancing multinational understanding of the Chinese environmental law 
framework.
    The EPA China Environmental Law Initiative is continuing the dialog 
between the United States and China, as well as other interested 
stakeholders, to advance the Chinese environmental law framework. At 
the center of this initiative is the first website we are aware of 
dedicated to Chinese environmental law. The website, which can be found 
at www.epa.gov/ogc, is a collaborative effort of institutions in the 
United States and in China and is available in English and Chinese. In 
the roughly three months since we started the website, the front page 
has been viewed over 4000 times.\6\ Users have viewed the Chinese 
translation of the front page over 2700 times.
---------------------------------------------------------------------------
    \6\ Each ``view'' does not necessarily correspond to a separate 
person: some users undoubtedly viewed the front page more than once.
---------------------------------------------------------------------------
    This April, I will participate with my staff in a second OGC-
organized symposium in China, focused on further development and 
implementation of environmental laws and the need and opportunity for 
public participation in environmental regulation.
                 the state of the environment in china
    According to the World Bank, between 1981 and 2001 the proportion 
of those living in poverty in China fell from 53 percent to 8 percent. 
While this indisputably is a laudable accomplishment, what is less 
clear in 2008 is the percentage of those living not in economic 
poverty, but environmental poverty.
    Robert Percival is the director of the acclaimed Environmental Law 
Program at the University of Maryland Law School, and a collaborative 
partner in the EPA China Environmental Law Initiative. As he has aptly 
put it, ``the good news is that things have gotten so bad that high 
officials cannot help but take note.'' \7\ Indeed, the challenge in 
expressing the state of the environment in China is discerning which of 
the plethora of bad fact scenarios gives the best understanding of the 
dire situation.
---------------------------------------------------------------------------
    \7\  Robert Percival, Still Needed: Enforcement, Public Role (Is 
Chinese Environmental Law up to the Task?), 22 ENVIRONMENT FORUM 44 
(2005).
---------------------------------------------------------------------------
    For example, regarding air issues alone, particulate levels in 
Beijing are as much as six times that of New York City. Reportedly, 
more than 300,000 people per year die prematurely from air pollution in 
China\8\ and each year 400,000 new cases of chronic bronchitis are 
estimated to occur in 11 large Chinese cities.\9\ Emissions of sulfur 
oxides in China are the highest in the world,\10\ double the output of 
the United States in 2006,\11\ costing China an estimated 500 billion 
Yuan (US$60 billion) in damage to buildings, crops, vegetation and 
human health.\12\ Many Chinese citizens breathe air violating Chinese 
national air quality standards.\13\ And, with this backdrop, China is 
planning to build over 500 coal-fired power plants before 2020.
---------------------------------------------------------------------------
    \8\ WORLD HEALTH ORGANIZATION, WORLD HEALTH REPORT 2002 (2002); 
Clear Water, Blue Skies (World Bank ed., 1997).
    \9\ ORGANIZATION FOR ECONOMIC CO-OPERATION & DEVELOPMENT, 
ENVIRONMENTAL PERFORMANCE REVIEWS, CHINA (2007).
    \10\ Jianguo Liu & Jared Diamond, China's Environment in a 
Globalizing World; How China and the rest of the world affect each 
other, 435 NATURE 1179 (2005).
    \11\ SEPA, State of the Environment Report, http://
english.sepa.gov.cn/standards--reports/soe/SOE2006/200711/t20071105--
112565.htm (China reporting 25,888K metric tons); U.S. EPA, National 
Emission Inventory, http://www.epa.gov/ttn/chief/trends/trends06/
nationaltier1upto2006basedon2002finalv2.1.xls (U.S. reporting 12,490K 
metric tons).
    \12\ Li Xinmin, in The China Post (3 August 2006).
    \13\ Mun Ho & Chris Nielsen, Cleaning the Air: Health and Economic 
Damages of Air Pollution in China (MIT Press, 2007) (in 1999, over 200 
Chinese cities with air pollution monitors were out of compliance with 
at least one of the nation's air-quality standards for residential 
areas).
---------------------------------------------------------------------------
    By way of context and fairness, it should be noted that in the 
United States there were several decades of rapid economic growth 
before we as a nation took seriously the challenge of creating an 
environmental law framework in the face of pressing environmental 
concerns such as the Cuyahoga River and Love Canal. As described below, 
China clearly is taking measures to address environmental concerns 
during its era of rapid economic growth. The question is less the 
nation's motivation, but rather the sufficiency of its actions.
              china's will is toward a better environment
    At the outset, it is important to make one point clear. From my 
first hand interactions and observations, China wills a better 
environment. Several factors are motivating this goal.
    First, the 2008 Olympics is putting more than China's athletes on 
the world stage. With the international media presence and all eyes on 
the events there, China knows the world is watching not just the 
athletes, but its gray skies as well. With much of the world a 
spectator, China wants and needs to use the spotlight to 
promote a positive image about the nation that makes so many things the 
world consumes; a positive image that necessarily includes a clean 
environment.
    Second, beyond the Olympics, China is aware that environmental 
concerns are drawing increasing scrutiny from multinational 
organizations and corporations. Just as poor labor conditions can lead 
to bans and boycotts, increasingly there is interest in looking behind 
products and into factories to ensure items are manufactured in an 
environmentally sound way. As China grows into an increasing global 
player in the world economy, it increasingly will be expected to 
justify a stronger environmental record.
    Third, government officials are not shy to express their concern at 
protests of any sort. Knowing that environmental issues and advocacy 
are cause for protests and civil unrest, the Chinese government would 
appear to prefer addressing concerns in the first instance. In 2007, 
thousands of citizens protested a chemical factory in Xiamen, 
expressing concerns about leukemia and birth defects. And in June, 
hundreds of Beijing residents protested the headquarters of the State 
Environmental Protection Agency itself regarding a waste incinerator. 
In personal conversations, Chinese officials have been very frank about 
their motivation to work proactively to address environmental issues to 
avoid more such unrest in the future.
    Fourth, the government officials I have spoken with on this issue 
expressed 
concern and motivation for the environmental health of citizens, 
regardless of other factors. There does seem to be great concern on how 
to achieve both economic and environmental objectives simultaneously. 
But I did observe among officials I met a genuine interest in improving 
the health and well being of residents.
          china's way toward a better environment is uncertain
    China for many years has taken at least symbolic steps toward 
adopting the laws that lead to a better environment. For example, since 
1992 China has adopted environmental laws addressing air pollution, 
water pollution, solid waste, and clean 
energy production. However, many of these critical provisions lack 
teeth of enforceability. Many of the laws are vague, and more akin to 
guidance than regulations.\14\ Some were largely adopted from other 
countries without being adapted to China's geographic, economic, and 
political circumstances.\15\ And the role of public participation, 
which is as essential to environmental laws in the United States as 
substantive mandates, largely has been overlooked.
---------------------------------------------------------------------------
    \14\ Alex Wang, One Billion Enforcers,  24 ENVIRONMENTAL FORUM 
(2007).
    \15\ Country Environmental Analysis for the People's Republic of 
China, ADB May, 2007.
---------------------------------------------------------------------------
    In reviewing the nexus between China's environmental law framework 
and a better environment for China, four themes are apparent which 
demonstrate both the strengths and weaknesses of the existing Chinese 
environmental law framework. As discussed below, each of these themes 
bears relevance to the 2008 Olympics.
    First, the Chinese government's understanding and messaging of 
environmental issues and possible solutions appears to be as 
sophisticated as any other nation's. When speaking with Chinese 
officials from the national State Environmental Protection Agency to 
the local Environmental Protection Bureaus, it is easy to be impressed 
by the depth of the understanding of environmental concerns, and the 
ideal solutions needed to address them. So, in short, the messages 
communicated by the government at all levels on environmental issues 
are sophisticated and strong.
    Second, the government appears to take a pragmatic approach of 
prioritizing areas of immediate concern and takes steps toward 
addressing those situations. For example, rather than address air 
quality generally China might focus on acid rain specifically; rather 
than address water quality generally China might focus on a specific 
area of concern such as chemical oxygen demand. Undoubtedly an approach 
of prioritizing environmental concerns makes common sense. At the same 
time, though, absent an effective overall framework for addressing 
broader environmental concerns such as clean air and water generally, a 
concern lies with whether progress is being made on the plethora of 
issues not identified as priorities.
    Third, one of the significant limitations at this time toward 
understanding the advancement of environmental protection in China 
relates to the critical roles that transparency, public participation, 
and authentication play in environmental law. It is relatively common 
to hear news in China that some environmental measurement has improved 
over a period of time. However, observers frequently raise doubts 
regarding the authenticity of such figures given their inability to 
``look behind the numbers'' at the raw data and challenge the 
assumptions. This deficiency is compounded by the current presumption 
of little to no public participation in the lawmaking process, although 
as described below there is some evidence of progress in this area.
    Fourth, and to me the most significant theme inhibiting the 
implementation of a strong environmental law framework, goes to the 
lack of a system of cooperative federalism and enforcement in China. In 
the United States, cooperative federalism is the necessary method by 
which the network of environmental laws works to ensure a clean 
environment for all Americans. Our laws work, in general, by delegating 
primary responsibility to states for implementation and enforcement, 
but ensuring the Federal Government will enforce a floor of beneficial 
measures and standards. In China in contrast, the national government 
has limited mechanisms to ensure its environmental goals at the 
regional and local level. To the contrary, the national government 
largely awards local governments and officials based on their increase 
in GDP, with little or no accountability for environmental protection 
and harm.\16\ To me, the key to creating a strong framework in China is 
developing a different kind of cooperative federalism there, and thus 
eliminating this disjointedness between the goals of the national 
government and the incentives driving the provincial governments. In 
other words, a key way to implement cooperative federalism in China may 
be as straightforward as holding government accountable for 
environmental advancement along with economic growth.
---------------------------------------------------------------------------
    \16\ See Elizabeth C. Economy, supra note 5. Recently, China has 
moved to incorporate at least some consideration of environmental 
parameters. Charles R. McElwee II, Who's Cleaning Up This Mess?, CHINA 
BUSINESS REVIEW , January-February 2008.
---------------------------------------------------------------------------
  the 2008 olympics: a better environment for beijing, but what about 
                                 china?
    The Beijing 2008 Olympic Games Organizing Committee promoted the 
event as the ``Green Olympics.'' Consistent with that commitment, the 
Organizing Committee has identified scores of efforts to improve the 
environment in Beijing prior to the Games.\17\ These efforts are as 
basic as improving water quality, upgrading sewer capacity, and 
promoting tree planting at a Beijing park. Other efforts are radically 
bold by any standard, including experiments to restrict car traffic by 
50 percent on certain days and shuttering and relocating entire 
industries from greater Beijing, including the transitioning of the 
mammoth Shougang steel works to an island 139 miles from Beijing.
---------------------------------------------------------------------------
    \17\ Beijing 2008, Green Olympics, http://en.beijing2008.cn/12/12/
greenolympics.shtml.
---------------------------------------------------------------------------
    A report by The United Nations Environment Programme credited 
Beijing with ``significant strides'' and an investment of $12 billion 
to improve the environment in advance of the Olympics.\18\ At the same 
time, it recognized concerns remaining with air quality despite the 
relocation of industry, particularly due to the introduction of 1,000 
new car registrations daily. Indeed, in what may be the most 
qualitative assessment regarding Beijing's air quality, it was widely 
reported earlier this month that dozens of countries have set up 
training camps for the days ahead of the events not in China, but in 
Japan, South Korea, and Singapore. Athletes are also testing their 
ability to train with face masks in anticipation of the Beijing air 
quality.
---------------------------------------------------------------------------
    \18\ U.N. Environment Programme, Beijing 2008 Olympic Games--An 
Environmental Review, http://www.unep.org/Documents.Multilingual/
Default.asp?DocumentID=519&ArticleID=5687&l= en. See also Hazy Outlook 
for Games, supra note 20.
---------------------------------------------------------------------------
    In its own way, the 2008 Beijing Olympics demonstrates both 
everything China is doing well to provide a healthier environment for 
its residents and the challenges that lie ahead.
    First, the Olympics demonstrate China's world-class sophistication 
and ability to understand, communicate, and address environmental 
issues and challenges. Since 2005, China has identified scores of 
environmental challenges confronting the 2008 Olympics and has devoted 
significant resources toward organizing solutions and communicating the 
results. This demonstrates a capacity and ability among China's 
leaders, scientists, and industries to understand the most complex 
environmental issues and develop solutions. In other words, the 
financial and technical resources needed to promote a better 
environment seem to be available.
    Second, the 2008 Olympics demonstrates the government's flexibility 
in prioritizing environmental concerns and targeting solutions toward 
those concerns. In this case, China prioritized a better environment 
for Beijing in time for the events. In many (but not all) ways it 
appears to have realized that goal and in other ways it has 
demonstrated the significant creativity and resources China can put 
toward addressing a problem when it wants to. However, questions that 
must be considered after August include the extent to which China 
merely transported environmental concerns from one area to another, the 
extent to which this Olympic priority was at the expense of other 
existing environmental concerns, and the extent to which the lessons 
learned in Beijing will be applied elsewhere in China.
    Third, critical to convincing the world of a message is the 
assurance that the message is authentic and that the public trusts it. 
In this way, China arguably has made less progress. The plethora of 
numbers, criteria, and accomplishments cited by the government 
frequently come without the transparency we would expect and which are 
critical to other environmental law frameworks. This in turn can raise 
doubts about authenticity. For example, while China earlier this year 
reported new statistics touting dramatically improved air quality in 
Beijing, one observer discovered that in fact some monitoring stations 
had been moved from inside the city core to less polluted areas.\19\ On 
the other hand, there are some positive trends. When I was in Beijing, 
it so happened that the government published in the newspaper the text 
of a proposed water law, and solicited views on the law. But even with 
a potentially encouraging trend of promoting increased public 
participation into environmental regulation, the pace must improve for 
the public to have meaningful input.
---------------------------------------------------------------------------
    \19\ Stephen Q. Andrews, Beijing's Sky Blues, WALL STREET JOURNAL, 
Jan. 9, 2008.
---------------------------------------------------------------------------
    Finally, perhaps the most significant contribution of the Green 
Olympics will be not any measurable environmental benefit, but a 
possible awakening to a new approach toward addressing both the economy 
and the environment. While the Olympics demonstrate that China can 
address a specific problem by prioritizing resources toward specific 
solutions, what is more sorely needed are approaches on a national 
scale. This will require a system of cooperative federalism that 
encourages local governments to realize and achieve the goals of a 
clean environment for the nation. While the American system of 
cooperative federalism admittedly does not translate in China, the 
government can emulate such a scheme by holding provincial and local 
officials accountable for environmental protection and results in 
addition to pure GDP. We may begin to see improvements along these 
lines in the coming months, if predictions about elevation of China's 
environmental agency stature and role are borne out and accompanied by 
improved institutional relationships and legal authorities.
    Clearly, the Olympics have brought environmental improvements to 
the residents of Beijing. What the 2008 Olympics hopefully will bring 
to all China is an environmental awakening that it can realize a better 
environment and economic prosperity as mutually achievable--not 
exclusive--goals.
    Thank you, Mr. Chairman, and members of the Commission. I would be 
happy to answer any questions you may have.
                                 ______
                                 

                    Prepared Statement of Sharon Hom

                           february 27, 2008
    Mr. Chairman, members of the Commission, on behalf of Human Rights 
in China (HRIC), thank you for the opportunity to make this statement. 
It is also an honor to testify today alongside of the distinguished 
experts and human rights colleagues on this panel.
    HRIC is an international, Chinese, non-governmental organization 
founded by Chinese students and scholars in March 1989. Our mission is 
to promote international human rights and advance the institutional 
protection of these rights in the People's Republic of China (China), 
and to provide concrete support and solidarity to human rights 
defenders. Through our Incorporating Responsibility 2008 Campaign, HRIC 
focuses on individual case advocacy, monitoring human rights progress 
in China, and promoting compliance with Beijing's Olympic Promises and 
other international human rights obligations in the lead-up to and 
beyond the 2008 Olympic Games.
    With only about five months left until the opening of the 2008 
Olympic Games, we appreciate the Commission's timely attention to the 
impact of the Olympics on human rights and the rule of law. As 
documented by the media, NGOs, United Nations, and government reports, 
including the Commission's 2007 Annual Report, crackdowns on human 
rights defenders in China have been increasing in the run-up to the 
Olympics. We welcomed the Commission's 2007 Annual Report, which not 
only called for an end to the harassment of Hu Jia and other activists, 
but also 
examined important issues regarding state secrets, civil society, 
petitioners, and ethnic minorities.
       the fallacy of ``with us or against us'' olympic rhetoric
    One of the challenges to the advancement of human rights is the 
hostility of the Chinese authorities to any international or domestic 
human rights-related criticism, especially criticism tied to the 
Olympics. Chinese authorities have characterized any questioning of 
government policies in the lead-up to the Olympics as an attack on 
China itself. This intolerance for criticism, nationalism, and 
conflating of ``China'' with the Chinese government, was most recently 
exhibited in the response to Steven Spielberg's decision to withdraw 
from serving as artistic director of the opening and closing Olympic 
ceremonies. Chinese authorities first expressed regret, then slammed 
Mr. Spielberg. A government ready to host a major international event, 
a mature government that respects the rule of law, could have 
demonstrated a higher tolerance for thoughtful, critical and difficult 
individual decisions of the conscience. Instead, state-run media 
dismissed Mr. Spielberg as naive and foolish.
    This ``with us or against us'' mentality surrounding the Olympics 
fails to account for the legitimate concerns of domestic and 
international actors about the long-term impact of the Olympics, on 
both China's own people and the international community. Already we 
have seen that instead of serving as a catalyst for positive change, 
the Olympic preparations have been marked by or accompanied by 
crackdowns on dissent, massive displacements of residents,\1\ and 
strain on already stretched environmental resources,\2\ in order for 
China to put on its ``best face'' for the outside world.
---------------------------------------------------------------------------
    \1\ See Centre On Housing Rights and Evictions (COHRE)'s report, 
``Fair Play for Housing Rights: Mega-Events, Olympic Games and Housing 
Rights'', June 2007, http://www.cohre.org/store/attachments/
COHRE%27s%20Olympics%20Report.pdf.
    \2\ See Chris Buckley, ``Beijing Olympic Water Scheme Drains 
Parched Farmers,'' Environmental News Network, January 23, 2008, http:/
/www.enn.com/wildlife/article/29488.
---------------------------------------------------------------------------
              china's olympic and human rights obligations
    By hosting the Games, Beijing is obligated to honor the commitments 
it made in the bidding process, which influenced the International 
Olympic Committee's (IOC) selection of the 2008 host city, and 
Beijing's own Olympic Promises.\3\ During its 2001 bid for the Games, 
Beijing promised ``complete freedom'' for the media,\4\ and IOC 
President Jacques Rogge stated in August 2001 that Beijing's host city 
contract included provisions guaranteeing media freedom for accredited 
press.\5\ In March 2002, after the Games were awarded to Beijing, the 
Beijing Organizing Committee for the Olympic Games (BOCOG) released a 
Beijing Olympic Action Plan laying out the overall guidelines and plans 
for the preparation of the Olympics, shaped by the idea of ``New 
Beijing, Great Olympics,'' with an emphasis on ``Green Olympics,'' 
``High-Tech Olympics,'' ``Free and Open Olympics,'' and ``People's 
Olympics'' as the key to successful Games.\6\ The 2002 Olympic Action 
Plan includes specific standards, such as technical environmental 
standards, to which Beijing would hold itself accountable in 
governance, construction of venues, and increasing social and economic 
development.\7\
---------------------------------------------------------------------------
    \3\ See Sharon Hom, ``The Promise of a `People's Olympics,' '' in 
China's Great Leap: The Beijing Games and Olympian Human Rights 
Challenges, ed. Minky Worden (Seven Stories Press, forthcoming May 
2008).
    \4\ ``Beijing Awaits Olympic Verdict'', BBC, July 12, 2001, http://
news.bbc.co.uk/sport2/hi/in_ depth/2001/olympic_votes/1434964.stm.
    \5\ ``Rogge: IOC Will Stick to Sports, Not Politics,'' Associated 
Press, August 27, 2001.
    \6\ Beijing Organizing Committee of the Olympic Games (BOCOG), 
Beijing Olympic Action Plan, March 2002. www.usembassy-china.org.cn/
fcs/pdf/boap.doc
    \7\ Beijing Organizing Committee of the Olympic Games (BOCOG), 
Beijing Olympic Action Plan, March 2002. www.usembassy-china.org.cn/
fcs/pdf/boap.doc
---------------------------------------------------------------------------
    As presented in the Action Plan, Beijing made the following Olympic 
Promises:

          Green Olympics. ``By 2008, we will achieve the goal of 
        building the capital into an ecological city that features 
        green hills, clear water, grass-covered ground, and blue sky.''
          High-Tech Olympics. ``We will make all-out efforts to 
        guarantee the security during the Olympic Games on the basis of 
        a sound social order, reliable public transport and fire 
        fighting systems, safe medical and health structures, and well 
        planned supporting measures.''
          Free and Open Olympics. ``In the preparation for the Games, 
        we will be open in every aspect to the rest of the country and 
        the whole world. We will draw on the successful experience of 
        others and follow the international standards and criteria.''
          People's Olympics.  ``The Olympic Games will give an impetus 
        to economic development and urban construction and management, 
        and bring about increasing benefits for the people. We will 
        make the preparations for the Olympic Games a process of 
        substantially improving the people's living standard, both 
        materially and culturally.''

    The Olympic Games is an event grounded in human dignity and the 
spirit of international cooperation of the Olympics movement. Liu 
Jianchao of the Ministry of Foreign Affairs has himself stated, ``The 
Chinese Government will always be dedicated to improving and protecting 
human rights, be it prior to, or in the midst of or beyond the Beijing 
Olympics.'' \8\ Indeed, we are all on the same page: the Olympics are 
China's opportunity to demonstrate to the world it is a responsible 
international citizen, one that lives up to its commitments, prior to, 
in the midst of, or beyond the Olympics.
---------------------------------------------------------------------------
    \8\ ``Foreign Ministry Spokesman Liu Jianchao's Regular Press 
Conference on February 21, 2008,'' February 22, 2008, http://
www.chinaembassy-canada.org/eng/xwfw/s2510/2511/t409230.htm.
---------------------------------------------------------------------------
    The obligations of a country in hosting the Olympic Games, a major 
international event, are also part of and related to a country's 
overall international legal obligations, including human rights. As 
China's role in the international community expands and deepens, these 
international commitments are all inextricably linked. The link between 
human rights, democracy, and the Olympics was also made by Chinese 
officials during China's bid to host the 2008 Games and is reflected in 
the actual host city promises made. It is only by honoring these 
commitments that the Chinese authorities can host a truly successful 
Olympics, an event with a positive impact on China's people and the 
international community.
    Additionally, China's actions in hosting the Olympics must be 
consistent with Chinese domestic law, including, for example, Article 
35 of the Chinese Constitution, which protects ``freedom of speech, of 
the press, of assembly, of association, of 
procession and of demonstration,'' and other constitutional provisions 
that protect freedom of privacy of correspondence (article 40) and the 
right to criticize the government (article 41).\9\
---------------------------------------------------------------------------
    \9\ However, the right to freedom of expression is constrained in 
China through the criminal and state secrets legal framework, and 
supported by broader police and social controls as well as 
sophisticated technology censorship and surveillance tools. HRIC and 
other groups have documented the use of state secrets crimes against 
lawyers, journalists, Internet activists and other human rights 
defenders as a means of controlling dissent. See Human Rights in China, 
State Secrets: China's Legal Labyrinth, June 12, 2007, http://
hrichina.org/public/contents/41421.
---------------------------------------------------------------------------
                  the critical role of the rule of law
    Progress in building a rule of law is reflected in key benchmarks, 
including an independent judiciary and legal profession. China's 
criminal lawyers, however, face a number of impediments to providing an 
adequate defense: constraints on meeting with their clients, 
constraints on access to evidence, and in sensitive cases, lawyers 
themselves are sometimes harassed or intimidated. Over the past few 
years, there have been numerous cases of lawyers and legal advisors 
being intimidated and even beaten by the authorities or with official 
complicity. Rights-defense lawyers have been the target of varying 
levels of surveillance and harassment because of their work.\10\ This 
lack of independent rule of law has implications in the realms of 
security (particularly post-Olympic use of sophisticated Olympic event 
surveillance equipment), media freedom, the development of civil 
society, and protection of human rights as a whole.
---------------------------------------------------------------------------
    \10\ For more information, see HRIC's ``About the Issue: Olympics 
and the Rule of Law,'' http://www.ir2008.org/02/issue.php.
---------------------------------------------------------------------------
    At the same time, there has been progress toward rebuilding the 
legal system in China in the last three decades, including legislation, 
training of legal personnel, and development of legal and 
administrative institutions and processes. Foreign actors such as 
foundations, governments, and academic institutions have supported 
exchanges and capacity-building initiatives. Substantive legislative 
initiatives to date have focused on economic law, civil law and other 
regulatory areas necessary to promote market reforms, along with 
administrative law and administrative procedure law.\11\ Building a 
rule of law is a complex challenge, and China has been making 
encouraging strides in this respect, particularly with its enactment of 
the new Labor Contract Law\12\ and revisions to the Lawyers' Law.\13\
---------------------------------------------------------------------------
    \11\ For more, see Sharon Hom, ``Circling Towards Law,'' http://
hrichina.org/public/PDFs/CRF.2.2007/CRF-2007-2_Circling.pdf.
    \12\ Labor Contract Law of the People's Republic of China, issued 
at the 28th Session of the Standing Committee of the 10th National 
People's Congress, June 29, 2007 and effective Jan. 1, 2008.
    \13\ Law of the People's Republic of China on Lawyers (2007 
Revision), revised by the 30th Session of the 10th Standing Committee 
of NPC, October 28, 2007, to be enforced on June 1, 2008 (hereinafter 
as 2007 Lawyers Law). The Chinese text is available at: http://
www.gov.cn/jrzg/2007-10/28/content_788495.htm.
---------------------------------------------------------------------------
    The rule of law going forward must also be built on accountability 
and effective responses to the justice claims for past abuses. Today, 
at the request of the Tiananmen Mothers, a group within China comprised 
of family members of victims of the June 4, 1989 crackdown, HRIC is 
releasing the Tiananmen Mothers' letter calling for justice in the run-
up to the Olympics. The open letter demonstrates the urgently-felt need 
of China's own people for rule of law. (Included as an addendum to this 
statement is the open letter, ``An Appeal from the Tiananmen Mothers to 
the Government: Set a Timetable for Dialogue on the June Fourth 
Massacre.'')
    These brave individuals make clear in their letter that ``the 
disastrous aftermath of that brutal massacre, one of the greatest 
tragedies of our times, even after 18 years, is still unresolved. The 
wounds deep in the heart of the people are not yet healed. Because of 
this, the current political and societal landscape continues to 
deteriorate into disorder and imbalance. This proves that June Fourth, 
this bloody page in history, has yet to be turned, and remains a `knot' 
deep inside the people's heart. . . . The proper settlement of the 
`June Fourth' question would represent not only a conclusion, but also 
a new beginning.'' The letter calls on the Chinese authorities to use 
legal means to investigate the tragedy and bring justice to the 
victims, so that China's society can heal and move forward in an open 
democratic way. The Tiananmen Mothers clearly link these challenges to 
the Olympics, asking, when the government has ``repeatedly refused 
dialogue with the victims' family members . . . How can [it] face the 
whole world? Is it really possible that, as the host of the 2008 
Olympic Games, the government can be at ease allowing athletes from all 
over the world to tread on this piece of blood-stained soil and 
participate in the Olympics? ''
            making the impact of the olympics a positive one
    The IOC's selection of Beijing as host of the 2008 Olympic Games is 
an incredible honor for the people of China, an honor that brings with 
it the potential for long-lasting, positive impact on the lives of 
individuals. HRIC is not calling for a boycott, and believes the 
hosting of the Games still presents an opportunity--and 
responsibility--to impact human rights and advance rule of law in 
China. It is up to each of the different actors and sectors\14\--
governments, athletes, sponsors, tourists, businesses, corporate 
sponsors, academic exchange programs--to support the calls for reform 
coming from within China, and assess their roles and interactions with 
China. Each actor can use different opportunities to advance the rule 
of law, a successful Olympics, and the human rights of China's people. 
It is clear that we can no longer continue ``business as usual.''
---------------------------------------------------------------------------
    \14\ The projected attendance for the Olympics is staggering, and 
includes the following: 20,000-30,000 journalists; 10,500 athletes; 
500,000-550,000 foreign visitors; over 2,000,000 domestic visitors; 
70,000 volunteers working at the Olympics; and 30,000 volunteers for 
the Paralympics. See ``Factbox: Olympics--Beijing By the Numbers,'' 
Reuters, August 7, 2007, http://www.reuters.com/article/latestCrisis/
idUSSP176476; Beijing Organizing Committee of the Olympic Games, 
``Beijing 2008: Volunteer Recruitment Goes International,'' http://
en.beijing2008.cn/68/95/article214029568.shtml; ``Beijing Holds Grand 
Olympic Hopes,'' Associated Press (via CNN), August 11, 2007, http://
edition.cnn.com/2007/WORLD/asiapcf/08/05/china.olympics.ap/index.html; 
``Computerized Polyglots to Serve Beijing Olympics,'' People's Daily, 
September 11, 2007, http://english.peopledaily.com.cn/90001/90781/
90879/6260185.html.
---------------------------------------------------------------------------
    The international community needs to first get behind the hype and 
the spin to find accurate information about what's really going on in 
China. We would like to close with some recommendations and suggestions 
for the Commission:

        <bullet> Raise individual cases in U.S. high-level visits and 
        other fora with Chinese authorities: Such action sends a clear 
        message of support and concern for human rights. Secretary 
        Rice's recently reported engagement with Beijing on human 
        rights issues is a good example. We urge the Commission members 
        to support the cases of the individuals featured in HRIC's 
        Incorporating Responsibility 2008 Campaign.\15\ These 12 human 
        rights defenders, including Shi Tao, Chen Guangcheng, and other 
        individuals imprisoned for rights-related work, collectively 
        represent the range of human rights issues that are of serious 
        concern in China today.
---------------------------------------------------------------------------
    \15\ The campaign website is located at http://www.ir2008.org/.
---------------------------------------------------------------------------
        <bullet> Particular attention should also be paid to cases that 
        involve individuals who have raised Olympics-related 
        criticisms, including:

          Hu Jia: HIV/AIDS activist Hu Jia posted an article on the 
        real situation of China in the lead-up to the Olympics.\16\ He 
        was detained on December 27, 2007, on charges of ``inciting 
        subversion of state power.'' He is currently being held at 
        Beijing Municipal Detention Centre and has been denied release 
        on bail pending investigation for reportedly being a danger to 
        society.
---------------------------------------------------------------------------
    \16\ See Teng Biao and Hu Jia, ``The Real Situation in Pre-Olympics 
China,'' available at http://hrichina.org/public/PDFs/CRF.4.2007/CRF-
2007-4_Situation.pdf.
---------------------------------------------------------------------------
          Gao Zhisheng: In September 2007, Gao Zhisheng wrote a 16-page 
        open letter to the U.S. Congress detailing the human rights 
        situation and anti-Olympics sentiment in China, and called for 
        a boycott of the Olympics, alleging that the CCP was using the 
        Games as a tool to assume legitimacy.\17\ Gao was detained in 
        mid-September 2007; his current situation is unclear.
---------------------------------------------------------------------------
    \17\ ``China Dissident Urges Boycott of Olympics,'' The Washington 
Times, September 21, 2007, http://www.washingtontimes.com/apps/
pbcs.dll/article?AID=/20070921/NATION/109210069/1002/
NATION&template=nextpage.
---------------------------------------------------------------------------
          Yang Chunlin: Yang Chunlin is a Heilongjiang land rights 
        activist detained in July 2007 after organizing the ``We Want 
        Human Rights, Not the Olympics'' (also known as ``Human Rights 
        Over the Olympics'') petition that gained over 10,000 
        signatures. He was formally arrested in August 2007 and charged 
        with incitement to subvert state power.\18\ In February 2008, 
        Yang's trial opened in the city of Jiamusi, but no verdict has 
        yet been reached. Yang's arrest and trial are notable because 
        the case is one of the first that openly ties opposition to the 
        Beijing Olympics to allegations of subversion.\19\
---------------------------------------------------------------------------
    \18\ ``Chinese Land Rights Activist Who Opposed Olympics Will Go On 
Trial Next Week, Lawyer Says,'' Associated Press (via International 
Herald Tribune), February 15, 2008, http://www.iht.com/articles/ap/
2008/02/15/news/China-Activist.php.
    \19\ ``China Tries Land Activist Who Opposed Olympics,'' Radio Free 
Asia, February 19, 2008, http://www.rfa.org/english/news/2008/02/19/
china_olympics/.
---------------------------------------------------------------------------
          Ye Guozhu: Ye Guozhu is a 52-year-old housing advocate and a 
        Beijing resident, who was evicted from his home in May 2003 to 
        make way for Olympic construction. In August 2004, Ye applied 
        for permission to organize a demonstration of 10,000 against 
        forced Olympic evictions. After the application, he was 
        detained on August 28, 2004, on suspicion of ``disturbing 
        social order'' and other public order offenses. He was formally 
        arrested on September 15, 2004, after two weeks of 
        detention.\20\ In December 2004, Ye was sentenced to four years 
        in prison by the Dongcheng city court for ``picking a quarrel 
        and making trouble.'' \21\ He is due for release in mid-July 
        2008.
---------------------------------------------------------------------------
    \20\ `` `Key Protester' for `Troublemaking' Arrested in China,'' 
Kyodo News, September 28, 2004.
    \21\ ``Chinese Activist Gets Four Years in Jail for Planning 
Demonstration,'' Agence-France Presse, December 17, 2004.
---------------------------------------------------------------------------
          Wang Dejia: Wang wrote articles criticizing Beijing for human 
        rights abuses, and stated that China's central government was 
        ignoring the needs of common people in the lead-up to the 
        Olympics and was more concerned about cracking down on 
        dissidents and building new venues. Wang was detained on 
        December 14, 2007, on a charge of ``subverting state 
        authority.'' \22\
---------------------------------------------------------------------------
    \22\ Anita Chang, ``Chinese activist held for subversion,'' AP, 
December 19, 2007, http://news.yahoo.com/s/ap/20071219/ap_on_re_as/
china_dissident_detained_1;_ylt=Am75FBgA k5.2qzyFGJnC85NPzWQA.

        <bullet> Monitor censorship and surveillance: We are pleased to 
        see the U.S. National Olympic Committee has not issued any 
        orders to U.S. athletes limiting their speech while in China, 
        and we hope U.S. dialogue with China will serve as one way to 
        engage on human rights issues and support freedom of 
        expression. Regarding surveillance, the Chinese government is 
        responsible for providing appropriate security during the 
        Olympics and beyond. We urge the Commission members to monitor 
        two areas of concern: first, the appropriate balancing of 
        security and protections for human rights; and second, the 
        post-Olympic uses of the advanced security technology being 
        developed and implemented for the Olympics. This technology 
        will be in place long after the Games are over and the 
        international media have packed up, and further consideration 
        is required regarding its impact on human rights.\23\
---------------------------------------------------------------------------
    \23\ See Keith Bradsher, ``China Finds American Allies for 
Security,'' New York Times, December 28, 2007.
---------------------------------------------------------------------------
        <bullet> Review of dual-use export control regulations by the 
        Commerce Department: We understand the Commerce Department is 
        currently revisiting U.S.-China dual-use export control 
        regulations, specifying what security equipment American 
        companies can sell to China. In response to rapid advances in 
        surveillance technology and the increasing involvement of 
        American companies in the Chinese market, the Commerce 
        Department was reported as singling out biometric technology--
        face-recognition software--which Chinese security agencies 
        could misuse against rights defenders and others. Through 
        appropriate channels with Commerce, Commission members should 
        raise human rights concerns, including concerns regarding 
        corporations that sell equipment directly to the Chinese 
        police.
        <bullet> Finally, HRIC strongly urges the Commission members to 
        publicly express their support for the Tiananmen Mothers, and 
        other domestic rights defenders. Despite the dismissals of June 
        Fourth as belonging to the past by IOC President Jacques Rogge 
        and others, the June Fourth crackdown still plays a defining 
        role in the lives of China's people today.

    Respected members of the international community emerge not through 
elaborately orchestrated spectacles, expensive stadiums, mascots or 
international fanfare--but by respecting human rights at home and 
abroad. HRIC hopes the Chinese government will take the opportunity of 
the Olympic Games, as the whole world is watching, to do just that.
    Thank you and I look forward to your questions.
                                 ______
                                 

                   Prepared Statement of Robert Dietz

                           february 27, 2008
    Dear Chairman and distinguished members of the Congressional-
Executive Commission on China:
    Thank you for inviting the Committee to Protect Journalists to 
participate in the discussion of ``The Impact of the 2008 Olympic Games 
on Human Rights and the Rule of Law in China.'' CPJ has been monitoring 
press freedom conditions in China and around the world for more than 25 
years. The organization was founded in 1981 by a group of American 
journalists who believed that the strength and influence of the 
international media could be used to support journalists who are 
targeted because of their work. CPJ is independently funded by 
individuals, foundations and corporations, and accepts no government 
funds whatsoever.
    Recognizing that with the advent of the 2008 Beijing Games we were 
presented with an opportunity to exert greater than usual influence 
around China's media policy, last year CPJ produced a report, ``Falling 
Short: As the 2008 Olympics Approach, China Falters on Press Freedom,'' 
which we are in the process of revising for this year. Our intention 
was to speak to the more than 25,000 journalists expected to descend on 
China for the 2008 Summer Olympic Games. We wanted to give them 
practical advice on how to work as a journalist in China, as well as 
tell them of the conditions under which their Chinese colleagues are 
working.
    That second point, conditions for Chinese journalists, is a 
critical one. We are concerned that when foreign news teams arriving in 
Beijing hire local Chinese assistants they will place demands on them 
that might put them in jeopardy. Reporters who ask their Chinese hires 
to arrange potentially dangerous meetings, say with activists, or to 
visit an AIDS village, or get advance information on potential 
demonstrations that the government will want to quash, might be putting 
their Chinese colleagues at risk. It is not inconceivable that they 
will be made to pay a price, if not during the Games, then after them, 
when the world's media attention has moved on.
    Watching China make preparations for the Games, it is clear the 
government wants them to come off without a flaw. That preoccupation 
could lead to overly aggressive attempts to control the media, a 
pattern we believe we are already seeing. While those attempts will 
most likely be futile, past experience has shown that China tends to 
err on the side of heavy-handedness when it comes to media control and 
threats to China's image as a unified nation with little internal 
dissent. We are not as concerned about the threat that foreign 
journalists will face in China during the Games, but it seems that the 
Chinese journalists working with them as translators, fixers, and 
coordinators--many of whom will be enthusiastic young people with 
relatively little journalism experience--make up a high-risk group.
    Just how high are the risks for Chinese journalists in China? It is 
a mixed picture. Here are the harshest facts first:
    With less than one year to go before the 2008 Olympic Games, China 
is holding at least 25 reporters and editors behind bars because of 
their work. Most journalists are being held on vague security-related 
charges such as revealing state secrets or inciting subversion of state 
power. By hiding behind such broad accusations of threats to civil 
stability, China has been the world's leading jailer of journalists 
since 1999. That number of 25 behind bars is down from 29 last year.
    Typical is the case of Shi Tao, whose mother has called on CPJ to 
pressure the international community to insist Chinese authorities to 
release her son ahead of the 2008 Olympic Games in Beijing. ``My son is 
not guilty. You should keep up pressure on the Chinese government to 
release him,'' Gao Qinsheng said when she visited CPJ's office in June 
of last year. Shi is serving a 10-year prison term for the crime of 
``leaking state secrets abroad.'' He was jailed in 2004 for sending an 
e-mail describing Communist Party propaganda department orders to his 
newspaper Dangdai Shangbao (Contemporary Trade News). The information 
included orders to news editors on how to report the anniversary of the 
1989 crackdown on Tiananmen Square demonstrators.
    But there has been a thaw of sorts in recent weeks. Li Changqing 
and Yue Tianxiang were both released within the past two months because 
their sentences were due to expire. The Singapore Straits Times 
journalist Ching Cheong was released unexpectedly on February 7 after 
campaigns for his health, while Southern Metropolis News journalist Yu 
Huafeng was released on February 11 after his sentence was commuted 
through a lengthy appeal process. It is worth noting that all but one 
of these men was a fairly senior print journalist. And we believe the 
December 2006 release of a former Xinhua reporter, Gao Qinrong after 
serving eight years of a 12-year sentence falls into the same category. 
Senior journalists working in what are government-controlled 
publications seem to receive softer government treatment, possibly 
because their arrests and sentences were so egregious in the first 
place--if we dare to think that reduced time behind bars for simply 
having worked as a journalist can be classified as ``softer 
treatment.''
    Are these recent releases an indicator of a change of heart on the 
part of the Chinese government? It is difficult to say, but my feeling 
is that it is most likely not, though China has used prisoner releases 
to ease international criticism in the past. And remember, on about the 
same day Ching Cheong was released and allowed to return to his family 
in Hong Kong, Lu Gengsong was sentenced to four years in prison on 
subversion charges by the Intermediate People's Court in the eastern 
Chinese city of Hangzhou, after his one-day, closed-door trial on 
January 22. Lu was sentenced for ``inciting the subversion of state 
power.'' Lu is a strong populist who openly criticized corrupt 
officials, and wrote several articles for overseas Web sites and 
reported on the trial of a human rights defender the day before he was 
arrested.
    Mo Shaoping, a veteran Beijing-based lawyer who has represented 
many jailed journalists, told CPJ that he did not take the recent 
releases as encouraging signs. ``There has been no reduction in cases 
where subversion charges are brought against people for articles they 
have written. If anything,'' Mr. Mo told us, ``these cases have 
increased in the past one or two years.''
    CPJ's records show that three more jailed journalists are due to be 
released before or around the time the Games start on August 8.

        <bullet>   Hua Di is a Stanford University researcher and U.S. 
        resident who was charged with revealing state secrets while 
        visiting China in January 1998 after publishing articles about 
        China's defense system in academic journals. We have been 
        unable to confirm his whereabouts.
        <bullet>   Zhang Wei was arrested in July 2002 for illegally 
        publishing underground newspapers that officials said ``misled 
        the public'' in Chongqing, central China. He is due out in 
        July.
        <bullet>   Fan Yingshang printed 60,000 copies of a magazine 
        and was subsequently charged with profiteering in October 1995. 
        Fan is due to be released sometime before October.

    CPJ is calling on China to release these men immediately, and then 
begin a review of its media policies. It seems clear that China's 
leaders have grasped the importance of the open flow of information to 
a modern economy. Jailing journalists goes back to an era when the 
government thought it could control every aspect of a Chinese citizen's 
life. It long ago relinquished that notion, but it persists in jailing 
journalists as if China were still at the height of the Cultural 
Revolution.
    An important fact to remember is that more than half of the 
journalists behind bars in China are there for Internet-related 
activities. But despite having the world's greatest Internet censorship 
apparatus, the government seems unable to fully stem the flow of frank 
discussion and open criticism that ricochets across China from e-mail, 
blogs, foreign and domestic Web sites, message bulletin boards, instant 
messaging and telephone texting. The highly vaunted Great Firewall of 
China is under constant pressure, and is turning more into an 
increasingly leaky dike holding back a rising digital flood of 
information with constantly updated technology, some of it supplied by 
United States companies. The government is struggling to stay on top of 
the growth of the Internet.
    And the Internet is not the only place where China's attempts to 
control the flow of information are not meeting with success.
    The number of journalists jailed in China does not tell the whole 
story. The overwhelmingly vast majority of journalists in China are not 
in jail. Many reporters in the country's ever-more commercialized media 
are pursuing news stories and readers with energy and enthusiasm, while 
their editors fully understand how far they can push the limits of a 
story. To rein in that energy, the government propaganda machine hands 
down a daily stream of directives covering issues that range from the 
most sensitive--how to handle the annual commemoration of the 1989 
Tiananmen demonstrations, or a toxic chemical spill into a river, say--
to the most mundane tabloid-level stories. Reporters and editors know 
they are being watched and a running tally of their missteps is kept. 
Too many errors could mean a demotion or reassignment to a less 
prestigious publication, far away from home. Successful journalists and 
editors pick their battles carefully, knowing their readers and viewers 
increasingly expect reliable and accurate reporting. Many others simply 
resign themselves to the restrictions, write the party line, and take 
home their paycheck.
    It is interesting to note the directives from the Central 
Propaganda Department are no longer always delivered by e-mail anymore, 
according to journalists we have spoken with in Hong Kong earlier this 
month. Increasingly, directives are given by telephone, so that there 
is no electronic trail of the department's messages. We have been told 
that the method changed after our use of some of those messages 
appeared in ``Falling Short,'' CPJ's report on the Olympics, which I 
mentioned at the beginning of these remarks.
    The method of transmission of censorship directives is one change 
in China's well-oiled control system, and not necessarily one for the 
better. And it is not the sort of change we were assured we would see 
after Beijing was awarded the 2008 Olympic Games. The International 
Olympic Committee and the government assured skeptics that the influx 
of Olympic ideals would wean the government from its obsession with 
regulating the flow of information.
    That scenario never came to pass and doesn't look likely to, though 
some restrictions on foreign journalists were lifted in January 2007. 
Under the new rules 
foreigners are allowed unrestricted travel and are free to ask 
questions of anyone willing to talk to them--rules that were largely 
ignored anyway. Government officials have talked about the possibility 
that those restrictions will be fully lifted sometime soon, never to 
return--though it should be noted that travel to Tibet and the Xinjiang 
Autonomous Region are still forbidden.
    Foreign journalists in China do report fewer hassles and 
restrictions since the new regulations were handed down, although many 
local officials and powerful businessmen have yet to get the message at 
the grassroots level. There continue to be disturbing reports of the 
harassment of Chinese citizens who have given interviews to foreign 
reporters. And most foreign journalists still operate under the 
assumption that their phones are tapped and e-mail monitored.
    For Chinese journalists things have gotten worse. Many of them have 
told CPJ that while they wish they had the freedoms their foreign 
colleagues now have, they would be reluctant to exercise them anyway. 
They fear retribution once the spotlight of the Games has moved on and 
the country reverts to business as usual.
    Still, the government is clearly fighting a rear-guard action in 
trying to control the flow of information. Increasingly media--
particularly print media--push those limits. Internet-based citizen 
journalists abound and bona fide press-card holders regularly put their 
stories online if they can't convince their papers to run with them. 
The journalism instinct is alive and well in China. It is the 
government that is still stuck in its Mao-era approach, trying to cope 
with the demands of increasingly sophisticated journalists and their 
readers and viewers.
    This is the atmosphere into which some 20,000 to 30,000 foreign 
journalists and technicians will find themselves in August 2008. Given 
that it does not look like China will soften its stance any more, and 
that it has even come down harder on its own journalists in recent 
months, what can be done?

        <bullet>   CPJ and other groups have not had any apparent 
        success in dealing with the International Olympic Committee 
        around these issues. We are calling on governments, 
        particularly our own, and the Games' corporate sponsors to 
        press the International Olympic Committee to insist that the 
        Chinese government fully meet its promises of press freedom for 
        the 2008 Games. And we want to ensure that freedom is extended 
        to Chinese journalists, though I suspect our Chinese colleagues 
        would be wary of immediately taking advantage of those 
        freedoms.
        <bullet>   We ask everyone to continue to call on China to meet 
        the pledge made to the IOC in 2001 when it was awarded the 
        Games to remove media restrictions. In particular, eliminate 
        restrictions on local journalists, who continue to face the 
        same severe constraints they did before China was awarded the 
        Games in 2001.
        <bullet>   We do not think it is unrealistic to call on China 
        to release all the journalists currently imprisoned for their 
        work. For them to be in jail when the Games begin on August 8, 
        2008, would make a travesty of China's pledge of greater press 
        freedom and the IOC's acceptance of that pledge.
        <bullet>   In the broadest sense, China should stop censoring 
        news and dismantle the archaic system of media control that has 
        evolved over several decades. Halt Internet censorship and 
        monitoring activities and let information flow freely on every 
        digital platform.
        <bullet>   Narrow the use of state secret and national security 
        laws, bringing them into compliance with the Johannesburg 
        Principles on National Security, Freedom of Expression, and 
        Access to Information. These principles, endorsed by the U.N. 
        special rapporteur on freedom of opinion and expression, allow 
        restrictions only in cases of legitimate national security.
        <bullet>   Ratify the International Covenant on Civil and 
        Political Rights, which China signed in 1998. Article 19 of the 
        Covenant states: ``Everyone shall have the right to freedom of 
        expression; this right shall include freedom to seek, receive, 
        and impart information and ideas of all kinds, regardless of 
        frontiers, either orally, in writing or in print, in the form 
        of art, or through any other media of his choice.''
        <bullet>   As a member of the United Nations, honor Article 19 
        of the Universal Declaration of Human Rights, which states: 
        ``Everyone has the right to freedom of opinion and expression; 
        this right includes freedom to hold opinions without 
        interference and to seek, receive, and impart information and 
        ideas through any media and regardless of frontiers.''

    And, perhaps most important, we are calling on the international 
media organizations that will be in China to do two things and do them 
with the same dedication and energy they will use to cover the Games:

        <bullet>   Use all means to insist that China honor its media 
        pledges to the IOC and extend to Chinese journalists the same 
        freedoms that visiting journalists enjoy.
        <bullet>   For the safety and well-being of our Chinese 
        colleagues, take extra steps to ensure that all employees 
        covering the games, either on the ground in China or on 
        editorial desks at home offices, to be aware of the 
        restrictions and threats that their Chinese colleagues face. 
        Chinese journalists are not allowed to operate under the same 
        rules that foreign journalists take for granted. To forget that 
        reality can endanger their freedom.

    I thank the Commission for the opportunity it has granted CPJ to 
outline these issues. Along with this testimony, we have submitted a 
copy of our report, ``Falling Short,'' for your reference.
                                 ______
                                 

                Prepared Statement of Sophie Richardson

                           february 27, 2008
    Chairman Levin, Co-Chairman Dorgan, and other Distinguished Members 
of the Commission,
    Human Rights Watch first wishes to thank the CECC for convening 
this timely hearing. It is a privilege to participate along with such 
distinguished panelists.
    There are three key questions before us today. The first is whether 
the human rights situation in advance of the 2008 Beijing Games is 
improving, as the Chinese government has repeatedly insisted it would. 
We regretfully submit that it is not. Over the past year, we have 
continued to document not only chronic human rights abuses inside 
China, such as restrictions on basic freedoms of speech, assembly, and 
political participation, but also abuses that are taking place 
specifically as a result of China's hosting the 2008 Summer Games. 
Those include an increasing use of house arrest and charges of 
``inciting subversion'' as means of silencing dissent, ongoing 
harassment of foreign journalists despite new regulations protecting 
them, and abuses of migrant construction workers without whose labors 
Beijing's gleaming new skyline would not exist. More detail about these 
and other abuses are included in our written testimony.
    The second key question is whether this negative impact will be a 
lasting one. Human Rights Watch believes that these abuses constitute a 
failure of the Chinese government to fulfill its own voluntarily made 
promises to improve rights in order to win the bid to host the 
Olympics. These were promises made to the international community, to 
the International Olympic Committee, and, indeed, to the Chinese 
people. It is clear that the Chinese government has no intention of 
following through on these commitments, and unless significant pressure 
is brought to bear to make it do so, we fear the negative impact will 
not only be very difficult to reverse in the future, but will also mean 
that in effect the international community has tacitly endorsed the 
repression necessary to engineer a vision of a modern, cosmopolitan 
China.
    The third question, therefore, is what we can do to alter the 
current situation to ensure a better outcome. The administration and 
State Department assure us that they are constantly raising these 
concerns, and while we do not doubt their efforts, we question the 
efficacy of ``quiet diplomacy'' in the absence of more public 
measures--after all, the decreasing volume of American criticism of 
China's rights record over the past decade is in part to blame for the 
current situation, and President Bush and Secretary Rice managed over 
the course of just a few days last week to contradict one another as to 
whether the United States feels it is appropriate to raise rights 
issues in the context of the Olympics. The Chinese government 
desperately wants a positive international assessment of its country 
during this time of unprecedented scrutiny; we believe that if pressed, 
they will make progress in order to get such reviews, particularly from 
the United States.
    To that end, Human Rights Watch respectfully urges that:

          1. All members of Congress and senior administration 
        officials who visit China in the coming months speak publicly 
        about these abuses, and, when security for all involved can be 
        ensured, visit those under house or actual arrest for 
        challenging the Chinese government's rights abuses.
          2. The members of this Commission request public assurances 
        from US-based Olympic sponsors that their business practices in 
        China do not contribute to rights abuses.
          3. That the Administration be asked to articulate how it will 
        respond to rights abuses in the coming months, including how it 
        is prepared to assist American journalists who are intimidated, 
        harassed, or detained while trying to do their jobs.
          4. That the Administration explain what specific rights-
        promoting activities the President will engage in while in 
        Beijing to demonstrate that his rhetorical commitments be made 
        real. These could include making himself available for on-line 
        discussions to underscore the importance of internet freedom, 
        visiting unregistered churches to emphasize the right to 
        practice religion freely, or speaking publicly about the 
        constraints under which Chinese journalists are forced to 
        operate.
          5. And, if the current crackdown shows no sign of abating in 
        the coming months, ask the Administration to publicly 
        reconsider whether it is still appropriate for the President to 
        attend the opening or closing ceremonies.

    If steps like these are not taken--and taken soon--the U.S. 
government runs the risk of giving an imprimatur of approval to the 
Chinese government's rights record.
    Thank you for the opportunity to participate and for the 
Commission's ongoing commitment to human rights issues.
   background on human rights abuses in advance of the 2008 beijing 
                                olympics
    Despite China's official assurances that hosting the 2008 Olympic 
Games will help to strengthen the development of human rights in the 
country, the Chinese government continues to deny or restrict its 
citizens' fundamental rights, including freedom of expression, freedom 
of association, and freedom of religion.
    The government's extensive police and state security apparatus 
continues to impose multiple layers of controls on civil society 
activists, critics, and protesters. Those layers include professional 
and administrative measures, limitations on foreign travel and domestic 
movement, monitoring (covert or overt) of internet and phone 
communications, abduction and confinement incommunicado, and unofficial 
house arrests. A variety of vaguely defined crimes including ``inciting 
subversion,'' ``leaking state secrets,'' and ``disrupting social 
order'' provide the government with wide legal remit to stifle critics.
                   human rights and the 2008 olympics
    Despite temporary regulations in effect from January 1, 2007, to 
October 17, 2008, that give correspondents freedom to interview anyone 
who consents, foreign journalists continue to be harassed, detained, 
and intimidated by government and police officials. The temporary 
regulations do not extend to Chinese journalists or foreign 
correspondents' Chinese assistants, researchers, and sources, who 
continue to risk reprisals for violating government directives on taboo 
reporting topics.
    Official efforts to rid Beijing of undesirables ahead of the 
Olympics have accelerated the eviction of petitioners--citizens from 
the countryside who come to the 
capital seeking redress for grievances ranging from illegal land 
seizures to official corruption. In September-October the Beijing 
municipal government demolished a settlement in Fengtai district that 
housed up to 4,000 petitioners.
    The countdown to the Olympics has also sparked a construction boom. 
An estimated one million migrant construction workers are integral to 
this effort, yet their labor conditions are harsh and unsafe, and 
workers are often unable to access public services. When a subway 
tunnel under construction collapsed in March, trapping six workers, the 
first step the employer took was to prevent workers from reporting the 
accident by confiscating their mobile phones.
                         freedom of expression
    In 2007 the Chinese government stepped up its efforts to control 
increasingly vibrant print and online forms of expression, and 
sanctioned individuals, journalists, and editors for failing to conform 
to highly restrictive but inconsistently implemented laws and 
regulations.
    China's system of internet censorship and surveillance is the most 
advanced in the world. Filtering, blocking, and monitoring technologies 
are built into all layers of China's internet infrastructure. Tens of 
thousands of police remotely monitor internet use around the clock. The 
elaborate system of censorship is aided by extensive corporate and 
private sector cooperation--including by some of the world's major 
international technology and internet companies such as Google, Yahoo, 
and Microsoft. Writers, editors, bloggers, webmasters, and journalists 
risk punishments ranging from immediate dismissal to prosecution and 
lengthy jail terms for sending news outside China or posting articles 
critical of the political system. For example, Zhang Jianhong, former 
editor-in-chief of the Aegean Sea website, was sentenced to six years' 
imprisonment on March 19 for ``inciting subversion.''
    The countdown to the Beijing Olympics has seen the threshold 
lowered for internet content considered ``sensitive'' by China's 
censors and prompted closure of access to thousands of websites in 
2007, including popular international sites such as Wikipedia and 
Flickr. The government has expanded its traditional criteria for 
internet censorship from topics including references to the 1989 
Tiananmen Massacre, the outlawed Falungong ``evil cult,'' and content 
perceived as sympathetic to ``separatist'' elements in Tibet, Xinjiang, 
and Taiwan, to include ``unauthorized'' coverage of everything from 
natural disasters to corruption scandals that might embarrass the 
Communist Party of China (CPC). By official estimate the government 
shut down more than 18,000 individual blogs and websites since April 
2007, and in August censors widened their focus to include shutting 
down numerous internet data centers. Official measures to filter or 
remove ``sensitive'' content from domestic websites sharply accelerated 
in the run up to the 17th CPC Congress in October.
    Chinese journalists continue to risk severe repercussions for 
pursuing stories that touch on officially taboo subjects or threaten 
powerful private interests. Miao Wei, former executive editor of 
Sanlian Life Weekly, confirmed in April that he had been demoted in 
connection with a cover story on the aftermath of the Cultural 
Revolution (1966-1976). Lan Chengzhang, a reporter with China Trade 
News, was murdered in January while investigating an illegal coal mine 
in Datong, Shanxi province. In mid-August five journalists, including a 
reporter from the government mouthpiece People's Daily, were 
interviewing witnesses to the Fenghuang bridge collapse in Hunan 
province when plainclothes thugs interrupted the interviews and kicked 
and punched the journalists, who were then detained by police.
                              legal reform
    Legal reforms proceeded at a fast pace in 2007 in order to achieve 
the CPC's overriding goal of making the rule of law ``the principal 
tool to govern the country.'' New legislation was adopted on a wide 
range of issues such as property rights, labor contracts, 
administration of lawyers, access to public records, and the handling 
of emergencies. But the party's continued dominance over, and 
interference with, judicial institutions, as well as weak and 
inconsistent enforcement of judicial decisions, means that overall the 
legal system remains vulnerable to arbitrary interference.
    Ordinary citizens face immense obstacles to accessing justice, in 
particular over issues such as illegal land seizures, forced evictions, 
environmental pollution, unpaid wages, corruption, and abuse of power 
by local officials, a situation that fuels rising social unrest across 
the country. The authorities have stopped disclosing figures about the 
number of riots and demonstrations after they announced a decline from 
over 200 incidents per day in 2006, but large-scale incidents were 
reported in 2007 in almost all of China's 34 province-level 
administrative units. Several demonstrations involved tens of thousand 
of people, such as in Yongzhou (Hunan) in March 2007 and Xiamen 
(Fujian) in June. In speeches and articles top security officials 
acknowledged the heightening of social conflicts, but remained defiant 
toward greater independence of the judiciary, blaming ``hostile'' or 
``enemy forces'' for trying to use the nation's legal system to 
undermine and westernize China. A string of lawyers defending human 
rights cases have been suspended or disbarred under a yearly licensing 
system that acts as a general deterrent to taking cases viewed as 
``sensitive'' by the authorities.
    The rights of criminal defendants continued to be sharply limited 
and violated by law enforcement agencies. Defense lawyers face chronic 
difficulties including accessing defendants in custody, consulting 
court documents, and producing exculpatory evidence before the court. 
Despite the reiteration by the Supreme People's Court in September that 
judges ought to ``pay more attention to evidence and treat confessions 
with more skepticism,'' torture, especially at the pretrial stage, 
remains prevalent. The Public Security Bureau continues to make wide 
use, including for political and religious dissidents, of the 
Reeducation-Through-Labor system, which allows 
detention for up to four years for ``minor offenders,'' without trial.
                         human rights defenders
    Chinese human rights defenders, seizing on the official promise of 
lawful governance, are becoming more assertive and skillful at 
documenting abuses and mounting legal challenges. But the authorities, 
who have never tolerated independent human rights monitoring, have 
retaliated with harassment, unlawful detention, forced disappearances, 
and long prison sentences, often on trumped-up charges.
    Authorities have targeted a small, loosely-organized network of 
lawyers, legal academics, rights activists, and journalists, known as 
the weiquan movement, which aims to pursue social justice and 
constitutional rights through litigation. The movement focuses on the 
protection of ordinary citizens over issues such as housing rights, 
land seizures, workers' rights, and police abuse. Yang Chunlin, a land 
rights activist arrested in July, was found guilty in February 2008 of 
``inciting subversion'' for his role in organizing a petition titled 
``We want human rights, not the Olympics.'' Lu Gengsong, a former 
lecturer turned activist who documented illegal eviction cases and 
official collusion, was found guilty in February 2008 on charges of 
subverting state power. In August 2007 environmental activist Wu Lihong 
was sentenced to three years' imprisonment under ill-defined business 
fraud charges; his wife reported he had been tortured while held 
incommunicado. Yang Maodong, a Guangzhou-based land rights activist 
arrested in September 2006 and still awaiting trial, also reported that 
he had been repeatedly tortured in detention.
    Defenders who document and report abuses against other activists 
are particularly vulnerable. In September lawyer Li Heping was abducted 
in broad daylight, held for six hours, severely beaten, and told he 
should leave Beijing. Li Jianqiang, a renowned human rights lawyer, was 
disbarred without reason. The human rights monitor Hu Jia has been 
maintained in house arrest in Beijing for the most part of the year out 
of any legal procedure. Yuan Weijing, the wife of the blind activist 
Chen Guangcheng who is currently serving a three-year sentence for 
exposing family planning abuses, was also prevented from traveling 
abroad to collect a human rights prize on his behalf.
                              labor rights
    Chinese workers continue to be forbidden to form independent trade 
unions, as the government maintains that the party-controlled All-China 
Federation of Trade Unions (ACFTU) adequately protects workers' rights. 
This restriction on legally-sanctioned labor activism, coupled with 
increasingly tense labor disputes in which protesting workers have few 
realistic routes for redress, have contributed to increasing numbers of 
workers taking to the streets and to the courts to press claims about 
forced and uncompensated overtime, employer violations of minimum wage 
rules, unpaid pensions and wages, and dangerous and unhealthy working 
environments.
    Workers who seek redress through strike action are often subject to 
attacks by plainclothes thugs who appear to operate at the behest of 
employers. In July a group of 200 thugs armed with spades, axes, and 
steel pipes attacked a group of workers in Heyuan (Guangdong), who were 
protesting over not having been paid for four months; they beat one 
worker to death.
    Human Rights Watch will soon release a report detailing abuses of 
migrant construction workers in Beijing.
                          freedom of religion
    The Chinese government recognizes the right to believe, but limits 
worship to a state-controlled system of registered and controlled 
churches, congregations, mosques, monasteries, and temples.
    The official registration process requires government vetting and 
ongoing scrutiny of religious publications, seminary applications, and 
religious personnel. The government also closely monitors the 
membership and financial records of religious institutions and the 
personnel they employ, and retains the right to approve or deny 
applications for any group activities by religious organizations. Those 
who fail to register are considered illegal and are liable for criminal 
prosecution, fines, and closure.
    Reprisals against non-registered religious organizations have 
primarily focused on arrests of Protestants who attend ``house 
churches,'' for Bible study meetings and training sessions. The 
majority of those arrested are rapidly released, some after paying 
fines, but leaders of such underground churches are sometimes held on 
fabricated charges including ``illegal business practices.'' The 
freedom of belief of certain groups designated by the government as 
``evil cults,'' including Falungong, continues to be severely 
restricted.
                                 ______
                                 

                   Prepared Statement of Robin Munro

                           february 27, 2008
    Mr. Chairman, thank you for inviting me to testify at this 
important hearing. The focus of my comments today is on China's current 
labor rights situation, but I would like to broaden this theme to 
address the wider range of human and labor rights problems faced by 
ordinary, non-elite members of society--or what we at China Labour 
Bulletin sometimes call ``human rights for the millions.'' Because time 
is short, I'm not going to say much about the Beijing Olympics 
themselves, but instead will simply offer a few broad-brushstroke 
thoughts and conclusions on the implications of the upcoming Games for 
the rights situation in China. I shall then fast-forward to the post-
Olympics period and issues--or rather, try to review the basic 
underlying problems in society that are going on right now and which 
will still be there, virtually unchanged, after the Olympic athletes 
and visitors have all gone home.
    The public notice for today's hearing poses the question of 
``whether the Olympics will bring lasting benefits to Chinese 
citizens,'' or, conversely, ``have a negative impact on their human 
rights.'' With less than six months to go before the Games begin, I 
feel only one conclusion is possible here. Over the past year or so, 
the Games have led to a harsh and growing crackdown against the 
domestic civil rights movement, and to increasingly unrestrained rights 
violations by the government and security forces in general. Rights 
activists have been rounded up by the police and jailed, civil rights 
lawyers have been intimidated and punished, and even the wives of 
dissidents have been persecuted in an effort to ensure their silence as 
the Olympic Games approach. As other speakers have noted, several 
rights activists are now facing criminal trials in China merely for 
calling on the government to give human rights a modicum of priority in 
the run-up to the all-important Games. In short, the official message 
being sent to China's citizens today is that any kind of public 
activity that in any way threatens to tarnish the authorities' image, 
or that introduces a negative note into the coming Olympics 
festivities, is de facto a crime. This official record makes a mockery 
of Beijing's pledges to the IOC and the world that holding the Olympic 
Games would advance the human rights cause in China. Clearly, Beijing 
2008 is not going to be anything like Seoul in 1988.
    Unfortunately, this outcome was largely to be expected. So much is 
riding on the forthcoming Games being a success, in terms both of the 
image the Chinese leadership wishes to project at the international 
level, and also of the message of rosy domestic contentment and rising 
popular prosperity that it wishes to impose on the Chinese people, that 
nothing is to be allowed to spoil the Olympics party. There is little 
the rest of the world can do about this, except to protest loudly and 
strongly as the crackdown continues. The one issue so far on which 
Games-related international pressure appears to have had a noticeably 
positive effect is the Darfur situation, via China's belated support 
for a U.N. peacekeeping force. But with Western governments no longer 
being willing to back up their words of censure with meaningful action 
or sanctions of any kind, and with China's economy now playing such a 
pivotal role on the world stage, Beijing clearly considers that it has 
little really to lose by toughing things out internationally while 
maintaining tight political control at home.
    I should stress that the above remarks are not meant to suggest 
that Olympics-related pressure campaigns at this stage are pointless. 
Far from it: such campaigns are a vital means of ensuring that the 
Chinese authorities at least avoid the worst excesses of repression, in 
their zeal to present a smiling and united national face to the world 
this August. My point is simply that we should not hold any real hopes 
that the Games may somehow turn out to be a plus factor for the human 
rights or labor rights cause in China. It is conceivable that Beijing 
may produce a ``trump card'' on the eve of the Olympics--for example, 
by announcing ratification of the ICCPR, or by releasing one or more 
high-profile political prisoners--but that would serve mainly as a 
smokescreen to deflect international attention away from the continuing 
Games-related crackdown on civil liberties. Given the severity of the 
current clampdown on rights, such a gesture would be hollow and 
meaningless.
    Nonetheless, because so many ordinary Chinese feel real pride at 
Beijing's hosting of the Games, I hope they will be a success. China is 
a great nation, and its people deserve their turn at the Olympics, even 
if the government does not. Also, if hosting the Games smoothly makes 
the Chinese leadership feel more secure domestically, that's probably a 
good thing: a more relaxed and confident government in Beijing is more 
likely to take steps, eventually, toward some degree of liberalization 
than a chronically scared and brittle one. The danger, however, is that 
the tight social and political controls set in place for the upcoming 
Olympics will--once the Games are over--simply become the ``new 
normal'' in China's internal security regime. If this happens, the 
Games will have set the clock back on human rights and civil liberties.
        a socially divided nation--and an emerging civil society
    The Chinese government nowadays strives to project the twin images 
of ``the harmonious society'' and (through the Olympics) of ``one 
world, one dream.'' The reality, however, is that China today is far 
from being harmonious, and it embodies two very different worlds and 
dreams. On the one hand, there are those of the rising new elite, who 
enjoy unfettered access to all the best things in life; and on the 
other, those of the ordinary people, hundreds of millions of citizens 
who have no meaningful vote and whose main dream is somehow to make 
ends meet for the family until the next payday. In the government's 
view, however, if the desired ``social harmony'' cannot be achieved 
through consensus, then it must be enforced via repression, by 
silencing popular discontent and demands.
    What then are the main, long-term social justice--or ``human rights 
for the millions''--issues that urgently need to be addressed in China, 
if society is to be made more fundamentally stable and equitable in 
nature? Here is a brief list of four of the most pressing issues:

        <bullet>  The country's medical care system needs to be 
        completely redesigned to make it more accessible and available 
        to ordinary citizens. For at least the past decade, after the 
        hospital system was basically privatized and turned into a 
        for-profit concern, the cost of medical treatment has been 
        prohibitive for the majority of China's citizens, even in the 
        cities. Under the present system, a major illness can bankrupt 
        an entire family within a few short weeks--and in many rural 
        areas, there is no public healthcare system worth mentioning.
        <bullet>  The rural education system also needs to be 
        completely overhauled, and for similar reasons. Both the 
        quality and provision of education in the countryside is 
        massively under-funded by the government, and school fees are 
        often extremely high. The result is that poor rural families 
        increasingly cannot afford to keep their children in school for 
        the full nine-year period of compulsory education, and so child 
        labor is on the rise in many parts of the country today. In 
        addition, the under-educated migrant workforce is increasingly 
        inadequate to the developing needs of the Chinese economy, and 
        this problem will only get worse unless action is taken 
        swiftly. After more than a decade of 10 percent-plus annual GDP 
        growth, the government's failure to make a priority of 
        providing decent medical care and rural education for its 
        citizens is deplorable.
        <bullet>  The entrenched problem of official corruption, now 
        endemic at every level of the administration, needs to be 
        seriously and systematically addressed by the central 
        government. Corruption by local officials is at the root of 
        almost every major social injustice issue in the country today, 
        and it is deeply resented by the great majority of ordinary 
        citizens. The central government regularly 
        attacks dissidents, civic action groups, and petitioners or 
        whistleblowers and others as posing a ``threat to social and 
        political stability.'' In reality, the persistence of unchecked 
        corruption at all levels of official life is what poses the 
        primary threat to the country's stable and peaceful 
        development, both now and in the future. Since one-party rule 
        seems set to last for a long time, the only available 
        counterweight to official corruption remains the emergence of a 
        functioning civil society in China--something that is now 
        happening despite government controls.
        <bullet>  The basic livelihood of hundreds of millions of urban 
        and rural workers and their families needs to be guaranteed and 
        protected, in terms of access to proper employment, enforcement 
        of legal minimum pay and maximum working hours, and provision 
        of safe working conditions. The appalling situation in China's 
        coal mines, where several thousand miners continue to die 
        needlessly each year as a direct result of mine bosses' callous 
        disregard for workplace safety, and with the collusion of local 
        officials who unlawfully invest in the mines, is only the most 
        dramatic example. Similar conditions prevail throughout the 
        country's vast construction industry and elsewhere, and the 
        only effective remedy is for workers to be allowed to form 
        effective self-protection organizations. Trade unions would be 
        the most obvious form, but while legal prohibitions on such 
        groups remain, workers should at least be allowed to form 
        frontline work-safety committees, and also to engage in real 
        collective bargaining with their employers aimed at negotiating 
        minimally acceptable terms and conditions of employment.

    Again looking ahead to the post-Olympics period: if the 
international community has less and less real influence and leverage 
nowadays over Beijing on how it treats its own citizens, does this mean 
that future prospects for human rights and greater social justice in 
China are bleak? Surprisingly enough, perhaps: far from it. For we are 
finally seeing, after three decades of economic reform, the emergence 
of new 
domestic social forces in China that may well have the will and the 
potential to transform the country's governance from the inside, and 
from the bottom up. For a variety of reasons, there is considerably 
more space for civic action of all kinds in society nowadays than even 
five or ten years ago. This is not the result of government steps 
toward liberalization: rather, it's because angry citizens are now 
demanding justice in much larger numbers, and more vocally, than ever 
before. Ordinary people across the country, in both town and 
countryside, are themselves creating this new and indispensable social 
space, through a wide range of collective rights campaigns and 
activities. All this is ultimately the outcome of three decades of 
highly inequitable economic reform in China, and where issues of social 
injustice are concerned, the chickens are now coming home to roost for 
the Chinese leadership.
                   new forces for change from within
    In short, I believe that China is now entering a stage where 
progress toward greater social justice, including human and labor 
rights--or ``human rights for the millions''--will henceforth be 
determined mainly as a result of internal forces and developments, with 
the international community playing a secondary (though still vital) 
role in events. In my view, this development is warmly to be welcomed, 
and I see two such new social forces, primarily, at work in China 
today.
    First, there is now a recognizable workers' rights movement of 
considerable size taking shape in China, something that was scarcely 
conceivable only a decade ago. Tens of thousands of mass labor protests 
and other acts of worker unrest are taking place across the country 
each year, despite the continued strict legal prohibition on forming 
independent unions. These worker protests are mostly spontaneous in 
nature, and are neither coordinated nor interconnected, but they are 
having a real and tangible effect in promoting greater respect by 
employers, at local level, for the country's own labor laws. China's 
workers, and especially the 150 million or so migrant workforce (mostly 
female) from the countryside that provides the muscle for urban 
manufacturing and exports, are clearly on the move.
    Workers are no longer playing the role of passive victim to China's 
economic success story, and instead are increasingly standing up for 
themselves and their rights. And the one-party state--which preys on 
the weak and isolated (the political dissidents, civil rights lawyers, 
Falun Gong and others) but fears the strong and numerous--is in turn 
showing the workers steadily increasing attention and respect as a 
social force. It is no coincidence that the start of 2008 saw the 
introduction of three new labor laws in China: the Labour Contract Law, 
the Law on Employment Promotion, and the Law on Labour Dispute 
Mediation and Arbitration. All of these new laws have, in various 
significant ways, raised the bar on employment standards and labor 
rights. (The main continuing problem is that employers and local 
authorities conspire to ignore such laws in practice; but here again, 
workers are challenging the system to live up to its own promises by 
bringing increasing numbers of labor rights lawsuit to court--and for 
the most part they are winning.) In the human rights movement, we have 
long known that, if properly applied, international pressure works; so 
it is heartening to report that in China today, pressure from domestic 
actors and forces is likewise starting to work.
    Second, there is currently emerging in China a sizable, grassroots-
based rights movement of great significance, one that is focused on 
issues of real and pressing concern to the local community and is 
therefore winning widespread popular support. Citizens around the 
country are forming pressure groups to campaign for the redress of 
local acts of injustice or bad governance, and they are increasingly 
taking their cases to the courts in the form of lawsuits against local 
government agencies and officials. Known in China as the ``weiquan'' 
movement--usually translated in English as the ``rights defense 
movement''--it in many ways constitutes China's emerging civil rights 
movement. It shares many of the features of civil rights movements 
elsewhere--for example, the coalition of elite social groups, including 
civil rights lawyers, the news media and local legislators, alongside 
and in support of grassroots-based rights campaigners--a phenomenon 
that was also evident in the case of the Civil Rights Movement in the 
United States, despite the different issues involved.
    Crucially, much of China's fast-growing ``weiquan'' movement is 
inspired by rising levels of popular indignation over the flagrant 
levels of official corruption seen across the country nowadays. 
Increasing income polarization may be an unavoidable feature of 
economic development, but official greed and contempt for rule of law 
is now directly ruining more and more Chinese citizens' basic 
livelihood--whether via unlawful land grabs, catastrophic pollution of 
the environment, or other widespread acts of malgovernance. More and 
more officials in China are nowadays acting as if they fear the party 
may be over tomorrow: grabbing as much as they can, without apparent 
concern for the probably irreversible decline in government legitimacy 
that their actions are prompting in the eyes of ordinary citizens.
    What characterizes both these new social forces--the workers on the 
one hand, and the popular ``weiquan'' or civil rights movement on the 
other--is their shared commitment to peaceful and constitutional 
methods of social action and pressure for change. They have wisely, for 
the most part, avoided politicizing the very diverse social justice 
issues on which they campaign--even when, as is usually the case, these 
problems are the direct product of official corruption; and they have 
based their campaigns on the provisions of China's own laws. Both 
tactics are vital if these movements are to prosper and grow in the 
future, and they essentially boil down to demanding genuine rule of law 
in China. Again, these are popular, grassroots-based campaigns and 
concerns, and it is the first time in monitoring human rights in China 
for some 30 years that I have seen anything quite so positive and 
momentous occur.
                         taking the longer view
    How can the international community best lend its support to these 
promising new developments taking place at the grassroots level across 
China? Here are a few pointers and suggestions:

        <bullet>  Western governments should give a high priority to 
        pressing China, through the U.N. and the ILO, to ratify core 
        international agreements and conventions on freedom of speech 
        and association, notably the ICCPR and ILO Conventions No. 87 
        and 98. If Chinese citizens cannot freely associate to press 
        for peaceful change and reform, the country will become more 
        and more of a political powder keg on the world stage.
        <bullet>  Western governments should continue to press Beijing 
        for the release of individual prisoners of conscience. The 
        handing of such prisoner lists to senior 
        Chinese officials should be restored as a routine component of 
        all high-level diplomatic and governmental meetings with the 
        Chinese leadership. As history has repeatedly shown, one freed 
        individual can inspire millions of others.
        <bullet>  Western foundations should greatly increase the level 
        of support they give to grassroots-based civic action groups of 
        all kinds in China, whether environmental, civil rights, 
        women's rights or labor-movement-related, while continuing to 
        support a limited number of official projects via the more 
        progressive government agencies. The overwhelming majority of 
        these grassroots activist groups are both socially responsible 
        and politically self-restrained, and their common goal is to 
        develop a secure and stable rule of law in China. They are the 
        country's main hope for the future.
        <bullet>  Multinationals operating in China, where independent 
        trade unions are banned by law and labor is cheap and 
        plentiful, have a moral duty to maintain strong codes of 
        conduct and pursue effective corporate social responsibility 
        programs. However, social justice in the workplace in China 
        cannot be planned and executed from corporate boardrooms in 
        Western capitals. The experience of all other countries where 
        minimum labor standards have been won shows that there is no 
        substitute for real trade unions, and that freedom of 
        association is the indispensable key. China is no exception 
        here, and there is no convenient short cut to real labor rights 
        for hundreds of millions of people. China's workers are 
        perfectly capable of protecting themselves, given the necessary 
        rights and tools. What they need is support and encouragement 
        to do so.
        <bullet>  In addition, both multinationals and consumers in the 
        West need to recognize that, in order to really achieve better 
        and more acceptable labor standards for ordinary working people 
        in China, the cost of China's exported goods will inevitably 
        have to rise. Increased productive efficiency can only go so 
        far toward providing the funds needed to provide Chinese 
        workers with acceptable pay, reasonable working hours, 
        mandatory work-related insurance coverage and safe factory 
        conditions. The real problem is that these goods are much too 
        cheap--and under-priced Chinese goods in Western shopping malls 
        means continued labor rights violations in China.
        <bullet>  Both citizens and governments in the West should 
        recognize, moreover, that higher labor standards for Chinese 
        workers will also directly benefit the workforces in their own 
        countries. By making it possible for Chinese workers to enjoy 
        minimum acceptable standards, Western citizens and consumers 
        will find that their own jobs become more secure, the trend 
        toward casualization and part-timing of labor will reduce, and 
        working-class families in many countries will benefit as a 
        result.

    In conclusion, China's hosting of the Olympic Games may be 
momentous for reasons of national pride and as a symbol of the 
country's long-delayed emergence as a great power economically. But it 
is largely irrelevant to the real social and political issues facing 
China and its ordinary working population today. The foremost of these 
are, first, the continued sharp polarization of society in terms of 
basic livelihood and access to vital public services; and second, the 
steadily growing range of severe social injustice issues--mostly 
generated by official corruption--that affect huge numbers of citizens 
and are fuelling rising levels of popular discontent and anger.
    Unless these urgent social problems are addressed by the central 
government, by imposing an effective system of public accountability on 
officials and by allowing civil society to develop as a real 
counterweight to the one-party system, China's Olympics slogan of ``One 
World, One Dream'' will probably end up being viewed by its people as 
merely one more cynical diversion from reality, to be added to the 
scrap-heap of similar political slogans used by the Party over the past 
sixty years and more.
    Finally, Mr.Chairman, with your permission, I would like to draw 
the Commission's attention to an article drafted by my colleagues at 
China Labour Bulletin, Geoff Crothall and Han Dongfang. This article, 
which will be published in the forthcoming book, ``China's Great 
Leap,'' provides a vivid analysis of the causes and conditions of the 
harsh environment in which Chinese migrant workers generally labor, 
both at the Olympic construction sites and across the country as a 
whole.
    Thank you all for your time and attention.
                                 ______
                                 

  Prepared Statement of Hon. Sander Levin, a U.S. Representative From 
    Michigan, Chairman, Congressional-Executive Commission on China

                           february 27, 2008
    The Commission convenes this hearing to examine the likely impact 
of the 2008 Summer Olympics on human rights and the rule of law in 
China. In its Olympic bid documents and in its preparations for the 
2008 Summer Games, China made commitments pertaining to human rights 
and the rule of law. Our witnesses today will help us to evaluate these 
commitments and to assess the openness with which China has allowed the 
rest of the world to monitor its progress in fulfilling them.
    In the days before the International Olympic Committee voted to 
select Beijing as the site of the 2008 Olympics, there was 
consideration of human rights and related issues, as had been the case 
in previous deliberations about appropriate sites for the Olympics. 
China made a point of raising the link between human rights and the 
2008 Games. On July 12, 2001, the state-run China Daily reported that 
Wang Wei, Secretary General of the Beijing Olympic bid committee, said, 
``We are confident that the Games coming to China not only promotes our 
economy, but also enhances all social conditions, including education, 
health and human rights.'' These words could not have been clearer. 
Human rights and the 2008 Olympics were linked before Beijing was 
awarded the Games, and China itself linked them.
    Just yesterday, China's Foreign Minister announced that China is 
ready to resume the human rights dialogue with the United States that 
it broke off in 2004. This announcement underlines the relevance of 
this hearing, which was announced several weeks ago, and means that 
there is considerable and appropriate ground to cover today.
    On press freedom, Beijing's bid documents stated, ``(t)here will be 
no restrictions on journalists in reporting on the Olympic Games.'' At 
the same time, they also stated, ``(t)here will be no restriction 
concerning the use of media material produced in China and intended 
principally for broadcast outside.''
    On openness in general, Beijing's Action Plan for the Olympics 
states, ``in the preparation for the Games, we will be open in every 
aspect to the rest of the country and the whole world.'' On government 
transparency more specifically, Beijing's Action Plan for the Olympics 
states, ``Government work will be open to public supervision and 
information concerning major Olympic construction projects shall be 
made public regularly.''
    This last point deserves extra attention because it underscores the 
importance of China's new Regulation on the Public Disclosure of 
Government Information, which takes effect on May 1 of this year. This 
new Regulation promises people in China the legal means to obtain 
access to government records related to construction, labor affairs, 
health and safety, the environment, and much more before the Games 
begin and also after. The Commission looks forward to reporting on the 
implementation of this important new Regulation in the weeks and months 
ahead.
    Much of the world's attention also has focused on China's 
environment. Beijing's bid documents stated, ``By 2008, the 
environmental quality in Beijing will be comparable to that of major 
cities in developed countries, with clean and fresh air, a beautiful 
environment, and healthy ecology. Meteorological observations in the 
area of Beijing in the past 10 years have indicated that July and 
August are good time to hold the Olympic Games.''
    I must note that China's security preparations for the Olympics 
also raise concerns. Congress banned the transfer of crime control 
equipment to China after the Tiananmen killings of 1989. Nonetheless, 
recent press reports describe the export from the United States to 
China of equipment identified as commercial, but with crime control 
applications. This merits attention because after the Olympics, high-
technology surveillance products will be left in the hands of China's 
public security and state security organs, who may use them to monitor 
political activists, religious practitioners, and members of certain 
ethnic minority groups.
    The Commission asked Under Secretary of Commerce for Industry and 
Security Mario Mancuso to testify today, but he is in India on official 
business and unfortunately could not join us. However he has offered to 
respond to questions in writing. A list is being prepared, and I invite 
members to add to it.
    China does not want to be labeled as a gross violator of human 
rights. And yet it makes its determination to eliminate dissent 
painfully clear to the world. Thousands of prisoners of conscience 
languish in jail cells across China. Just in the last few weeks, China 
has detained individuals who have mentioned the Olympics when speaking 
out for human rights. Officials have cast their public-mindedness as a 
subversion of state power. These same authorities assert that raising 
concern over human rights in the context of the 2008 Games violates the 
Olympic spirit. Nothing could be farther from the truth. Fairness on 
the field of play, fair judgments and the opportunity to witness human 
potential unleashed to the fullest extent are the very essence of the 
Olympic spirit. They are also the essence of freedom and fundamental 
human rights.
    In seeking the 2008 Olympics, China made specific commitments. 
Seven years have passed, and the Games begin in less than six months. 
This hearing is a necessary part of determining whether China is 
fulfilling its commitments. China is an increasingly important part of 
the international community, and it is vital that there be continuing 
assessment of its commitments, whether as a member of the WTO or as the 
awarded host of the Olympics. Other nations, including ours, have both 
the responsibility and a legitimate interest in ensuring compliance 
with those commitments.
                                 ______
                                 

  Prepared Statement of Hon. Byron Dorgan, a U.S. Senator From North 
    Dakota, Co-Chairman, Congressional-Executive Commission on China

                           february 27, 2008
    Mr. Chairman, I want to commend you for holding this hearing today. 
It will 
explore what I believe has been a largely unexamined issue: whether the 
2008 Olympics will in fact bring lasting benefits to the Chinese people 
by enhancing their human rights and accelerating rule of law reform.
    The 2008 Olympics have focused the world's attention on China's 
support for repressive regimes, such as Sudan and Burma. And, this has 
been all for the good. Our government and the international community, 
however, have paid too little attention to the potential impact of the 
Games on the human rights of ordinary Chinese citizens.
    China views the 2008 Olympics as not merely an international 
athletic event, but as recognition of its global economic, diplomatic 
and military power. It is a political event of great significance. It 
will confirm China's acceptance as a proud and prominent participant on 
the international stage. Whether Beijing will seize the opportunity 
presented by the Olympics to improve its record and recast its human 
rights legacy remains a vital open question.
    Beijing lost its bid to host the 2000 Olympic Games, in part, 
because of the long shadow cast by the Chinese government's crackdown 
on the Tiananmen Square democracy movement in 1989.
    Government negotiators worked to secure a better outcome for their 
second effort to the host the games. They were successful, in part, by 
promising the International Olympic Committee that China would commit 
itself to significant reforms. These included allowing international 
reporters unfettered access across the country, and substantial 
improvements in air quality. Today, however, foreign journalists say 
they and their Chinese colleagues and interviewees are being harassed. 
And, the smog in Beijing remains as thick as ever.
    The Games are now just six months away. The human rights situation 
on the ground is deeply troubling. Already, China has begun detaining 
citizens who have tied the Olympics to their peaceful criticism of the 
government's human rights record. Recently, China jailed Hu Jia, a 
courageous dissident who did nothing more than address a hearing on the 
Olympics. The hearing was quite similar to this one, and before the 
European Parliament. China insists that Mr. Hu's actions violated its 
laws on state secrets. As a result, he was dragged from his home by 
state police agents and now sits in jail. His wife and three-month old 
daughter remain in their apartment under house arrest. Their telephone 
and Internet connections are cut.
    Just last week, Yang Chunlin, an unemployed factory worker, went on 
trial for subversion in northeast China. Mr. Yang was arrested last 
year for reportedly helping nearby villagers seeking compensation for 
lost land. He had collected more than 10,000 signatures from local 
farmers. The signatures were for a letter which read, ``We Want Human 
Rights, not the Olympics.'' Prosecutors have said that the letter 
stained China's international image, and that it amounted to 
subversion.
    What if China had done the opposite? Instead of punishing Yang for 
his activism, what if the government had instead acknowledged his 
underlying message? Had that course been chosen, China would have 
improved its international image in one fell swoop. Instead, China 
further stained it.
    Mr. Chairman, I would ask that the following list of political 
prisoners in China be entered into the hearing record. It is a short, 
representative list of individuals detained in recent years by the 
government for Olympics-related or other activities. The most important 
thing to notice about this list, Mr. Chairman, is that each of the 
people on it is in jail for having done nothing wrong. They did nothing 
wrong.
    I am not only concerned by China's detention of citizen activists. 
I am also 
concerned about the treatment of large numbers of migrant workers who 
have been employed to manufacture Olympic merchandise and construct 
Olympic sites. These migrant workers, like millions of others across 
China, are required to work under the most hazardous conditions. They 
are routinely cheated out of their wages, and rarely have work-related 
medical insurance or labor contracts.
    China has passed new and important legislation in the labor area, 
but implementation does not appear yet to be addressing the needs of 
those most in need of relief, those whom these laws were intended to 
protect. This Commission will remain focused on problems of 
implementation in the year to come.
    The rights of workers, the right to speak freely, the right to 
challenge the government--all of these are enshrined in China's 
constitution. Yet, all of these are chronically violated. In such 
circumstances, it is crucial that we who can exercise these rights and 
defenses debate the reality in China, and question whether China is 
fulfilling its commitments on the Olympics.
                                 ______
                                 

 Prepared Statement of Hon. Donald A. Manzullo, a U.S. Representative 
   From Illinois, Member, Congressional-Executive Commission on China

    Mr. Chairman, thank you for calling this important hearing on the 
impact of the Beijing Olympics on human rights, the rule of law, and 
media freedom. I am delighted to be a part of the Congressional-
Executive Commission and this first hearing. I believe that it is our 
duty as Members of Congress to do all we can to urge all nations to 
respect fundamental human rights and to protect life in all its forms. 
We must give voice to the voiceless and not shy from confronting 
oppression.
    The People's Republic of China will for the first time in its 
history host the Olympic Games, which is one of the most prestigious 
events in the world. Undoubtedly for the Chinese, the Games symbolize 
much more than athletic prowess; it is after all a golden opportunity 
for China to demonstrate to the world its emergence as a global power. 
And for the rest of the world, the Games represent an important 
occasion to urge China to continue making progress in its reforms.
    Unfortunately, some of China's actions both domestically and on the 
international arena have led me to believe that they are 
counterproductive to its stated goal of becoming a more responsible 
player in the international community. On a range of issues ranging 
from human rights abuses and Internet censorship to arms sales in 
Darfur and forced abortion, China has proved to be less than the 
responsible stakeholder it claims to be. Even on the environment, 
China's rapid development has left an unmistakable imprint of pollution 
and harm. Part of the problem for China is its immense size and 
influence; everything it does has a global impact.
    Mr. Chairman, I welcome this Commission's inquiry into China's 
human rights record and respect for the rule of law. I originally 
supported permanent normalized trade relations for China because I 
believed it would help speed reforms and liberalization. Eight years 
after the passage of PNTR, China's progress on human rights, religious 
prosecution, forced abortion, and censorship remains mixed. I am 
disappointed by this lack of progress; however, I still believe 
proactive engagement is the best path to take to encourage more 
progress.
    Thank you for holding this hearing. I look forward to the 
testimonies.
                                 ______
                                 

Prepared Statement of Hon. Christopher H. Smith, a U.S. Representative 
  From New Jersey, Member, Congressional-Executive Commission on China

                           february 27, 2008
    Thank you, Mr. Chairman, and good afternoon to everyone.
     Mr. Chairman, thank you for calling this hearing. I remember that 
you were one of the Congressmen who in 2000 led the fight to create 
this Commission, ensuring that Congress not lose its focus on human 
rights in China. The fact that the Olympics will be held in China this 
summer should be of grave concern to Congress.
    A few weeks ago, the New York Times reported the arrest of a 34-
year-old Chinese dissident named Hu Jia.
    Mr. Hu's crime? Using his home computer to disseminate information 
on human rights violations. He joins a huge, ever-growing number of 
cyber dissidents who today, in China, are being hauled off to jail 
simply for promoting democracy and human rights.
    The Times article suggests the obvious: in the run-up to the 
Beijing Olympics in August, the PRC is using its iron fists to 
eradicate dissent.
    Even Mr. Hu's wife and 2-month old daughter are now under house 
arrest, prompting the Times to note that their baby is ``probably the 
youngest political prisoner in China.''
    How sad is that?
    But in this particular case we can take direct action against this 
abuse. I am afraid that many American companies, like Google, 
Microsoft, and Yahoo!, have 
cooperated with the Chinese government in turning the Internet into a 
tool of surveillance and censorship. Last year I introduced the Global 
Online Freedom Act to prevent U.S. high-tech Internet companies from 
turning over to the Chinese police information that identifies 
individual Internet users, and to require them to disclose how the 
Chinese version of their search engines censors the Internet. In 
October, the Foreign Affairs Committee approved the bill, and we are 
hoping to move it to the floor of the House soon.
    The fact of the matter is that the scale of human rights violations 
perpetrated by the Chinese government exceeds that of any other 
government on earth.
    In China, forced abortion is pervasive as a means of enforcing the 
government's draconian one child per couple policy, a policy which has 
made brothers and sisters illegal. Government officials have coerced 
compliance with this inhuman policy through a system marked by 
pervasive propaganda, mandatory monitoring of women's reproductive 
cycles, mandatory contraception, mandatory birth permits, coercive 
fines for failure to comply, and, in many cases, forced sterilization 
and forced abortion. The Chinese government's population planning laws 
and regulations contravene international human rights standards at 
every level, not only through the horror of forced abortion, but also 
by limiting the number of children that women may bear, by coercing 
compliance with population targets through heavy fines, and by 
discriminating against ``out-of-plan'' children.
    The one-child policy has led to a social plague of gendercide, the 
annihilation of tens of millions of girls, just because they were 
girls. According to the Chinese government's official figures, the 
ratio of boys to girls born in China is 120 to 100. In some provinces 
of China it is 140 to 100, and even higher. And these are official 
figures; the real figures are probably higher.
    The Chinese government has no notion of religious freedom. It 
arrests members of the house church movement merely for gathering in 
each other's homes to read Scripture and pray. This happens all the 
time. Seven days ago, the China Aid Association reported the arrest of 
more than 40 house church members in Inner Mongolia. Eleven days ago, 
China Aid reported that 21 major house church leaders were sent to 
labor camps in Shandong.
    The Chinese government even invents human rights violations that no 
one else had thought of. Two weeks ago, ABC News' ``20/ 20'' reported 
that dissected bodies, coated in plastic, which are being displayed in 
touring shows across America, were the bodies of executed prisoners, 
sold, by the very officials who had a hand in killing them, on a black 
market for dead bodies. Here too the crime touches American soil, so I 
have requested a hearing on this matter, written to the Attorney 
General requesting an investigation, and am drafting legislation to 
require independent experts to verify the identity, manner of death, 
and consent to display, of any corpses to be commercially displayed in 
the United States.
    In China there is no freedom of speech, press, or assembly, and 
internationally recognized labor rights simply don't exist.
    Despite enormous concessions by the West, robust trade with the 
United States, Europe, Africa and Latin America, and WTO accession, the 
Chinese government's brutal crackdown on religious, labor, 
environmental, and democracy activists has continued, unabated, and 
even worsened, since the Tiananmen Square Massacre almost 20 years ago!
    Men and women of conscience--so many of China's best and bravest, 
who if freed could transform their country--are today in Laogai--the 
Chinese Gulag.
    Given the nature and scale of human rights violations by the 
Chinese government, it is a shame that the Olympics will be held in 
China. But I believe we cannot let the Olympics pass without asserting 
our solidarity with the victims--those who have been hurt, or even 
destroyed, by the myriad human rights violations perpetrated by the 
Chinese government.
    Their sufferings must not be forgotten!
    I look forward to learning from the representatives of so many 
distinguished human rights NGOs what is the best way we can speak up on 
behalf of the imprisoned in the run-up to the Olympics.
    The Olympics will certainly not be a time to remain silent. I 
remember how Wei Jingsheng, the great Chinese democracy activist who 
spent more than 14 years in prison, told me in Beijing about a paradox. 
When Americans or others boldly and tenaciously demand that the Chinese 
government release prisoners, some do get out, others get more lenient 
treatment. On the other hand, he said, when you forget us, kow-tow to 
the government, or engage in diplomatic niceties, the guards aren't 
nice to us in return, they beat us more.
    The human rights dissidents of China need friends and advocates. 
They need us to turn this window of pre-Olympic opportunity into a 
season of hope, justice, and freedom. No one has more clout than the 
representatives of the human rights NGOs present today. Together we 
need to find our voice--for them.
                                 ______
                                 

 Prepared Statement of Hon. Chuck Hagel, a U.S. Senator From Nebraska, 
          Member, Congressional-Executive Commission on China

                           february 27, 2008
    The Congressional-Executive Commission on China (CECC) meets today 
to discuss the 2008 Summer Olympic Games and its impact on human rights 
and the rule of law in China. This is the first Commission hearing 
under its new leadership, and I thank my distinguished colleagues, 
Chairman Sander Levin and Co-Chairman Byron Dorgan, for bringing us 
together here today. I look forward to working with you, as well as my 
fellow Ranking Member, Congressman Chris Smith, and each of the 
Commission members to continue the good work and prominent reputation 
that the Commission has established over the past seven years.
    I would like to thank each of the distinguished witnesses for 
coming today to discuss these important issues, and I look forward to 
hearing your testimony.
    There is no strategic relationship more important to the United 
States than China. U.S.-China relations cover the full arc of our 
national interests -- economic growth, national security, financial, 
social, and regional stability, as well as political reform, individual 
rights, the rule of law and religious freedom. From civil and 
intellectual property rights to the balance of trade, we continue to 
have clear differences with the Chinese government.
    In the recently published 2007 CECC Annual Report, the Commission 
found that China's record of compliance with international human rights 
standards has been mixed. The Commission does recognize the progress 
that China has made in bringing its legal statutes and regulations 
nominally in line with international standards. These reforms may one 
day provide the legal backdrop for constraining the arbitrary exercise 
of government authority in China.
    China should also be commended for its achievements in the economic 
realm. Its success in lifting more than 400 million Chinese citizens 
out of extreme poverty since the early 1980's should not be overlooked. 
However, China's progress on civil and political rights has 
unfortunately not kept pace with its economic progress. Significant 
human rights abuses and problems with the application of the rule of 
law in China need to be addressed.
    In the 2007 CECC Annual Report, the Commission found that despite 
legal and regulatory reform, the changes ``have not necessarily 
translated into the everyday practice of local law enforcement.'' Major 
concerns remain over religious freedom, property rights, corruption, 
and the right of political dissent. China will not be a full and 
responsible member of the global community, nor will it reach its own 
potential, until political reforms move forward as economic development 
has done.
    The 2008 Summer Olympics present China and the international 
community with a significant opportunity for progress and dialogue--
especially with regard to human rights and the rule of law in China. 
Beijing has made a number of important commitments to domestic 
political and legal reforms in the lead-up to the Olympics--among them, 
promises to advance religious, economic, civil, and social freedoms 
inside China. As a responsible member of the international community, 
China should meet those important commitments.
    The international community should also take advantage of this 
opportunity to enter into expanded dialogue with China on areas of both 
disagreement and of mutual concern. The Olympics present a chance to 
take another step toward engagement and common purpose, but we need to 
remember that it is but one step on this path.
    Lasting and stable progress on liberalization and domestic reform 
takes time. Change does not happen overnight, and our disagreements 
with China will not be resolved by the time the Olympics leave Beijing. 
At some point, late this summer, the Olympics will be over, but our 
differences over human rights, the rule of law, trade issues, and 
others will likely still remain.
    The global community should use this opportunity to help frame a 
constructive, long-term, strategic relationship with China where our 
differences can be aired and areas of mutual concern can be found. In 
the coming months, we must be realistic, balanced, measured, focused 
and clear headed in our approach to China.
    The Commission looks forward to hearing the testimony from this 
distinguished panel of witnesses. Thank you all for coming. We 
appreciate your time and presentations.
                                 ______
                                 

Prepared Statement of Hon. Gordon H. Smith, a U.S. Senator From Oregon, 
          Member, Congressional-Executive Commission on China

                           february 27, 2008
    I wish to thank Chairman Levin for holding this important hearing. 
I also wish to thank our distinguished guests who will testify before 
the Commission today. I appreciate their willingness to join the 
Commission today and answer questions as they may arise.
    2008 is a crucial year for China as it hosts the Summer Olympics. 
The moment has finally come for Beijing to demonstrate to the world 
that it is a respectful and responsible member of the global community. 
China is quickly finding itself a dominant regional power with 
considerable influence around the world. But to become a world leader, 
Beijing must demonstrate its ability to lead in a responsible manner.
    2008 is China's year of opportunity to prove that it can handle the 
benefits and responsibilities newly bestowed upon it. Benefits include 
a booming economy and reformed financial and industrial sectors. 
Responsibilities include the necessity of respecting human rights, 
adhering strongly to the rule of law, and abiding by the norms of the 
international community. It is vital that Beijing end its political and 
economic support of rogue regimes around the world, from North Korea to 
Burma to Sudan. Unfortunately, China's behavior is troubling; 
opposition to strong UN action on Iran or Darfur, the mass relocation 
of people, suppression of dissidents, and the censorship of Chinese 
journalists are just a few of several recent troubling events.
    Beijing must also take greater measures to respect the minority 
religions in the country. Religious persecution must end before China 
will ever be recognized as an honorable world power. The Chinese people 
should feel comfortable practicing their own religion in a fashion of 
their own choosing. I urge the Chinese government to allow all 
religious sects to worship freely and without fear of persecution.
    The 2008 Summer Olympics will be an excellent opportunity for 
Beijing to demonstrate that China can be a responsible power with an 
open society, not only for the countless visitors, but for the Chinese 
people. I look forward to hearing our expert's projection on how the 
Olympics will impact China's society. While I would like to remain 
optimistic, I am not convinced the Games will have the positive impact 
many are hoping for.

                       Submissions for the Record

                              ----------                              


  Prepared Statement and Responses to Commission's Questions by Mario 
Mancuso, Under Secretary for Industry and Security, U.S. Department of 
                                Commerce

                              may 1, 2008

               I. Background on U.S. Crime Control Policy

    U.S. crime control policy fits within the broader U.S. foreign 
policy objectives of promoting human rights abroad. The Bureau of 
Industry and Security (BIS) at the U.S. Department of Commerce is 
entrusted with the responsibility of licensing the export of crime 
control and detection items to most countries around the world, 
pursuant to the Export Administration Act (EAA) of 1979 as amended.
    Pursuant to Section 6(n) of the EAA, the U.S. Government requires a 
license for the export of crime control and detection instruments, 
equipment, related technology, and software on the Commerce Control 
List (CCL) to all destinations, except Australia, Japan, New Zealand, 
and members of the North Atlantic Treaty Organization (NATO). Certain 
restraint-type devices, such as handcuffs, and discharge-type items, 
such as tasers, however, require a license to all countries except 
Canada. The list of items controlled for crime control reasons, and 
countries subject to these controls, is compiled with the concurrence 
of the Department of State.
    In addition to these licensing requirements, it is important to 
note the policy BIS applies to all applications for licenses to export 
items controlled for crime control reasons. BIS implements a policy of 
denial for any license application to export specially designed 
implements of torture, thumbscrews, and thumbcuffs. Furthermore, BIS 
applies a general policy of denial for license applications to export 
crime control items to countries in which the government engages in the 
consistent pattern of gross violations of internationally recognized 
human rights. For other countries, BIS considers license applications 
for crime control items favorably, unless there is civil disorder in 
the country or region, or there is evidence that the government may 
have violated internationally recognized human rights. In making all of 
the above determinations, BIS determines whether the judicious use of 
export controls would be helpful in deterring the development of a 
consistent pattern of such violations, distancing the U.S. Government 
from such abuses, and avoiding the contribution to civil disorder in a 
country or region. BIS crime control policy can be found in the Export 
Administration Regulations (EAR) in 15 C.F.R.Sec. Sec. 742.7 and 
742.11.

                    II. Crime Control Policy: China

    As the U.S. Government has certain positive exceptions to its crime 
control licensing policy for some of its closest allies, there are also 
certain countries, such as China, Indonesia, Rwanda, and the Ivory 
Coast, for which U.S. policy is more stringent. With respect to China, 
Congress passed the Foreign Relations Authorization Act for Fiscal 
Years 1990-1991, Title IX of which is often referred to as the 
``Tiananmen Sanctions''. Pursuant to the Tiananmen Sanctions, the 
issuance of licenses for the export of any crime control or detection 
instruments or equipment controlled on the CCL for crime control 
reasons has been suspended to China. Only the President may terminate 
this suspension by reporting to Congress that China has conducted 
political reforms or that it is in the national interest to terminate 
such a suspension. The President has not exercised this authority to 
date.
    Detailed below are specific responses to the Congressional-
Executive Commission on China's inquiries that seek to explain the 
place of China in BIS's overall crime control policy.

                      III. Responses to Questions

    Question 1: The current list of crime control items that are 
indefinitely suspended from export to China includes items such as 
handcuffs and fingerprinting equipment. Please briefly describe how the 
Bureau of Industry and Security (BIS) ensure[s] this list is current 
and takes into account changing technologies relating to crime control 
equipment, which have occurred since the ``Tiananmen Square'' crime 
control restrictions went into effect 18 years ago. How many reviews of 
this list have you conducted over the last 18 years, what prompted 
those reviews, and what were the results of such reviews (i.e. in terms 
of whether items were added or removed from the list)?
    Response: BIS conducts an annual review of EAR crime controls, and 
all foreign policy-based export controls, in the context of the Foreign 
Policy Report to Congress. Under the provision of Section 6 of the EAA 
as amended, export controls maintained for foreign policy purposes 
require annual extension. Each year BIS publishes a notice in the 
Federal Register requesting public comments on the effects of foreign 
policy-based export controls. The notice states that BIS is reviewing 
those controls to determine whether they should be modified, rescinded, 
or extended. To help make these determinations, BIS seeks public 
comments on how existing foreign policy-based export controls have 
affected exporters and the general public. Over the years, BIS has 
received few comments on the controls on crime control items. The last 
such comment was received in October 2004 and was a statement of 
support for our high level of crime controls and an exhortation to win 
more multilateral support for human rights controls.
    In addition, as part of a larger review of the entire Commerce 
Control List (CCL), BIS has proactively initiated a comprehensive 
review of our crime control regulations. The Department has published a 
Notice of Inquiry in the Federal Register (73 FR 14769 of March 19, 
2008) specifically seeking public comments by June 17, 2008 on the 
crime control export and reexport license requirements contained in the 
EAR. In particular, BIS is seeking public input on whether the scope of 
items currently subject to crime control license requirements should be 
revised to add or remove items. The Notice specifically seeks comment 
on whether items such as biometric devices, integrated security 
systems, and training software, specifically firearms training 
software, should be subject to crime control licensing requirements. 
BIS is also seeking public comments on whether the destinations to 
which crime control license requirements apply should be revised.
    Potential changes to crime controls would not be limited to China. 
Control of the export of items for crime control reasons predates, and 
is not limited to, China, but applies to a wide range of countries, 
such as North Korea and Burma. The Tiananmen Sanctions require Commerce 
to prohibit, absent Presidential waiver, export of any items classified 
as crime control items to China. In other words, the Tiananmen 
Sanctions were based on the already existing crime control regulations 
that required licenses for the export of crime control items to many 
countries, including China, by prohibiting such items from being 
exported.
    Some of the past changes to the CCL include: (i) removing 
thumbcuffs from Export Control Classification Number (ECCN) 0A982 and 
placing them into ECCN 0A983 (2007); (ii) adding pepper spray to ECCN 
1A984 as a result of a commodity jurisdiction decision by the 
Department of State 2004; (iii) expanding controls on restraint devices 
and on discharge type arms controlled under ECCNs 0A982 and 0A985, and 
creating ECCN 0A978 for Saps and ECCN 0A979 for shields and helmets 
(2000); and (iv) interpreting Tasers to be controlled as a discharge 
type arm under ECCN 0A985 (1994).
    Question 2: Export administration regulations provide that the 
``judicious use of export controls is intended to deter the development 
of a consistent pattern of human rights abuses, distance the United 
States from such abuses and avoid contributing to civil disorder in a 
country or region.'' Please briefly explain how BIS monitors 
developments in China to ensure that U.S. companies are not 
contributing to ``the development of a consistent pattern of human 
rights abuses'' through the export of their products. Does BIS attempt 
to conduct its own fact-finding to determine whether the sale of a 
certain product to China has or will likely have an adverse impact on 
human rights in China? If so, please describe briefly how BIS conducts 
this fact-finding. If not, on whose fact-finding does BIS depend? If 
externally sourced findings were deficient, would BIS have any way to 
know?
    Response: Under authority delegated by the President, the Secretary 
of State designates nations guilty of particularly severe violations of 
religious freedom as countries of particular concern under the 
International Religious Freedom Act of 1998 (H.R. 2431) and its 
amendment of 1999 (Public Law 106-55). In addition, in compliance with 
Sections 116(d) and 502B(b) of the Foreign Assistance Act of 1961 as 
amended, and Section 504 of the Trade Act of 1974, the Department of 
State submits Country Reports on Human Rights Practices annually to the 
Congress. The designations and findings of the Department of State with 
respect to human rights concerns provide the foreign policy guidance to 
BIS with respect to China. In addition, under the EAA, the Department 
of State has joint jurisdiction and responsibility for the CCL and the 
licenses that BIS issues for items controlled for crime control reasons 
on the CCL. The Department of State's participation in the review of 
all applications for individual licenses from BIS, including those for 
crime control reasons, provides the foreign policy guidance to BIS with 
respect to whether the sale of a certain product to China has or will 
likely have an adverse impact on human rights in China. As part of the 
review process, the Department of State considers the human rights 
record for the export destination.
    Question 3: Please briefly describe what factors other than impact 
on human rights BIS considers when determining whether a specific crime 
control item should be restricted from export to China. Specifically, 
how much weight is given to those other factors relative to the weight 
given to human rights concerns, and how is that weight assigned?
    Response: Pursuant to the Tiananmen Sanctions, the Department of 
Commerce implements a policy of denial of export license applications 
for items that are controlled on the CCL for crime control reasons. 
There is only one very limited circumstance in which specific crime 
control items may be temporarily exported to China. BIS does authorize 
the temporary export of defective Chinese-origin commercial rifle 
scopes from the United States to China for repair and return to the 
United States. Such warranty items are not operational at the time of 
their return for repair to China. As these items were manufactured in 
China, their return for repair and export back to the U.S. customer has 
no impact on the human rights situation in China.
    Question 4: It appears that some items, such as surveillance 
equipment and routers, have not been included on the list because they 
are not designed solely to serve a ``law enforcement purpose'' and may 
be used for legitimate civilian purposes. Please explain the rationale 
for why such items are not currently on the list. Some products may be 
used primarily for ``law enforcement purposes,'' even though their 
original design may not be solely for that purpose. How does BIS 
account for this? How much weight is given to evidence, if any, that 
either the seller knows such item will be used for ``law enforcement 
purposes'' or has marketed it for such purpose?
    Response: Items primarily associated with human rights abuses, such 
as instruments of torture, are controlled for crime control reasons. In 
addition, items designed exclusively or primarily for law enforcement 
purposes are generally also controlled for crime control reasons 
because they could be used to abuse internationally recognized human 
rights. The intent of crime control regulations is to support U.S. 
foreign policy to promote the observance of human rights throughout the 
world. These controls are generally not limited, or specifically 
geared, to law enforcement or police activities. Not all items used by 
law enforcement are susceptible to human rights abuses. Conversely, in 
practice, license applications for many crime control items, such as 
scopes and shotguns, are not destined for police or government agencies 
but instead for sporting use. Items that are not currently controlled 
for crime control reasons are not on the list because, so far as BIS is 
aware, they do not meet the aforementioned criteria.
    Routers and surveillance equipment have significant use in 
commercial environments. This is especially so for routers. With 
respect to surveillance systems, these can be as simple as the cameras 
and monitors used in banks, stores, and sporting arenas, or they can be 
larger integrated systems such as those used at ports or factory sites. 
Moreover, a review of the Internet shows that a number of countries, 
including China, manufactures and openly markets many of these systems 
and their components. However, technologies and markets for items 
change and in BIS's March 19 Federal Register Notice of Inquiry, one of 
the items about which we specifically request comments is integrated 
security systems.
    BIS has initiated the current comprehensive evaluation of the crime 
control regulations to examine what new technologies are currently 
available in the marketplace, and what additions or deletions might be 
proposed in order to enhance the current controls.
    Question 5: High-tech companies around the world are helping the 
Chinese government design and install one of the most comprehensive 
public surveillance systems ever for the 2008 Olympic Summer Games in 
Beijing. The Commerce Department reportedly has said that American 
companies' involvement in such projects does not run afoul of the post 
Tiananmen ban on providing China with ``crime control or detection 
instruments or equipment.'' At the same time, the Commerce Department 
has recently conducted a review of its policies on the sale of crime-
control gear to China. Please explain briefly what triggered the 
review. If helping the Chinese government design and install these 
public surveillance systems does not cause an American company to run 
afoul of the ban, then there must have been something else that 
triggered the review.
    Response: The current crime control Notice of Inquiry was not a 
result of an increase in interest in the Chinese market or any actions 
of the Chinese government, but instead a determination that a much more 
detailed review of all aspects of crime control items, including the 
destinations to which the controls apply, license exceptions, and new 
technologies, was due. BIS is also undertaking a larger review of the 
CCL to ensure our controls are keeping pace with technological 
innovation and changing international economic conditions. Review of 
crime controls is included in this effort as well.
    BIS has seen an increase in interest in the Chinese security-
related market, with some of it certainly connected to the Olympics. 
However, China is a large, multifaceted market and items of interest 
include explosive detection systems for airports, X-ray systems for 
packages and bags for people entering buildings or arenas, biometric-
controlled entrance and lock systems, fire protection, rescue 
equipment, and radiation detection systems. Many of these items are not 
subject to export controls but are related to public safety. Those that 
are subject to export controls and controlled for reasons other than 
crime control can be approved for legitimate end-uses in China. For 
example, Commerce, with interagency review, has approved export 
licenses for explosive detection systems to Beijing International 
Airport and other airports in China.
    Question 6: If BIS' review was prompted by a prospective 
determination of increased ``human rights risk'' and increased 
likelihood of companies' running afoul of the ban due to changes in the 
environment in which firms operate (rather than change in company 
behavior or activities), please identify the human rights risk 
assessment method, index or indicators the department relies upon. 
Please also explain the method the department uses to relate levels of 
risk to corresponding courses of action with respect to export 
controls.
    Response: As noted in response to question #4, BIS has initiated 
the current comprehensive evaluation of the crime control regulations 
to examine what new technologies are currently available in the 
marketplace, and what additions or deletions might be proposed in order 
to enhance the current controls. The goal of the review is to ensure 
that the Commerce crime control regulations are up to date and that 
Commerce is knowledgeable about the most current technologies that may 
have a crime control application.
    Question 7: The surveillance equipment sold by Western companies 
that will remain in China after the Olympics will leave Chinese 
authorities with tools that are newer and better than ever before to 
track dissidents, and not just criminals. Please describe, in your 
judgment, how significant a role export controls can play in mitigating 
that risk.
    Response: To the extent that items are controlled on the CCL for 
crime control reasons, they are subject to a licensing policy of denial 
if destined to China. If the on-going review of Commerce crime controls 
leads to the identification of certain surveillance-related equipment, 
processing equipment, software, or system upgrades that need to be 
controlled for crime control reasons, then potential upgrades or 
software, even for previously exported systems, would require licensing 
and would be subject to denial policy under the Tiananmen Sanctions. 
Such controls would only impact U.S. and foreign companies exporting or 
reexporting crime control items subject to the EAR.
    For items that are controlled on the CCL for national security or 
other reasons, reviewing agencies evaluate the end-user and make a 
determination in the course of adjudicating the license application. 
For example, if an item requires a license for reasons other than crime 
control, such as a thermal imaging camera that is controlled for 
national security reasons, and the end-use is one that poses human 
rights concerns, that would be a factor to be considered along with 
national security and non-proliferation concerns when reviewing the 
license application. Some controlled items, such as X-ray screeners and 
bomb detection equipment for airports, have legitimate security and 
public safety uses, that do not raise human rights concerns, that the 
U.S. Government, in particular the Federal Aviation Administration, 
promotes.
    Question 8: The autumn issue of the magazine of China's public 
security ministry listed places of religious worship and Internet cafes 
as locations to install new surveillance cameras. When BIS learns of 
information such as this, what standard procedures are triggered? What 
alternatives have been identified for responding to it?
    Response: When such information comes to the attention of the 
Executive Branch, the Department of State factors it into their overall 
human rights policy and evaluation of export license applications. 
Based on BIS's technical review to date, it appears much of this 
equipment is made in China, and the components of surveillance systems 
are widely available. The current BIS crime control review, however, 
does single out complete surveillance systems as a new technology 
possibly warranting control for crime control reasons. The crime 
control Notice of Inquiry specifically addresses such systems. Please 
see also the answer to question #2.
    Question 9: On December 28, 2007, the International Herald Tribune 
quoted a ``Commerce Department official who insisted on anonymity'' as 
saying that ``the sale of crime control gear to China is on a special, 
fast-track review.'' Please comment.
    Response: The statement in the article is not accurate with regard 
to our crime control policy for China. As discussed in the response to 
question #3, BIS denies export license applications for items that are 
controlled on the CCL for crime control reasons. Under this licensing 
policy of denial, no other factors are considered. BIS is seeking 
comments on a review of the crime control list.
    Question 10: The International Herald Tribune Reported on December 
28, 2007 that BIS ``bars exports whose sole use is law enforcement, 
like equipment for detecting fingerprints at crime scenes. But video 
systems are allowed if they are ``industrial or civilian intrusion 
alarm, traffic or industrial movement control or counting systems,' 
according to the regulations.'' Do all systems so allowed comply fully 
with the spirit of the post Tiananmen export control laws?
    Response: Yes. As discussed in the response to question #3, BIS 
denies export license applications for items that are controlled on the 
CCL for crime control reasons. Moreover, BIS has denied licenses for 
items controlled for other reasons to public security apparatus in 
China.
    The article misinterprets the exception in the EAR ``for industrial 
or civilian intrusion alarm, traffic or industrial movement and control 
or counting systems.'' This exception applies only to certain imaging 
cameras that contain certain controlled ``focal plane arrays,'' which 
exempts the cameras from control under ECCN 6A003. This exception is 
not in any way tied to the Tiananmen Sanctions but instead is a note 
agreed upon by members of the Wassenaar Arrangement. As video systems 
are currently not controlled for crime control reasons, they are not 
subject to the Tiananmen Sanctions, which did not require imposing a 
licensing requirement on all commodities destined for the police. China 
makes many video systems and related components. As noted in earlier 
responses, our Notice of Inquiry seeks comments on whether the current 
list of items is adequate given changing technologies.
    Question 11: China last winter created a nationwide ``safe cities'' 
program, establishing surveillance camera networks in more than 600 
cities across China. Does this program figure into BIS' review and 
possible revision of export controls? If so, how?
    Response: The BIS crime control review is not specifically directed 
toward China. As discussed in response to question #2, the designations 
and findings of the Department of State with respect to human rights 
concerns provide the foreign policy guidance to BIS with respect to 
China. In addition, the Department of State has joint jurisdiction and 
responsibility for the CCL and the licenses that BIS issues for items 
controlled for crime control reasons on the CCL.
    Specifically regarding urban video surveillance systems, such 
systems are not unique to China or even to law enforcement activities. 
The public comments on the Notice of Inquiry on crime control items 
will help inform the United States Government's view on controls on 
such systems.
    Question 12: Media outlets have reported that China lacks enough 
security guards to watch the video feeds from so many cameras. As a 
result, security industry executives report that Chinese authorities 
have been shopping for foreign computer systems that automatically 
analyze the information. How has BIS responded or intend to respond to 
this development?
    Response: The current BIS crime control review does single out 
complete surveillance systems as a new technology possibly warranting 
control for crime control reasons. The Notice of Inquiry specifically 
addresses such systems and public comments will help inform the United 
States Government's view.
    Question 13: Part of the sales pitches from American security 
companies is that their systems can protect the local police against 
false allegations of police abuse. Does this figure into BIS' review of 
export controls? If so, how? If not, why not?
    Response: The current BIS crime control review does single out 
complete surveillance systems as a new technology possibly warranting 
control for crime control reasons. The Notice of Inquiry specifically 
addresses such systems and public comments will help inform the United 
States Government's view.
    Question 14: On August 8, 2007, the Department of Commerce co-
sponsored a webinar entitled ``Understanding and Accessing the Security 
Market in China'' (http://www.buyusa.gov/eme/chinawebinar.html) 
described as ``providing U.S. electronic and physical security 
manufacturers valuable insight into this dynamic market, including 
entry-strategies and long-term market penetration plans'' (http://
www.siaonline.org/research/index.cfm# Webinar). Please describe the 
consultation with BIS that went into this program, and the extent to 
which BIS' input was reflected in the hour-long final product, 
available on line (http://www.siaonline.orp/international/china 
security webinar.wmv). Do programs such as this act at cross-purposes 
with BIS' current review and mandate?
    Response: As part of the Commerce webinar, International Trade 
Administration presentations included: ``Market Entry Strategies'' and 
``Intellectual Property Rights in China,'' which appear to be aimed at 
the public safety-related market writ large and not any particular 
technology or sector such as the video market. In addition, BIS's 
export control attache in Beijing gave a presentation on the 
``Tiananmen Sanctions and the Export of Crime Control Items to China.'' 
As the overall public security and safety market is a varied one, these 
presentations provided both the market opportunities and export control 
requirements associated with exporting certain technologies to China, 
which is consistent with the mandate of BIS.
                                 ______
                                 

                Cases of Political Imprisonment in China

     list of political prisoners submitted by senator byron dorgan
    1. Hu Jia: A prominent activist who has advocated on behalf of HIV/
AIDS patients, environmental issues, and other rights defenders, Hu was 
detained by Chinese authorities on December 27, 2007, on suspicion of 
``inciting subversion of state power.'' Hu's detention may be linked to 
comments he made at a European Parliament hearing that were critical of 
China's hosting of the Olympics.
    2. Yang Chunlin: As a land rights activist, Yang reportedly 
collected more than 10,000 signatures from farmers for a letter titled 
``We Want Human Rights, Not the Olympics,'' protesting the farmers' 
loss of land. Yang was detained in July 2007, and stood trial on 
charges of ``inciting subversion of state power,'' on February 19.
    3. Wu Lihong: An environmental activist from Jiangsu province, Wu 
spent more than a decade documenting pollution in Lake Tai, including 
providing environmental information to the government and the media. 
Shortly after Wu was detained in April 2007, Lake Tai experienced one 
of the worst blue-algae blooms, with millions of area residents without 
water for a few days. Wu was sentenced in August 2007 to three years in 
prison on the pretext of extortion and fraud.
    4. Guo Feixiong: Guo is a prominent lawyer who was active in 
helping ordinary Chinese citizens defend their rights. In November 
2007, Guo was sentenced to five years in prison for ``illegal operation 
of a business,'' for allegedly distributing a publication without the 
necessary government license. The publication, which concerned a 
political scandal, reportedly angered local officials.
    5. Ronggyal Adrag: A Tibetan nomad, Adrag was detained in August 
2007 after he walked onto the speakers' stage at a horse-racing 
festival and called for the Dalai Lama's return to Tibet, the release 
of the Panchen Lama identified by the Dalai Lama, and Tibetan 
independence. In October, a court sentenced him to eight years in 
prison on the charge of ``inciting splittism.''
    6. Adrug Lupoe: A nephew of Ronggyal Adrag, Adrug Lupoe is a monk 
who was sentenced by the same court to 10 years' imprisonment on 
charges of splittism and espionage. He allegedly helped two other men 
attempt to send digital photos out of China of the local security 
crackdown.
    7. Nurmemet Yasin: He is an ethnic Uighur writer from Xinjiang who 
wrote a short story in 2004 about a caged bird who chooses suicide over 
living without freedom. Chinese authorities viewed the story as an 
attack on government policy in Xinjiang, and sentenced him in 2005 to 
10 years in prison for ``inciting splittism.''
                                 ______
                                 

Attachment: An Appeal From the Tiananmen Mothers to the Government: Set 
          a Timetable for Dialogue on the June Fourth Massacre

                       [submitted by sharon hom]
    On the eve of the Eleventh National People's Congress and the 
Chinese People's Political Consultative Conference, we, a group of 
mothers of those killed in the June Fourth Massacre and, therefore, 
victims ourselves, earnestly request the following of you, the newly 
elected representatives of the NPC and the CPPCC:
    On behalf of those who lost their lives during the June Fourth 
Massacre, we seek justice and equity to soothe the wounds of history. 
We wholeheartedly implore each of you: do not disregard the great trust 
that has been placed in you, do not insult your mission as 
representatives. Instead, we urge you, the two Congresses, to carry out 
a direct, equal, and sincere dialogue on the issue of the June Fourth 
Massacre with the victims and victims' families.
    This is the eleventh time we have made an appeal to the NPC and 
CPPCC sessions. You who serve as the people's representatives and hold 
sacred legislative power: if you have any trace of conscience left, if 
your hearts retain even the smallest amount of sympathy, then how can 
you be so callous and indifferent?
    In the past years, to facilitate this dialogue, we repeatedly 
requested the impartial and rational resolution of the following three 
points:

          1. That the Standing Committee of the NPC form a specialized 
        investigation committee on the June Fourth Massacre. Such 
        committee should conduct an independent, open, and impartial 
        investigation into the June Fourth Massacre and openly publish 
        the results of the investigation, including the names and 
        numbers of those killed in the June Fourth Massacre.
          2. That the Standing Committee of the NPC require the bureau 
        in charge of the June Fourth Massacre to issue a public apology 
        to the family of each casualty of the Massacre in accordance 
        with the law. The Standing Committee of the NPC should draft 
        and pass a specialized ``Law on the Compensation of Victims of 
        the June Fourth Massacre'' and give the victims and relatives 
        of the June Fourth Massacre their lawful compensation.
          3. The Standing Committee of the NPC should designate a 
        prosecutorial organ to file and investigate cases from the June 
        Fourth Massacre, and punish those found responsible in 
        accordance with the law.

    At the same time, we have repeatedly stated: ``Issues remaining 
after June Fourth must be resolved through the legal system, in 
accordance with the law, without interference by any party, faction or 
individual. They must not be resolved according to the pattern of 
previous political campaigns, after which the government has always 
issued its own account of a `re-evaluation and exoneration.' In light 
of this, we call upon the National People's Congress to make use of the 
legislative process to discuss, review and issue a resolution on June 
Fourth issues.''
    However, we are disappointed that our requests, year after year, 
have come to nothing. Now that the 19th anniversary of June Fourth is 
approaching, and the splendid Olympic Games will be held in Beijing, 
China's capital, people will say: ``This is a government that has sent 
tanks and armored vehicles into its capital to kill countless innocent 
students and civilians; a government that for more than 18 long years 
has not dared to confront the aftermath of the tragedy and has 
repeatedly refused dialogue with the victims' family members. How can 
this government face the whole world? Is it really possible that, as 
the host of the 2008 Olympic Games, the government can be at ease 
allowing athletes from all over the world to tread on this piece of 
blood-stained soil and participate in the Olympics? ''
    ``China is making `progress.' He is like a newly awakened giant, 
rushing forward in huge strides. The floor shakes because of his 
footsteps. Yet, how many people know that this giant is rushing forward 
with an extremely deep wound? '' This was written by female Taiwanese 
writer Long Yingtai. Yes, over the past 18 years, China has witnessed 
dramatic changes in its economic, political and social arenas. The West 
has long since given up their sanctions against and isolation of China 
following June Fourth, and has resumed cooperation in the areas of the 
economy and trade, technology, culture and even the military. At 
present, Chinese leaders are making use of high-profile slogans such as 
``harmonious society'' and ``peaceful rise.'' Nevertheless, who can 
deny the fact that the disastrous aftermath of that brutal massacre, 
one of the greatest tragedies of our times, even after 18 years, is 
still unresolved. The wounds deep in the heart of the people are not 
yet healed. Because of this, the current political and societal 
landscape continues to deteriorate into disorder and imbalance. This 
proves that June Fourth, this bloody page in history, has yet to be 
turned, and remains a ``knot'' deep inside the people's heart.
    Over these past 18 endless years, we, the victims of the crackdown, 
along with many persons of upstanding moral conscience, have made an 
effort using many different methods to return historical justice to 
``June Fourth.'' We have gradually come to understand from our blood, 
tears, and pain, that ``June Fourth'' is not only the misfortune of 
individual households, but also that of the whole nation. This 
misfortune originates from suspicion and hostility between individuals, 
from the Chinese people's indifference toward human life and values, 
and from a lack of civility and legal order in this land. However, the 
way to rectify this misfortune is not to counter violence with 
violence, nor is it for us to murder those of our own social class, as 
has often happened in Chinese history. One cannot rely on the present 
rulers' repeated slogans like the ``three represents'' or ``people-
friendly strategies.'' We can only rectify this misfortune by 
peacefully ending traditional authoritarian politics on Chinese soil 
and upholding the authority of modern democracy and constitutionalism.
    Let each citizen cast away the submissive nature and historical 
inertia that have been passed down from the imperial era. Let each 
establish an understanding of the importance of universal human values. 
Based on this common understanding, we have abandoned the intolerant 
idea of ``an eye for an eye'' and the extreme position of countering 
evil with evil; we have decided instead to use the greatest sincerity 
and restraint as we seek to peacefully resolve the ``June Fourth'' 
heartache. For us, the victims' families, it is difficult and painful 
to make this rational decision. However, in order to avoid the 
escalation of conflict and the upheaval of society, we have done so.
    We firmly believe history will prove that dialogue is the necessary 
route for justice and the reasonable settlement of the ``June Fourth'' 
problem; there are no alternatives. Nevertheless, history only offers 
limited opportunities for resolution, and to reject this present 
opportunity would be to continue this crime against the nation. Now is 
the time: those leaders who are truly open-minded and have the courage 
to fulfill their duties should wake up and make some kind of decision.
    The world has entered the age of dialogue, yet mainland China 
remains behind, stagnant, in the age of resistance. This embarrassing 
and intolerable situation, which no one is willing to face, must end as 
soon as possible. We note that the Chinese government advocates the use 
of dialogue to solve differences and disputes in international affairs; 
we also note that the central government has already set a timetable 
for the direct election of Hong Kong's Chief Executive. We therefore 
have even stronger ground for our request that the government solve 
domestic differences and disputes through a similar method. If China, 
with its historical tradition of despotic rule, can strive to replace 
hostility with dialogue, it would benefit the entire nation and be a 
blessing to all people.
    As this country enters into more dialogue, it will manifest more 
civility and legal order and less ignorance and despotism. We do not 
blindly believe in the idea of dialogue. It is difficult and tedious. 
But compared with resistance, dialogue is obviously the higher road. 
Dialogue should not lead society into opposition and hatred, but 
rather, into tolerance and reconciliation. In its past history and 
present reality, our country China has been enormously deficient in 
this kind of tolerance and reconciliation. Over the past millennium, 
including these last 100 years, our ancestors have suffered the side-
effects of malignant interaction between the government and the people! 
Today, those with any amount of vision in China should step up their 
efforts and bravely make new strides forward to end the history of 
misfortune in our nation.
    We are now living in a time of change from despotism to 
constitutional democracy. This is an unavoidable trend that is in 
accordance with popular sentiment. In this process of political change, 
the ``June Fourth'' incident has stood like a barrier that cannot be 
passed. The proper settlement of the ``June Fourth'' question would 
represent not only a conclusion, but also a new beginning. We hope 
wholeheartedly that all the representatives will, through your 
pragmatic endeavors, establish and strengthen the power of the 
lawmaking body so that settlement of the ``June Fourth'' issues can 
soon be added to the agenda. We sincerely hope for each of you that 
during this session of the NPC and the CPPCC, you do not go against 
your consciences or let your people down.
    Finally, we also sincerely urge China's governing authorities to 
consider the situation as a whole. Grasp this golden, historic 
opportunity to respond positively to our aforementioned requests, and 
propose a timetable for dialogue on the ``June Fourth'' issues as soon 
as possible.

           HRIC Olympics Take Action Campaign Individual Cases
                        [Submitted by Sharon Hom]
------------------------------------------------------------------------
                                                     Detention+Sentence
              Case                    Category              Date
------------------------------------------------------------------------
Shi Tao........................  Journalist.......  11/24/04 Detained
                                                    4/27/05 Sentenced to
                                                     10 years
------------------------------------------------------------------------
Chen Guangcheng................  Barefoot Lawyer..  3/06 Detained
                                                    8/24/06 Sentenced to
                                                     4 years and 3
                                                     months
------------------------------------------------------------------------
Mao Hengfeng...................  Petitioner/        6/30/06 Detained
                                  Women's Rights.   1/12/06 Sentenced to
                                                     2\1/2\ years
------------------------------------------------------------------------
Hada...........................  Mongolian          3/09/96 Detained
                                  Journalist.       11/11/96 Sentenced
                                                     to 15 years + 4
                                                     years deprivation
                                                     of political rights
------------------------------------------------------------------------
Yao Fuxin......................  Labor Activist...  3/17/02 Detained
                                                    1/15/03 Sentenced to
                                                     7 years
------------------------------------------------------------------------
Hu Shigen......................  June 4 Activist/   12/16/94 Sentenced
                                  Writer.            to 20 years + 5
                                                     years deprivation
                                                     of political
                                                     rights. Reduced to
                                                     18 years after 2
                                                     reductions.
------------------------------------------------------------------------
Tenzin Delek Rinpoche..........  Tibetan Religious  4/07/02 Detained
                                  Leader.           12/02/02 Sentenced
                                                     to Death Penalty
                                                     with 2-year
                                                     reprieve
                                                    1/26/05 Sentence
                                                     commuted to Life
                                                     Imprisonment
------------------------------------------------------------------------
Shuang Shuying.................  Evictions/Housing  2/09/07 Detained
                                  Petitioner.       2/26/07 Sentenced to
                                                     2 years + fined
                                                     2,000 yuan
------------------------------------------------------------------------
Guo Feixiong (Yang Maodong)....  Lawyer/Editor....  9/14/06 Detained
                                                    11/14/07 Sentenced
                                                     to 5 years + fined
                                                     40,000 yuan
------------------------------------------------------------------------
Huang Jinqiu (Qing Shuijun)....  Cyber Dissident..  9/13/03 Detained
                                                    9/27/04 Sentenced to
                                                     12 years + 4 years
                                                     deprivation of
                                                     political rights
------------------------------------------------------------------------
Li Chang.......................  Religion/Falun     7/20/99 Detained
                                  Gong.             12/29/99 Sentenced
                                                     to 18 years + 5
                                                     years deprivation
                                                     of political rights
------------------------------------------------------------------------
Nurmemet Yasin.................  Uyghur Journalist  11/29/04 Detained
                                                    2/02/05 Sentenced to
                                                     10 years
------------------------------------------------------------------------

  China Labour Bulletin Article by Geoffrey Crothall and Han Dongfang 
   submitted by Robin Munro (to be published in the forthcoming book 
                        ``China's Great Leap'')

The slogan of the 2008 Beijing Games is ``One World, One Dream.'' The 
Chinese word used for ``One'' in the original slogan is ``tongyi,'' 
which means ``the same.'' This word was chosen because it highlights 
the idea, as explained on the official Beijing Olympics website, that 
``the whole mankind lives in the same world and seeks the same dream 
and ideal.'' Yet this lofty message is at odds with the harsh 
conditions for the migrant workers who labored at the construction of 
the Olympic venues, often for the equivalent of five dollars per day. 
Han Dongfang was jailed for nearly two years for his participation in 
the 1989 Tiananmen democracy movement. In 1994, he founded China Labour 
Bulletin, a Hong Kong-based group that promotes labor rights and 
democratic trade unionism in mainland China. Geoffrey Crothall is the 
editor of China Labour Bulletin's English language website. He has 
reported on China since 1985.

    On August 8, 2008, China will formally announce its emergence on 
the world stage as a powerful, prosperous and modern nation with a 
spectacular party attended by representatives from just about every 
nation on earth. For the Chinese government, the Olympic Games will be 
the culmination of nearly two decades of work stretching back to the 
original bid for the Games in the early 1990s. China's current leaders 
are determined that the political mission initiated by their 
predecessors, to make the Olympics both an international success and a 
source of pride for the Chinese nation, will be completed on time and 
without a hitch. By showcasing breathtaking new venues, Olympic 
medalists and Beijing's clean streets, the Games will doubtless be a 
success. But at what cost?
    The all-consuming process of gaining, preparing for and hosting the 
Olympics has become highly politicized. Indeed, the government's 
mission to demonstrate its greatness through the Games could overshadow 
and distract from the increasingly serious social and economic problems 
Chinese workers have to contend with every day of their lives.
    Some of these problems, such as the appalling health and safety 
record of Chinese construction sites, are right under the noses of 
Beijing's Olympic organizers. The construction workers who built the 
Olympic stadiums and support facilities, and completely overhauled 
Beijing's transport system in readiness for the Games, are almost 
exclusively migrant laborers who work in extremely hazardous 
conditions, usually have no labor contract, no work-related medical 
insurance, cannot form a trade union and have no right to collective 
bargaining.
           olympic torch fails to shine on construction sites
    In late July 2007, Sports Pictorial, a magazine published under the 
auspices of the Chinese Olympic Committee, interviewed a group of 
fifty-seven migrant workers on Beijing's Olympic construction sites 
about their work and living conditions. Most workers earned between 
forty yuan (about US$5) and sixty yuan a day, although a few earned 
more than eighty yuan. Many said they did not know how exactly they 
would be paid, and more than a third said they only got paid at the end 
of the year and received a small monthly allowance to live on. ``I earn 
more than 1,000 yuan a month and get paid at the end of the year,'' 
said twenty-eight-year-old Hu Yaowu from Hebei ``I've been married four 
years but can't afford to start a family.''
    Nearly all the interviewees worked ten-hour days, and only took 
days off if they were sick or had to go home to help with the harvest. 
They did not get weekends off, certainly no paid vacation, and most had 
no work contract or medical insurance. All those who suffered from 
minor injuries or illnesses at work paid for their own over-the-counter 
medicine or treatment at the local clinic. One worker, Liu Jiafu, who 
required surgery after incurring serious chest and leg injuries in a 
work-related accident, did have his medical expenses paid by his boss. 
However, when Liu, fifty-five, was released from the hospital, his boss 
had vanished and he received no compensation for his disability or loss 
of work. ``Right now, I'm good for nothing,'' Liu told Sports 
Pictorial.
    These problems are by no means confined to the construction 
industry. Lu Guorong lost her fingers while operating crude machinery 
at a small factory in a rural town on the Hebei-Shandong border, less 
than a day's drive from Beijing. Not only did the factory owner refuse 
to help her, he fired her two days after the accident because without 
her fingers she could no longer operate the machinery. Lu sought 
redress at the local labor bureau but in the arbitration hearing her 
official trade union representative appeared on behalf of the factory 
owner.
    In the metallurgical industry, there has been a spate of accidents 
over the last few months. Thirty-two workers at a steel plant in 
Liaoning were killed in April 2007 when nearly thirty tons of molten 
steel poured onto the shop floor. And in August, fourteen mainly 
migrant workers died and fifty-nine were injured following an aluminum 
spill at a factory in Shandong.
    Coal mining is probably still the most dangerous profession in 
China, and one of the most dangerous in the world. The number of 
accidents and fatalities has decreased from the horrendous highs of 
2004 and 2005, when about 6,000 miners died each year, but there were 
still, according to official statistics, 1,066 accidents and 1,792 
fatalities in the first half of 2007 alone. In August 2007, 181 miners 
died after two coal mines in Xintai, Shandong, flooded following 
torrential rains in mid-month. It is also important to note that the 
majority of accidents occur in small-scale illegal mines, precisely the 
kind of operations most likely to conceal accidents. The State 
Administration of Work Safety claimed on July 14 that it had uncovered 
forty-six coal mine accident cover-ups in the first half of the year, 
which suggests many others remain covered up and that the actual death 
toll is much higher than officially acknowledged.
    In factories across China, workers are forced under threat of 
dismissal to labor in hazardous, even life-threatening conditions. In 
gemstone-processing factories where dust concentrations exceed 
permitted levels and visibility is down to one meter, workers must 
operate equipment without any form of silica dust protection; to 
complete order contracts, many workers in toy factories are forced to 
do overtime until they faint at their machines or even die from 
exhaustion. In these factories, bosses often illegally confiscate 
identification papers to prevent workers from quitting or running away 
when they can no longer endure the conditions, and many factories 
withhold most of workers' monthly wage packets, allowing them only 
pocket money.
                         fair play for workers?
    These conditions are commonplace across China, but the government 
usually takes action when specific outrages are brought to public 
attention by an outside agency. When a report by Playfair in June 2007 
exposed the use of child labor at factories producing official Olympic 
merchandise, the Beijing Organizing Committee of the Olympic Games 
revoked the license of one company and suspended three others. BOCOG's 
prompt response to the revelation of abusive labor practices at its 
licensee factories is a good first step, but it is little help to the 
workers if the government stops there. The workers are out of a job and 
have no guarantee that even if they find another job their work 
conditions will be any better. Instead of merely punishing employers 
caught in the act, the government should give workers the power to 
protect their own interests by granting them the fundamental freedoms 
to organize their own unions and the right to strike.
    The response by the Beijing Organizing Committee of the Olympic 
Games to the Playfair expose is very much in keeping with the 
government's heavy-handed approach to potentially embarrassing labor 
issues. On June 29, more than 3,000 workers at the giant Shuangma 
Cement Plant in Mianyang, Sichuan Province, went on strike to protest 
against the company's proposed severance package. Shuangma, a former 
state-owned enterprise, was in the process of restructuring after being 
acquired in May by the world's leading building materials company, 
Lafarge. Shuangma's proposed severance package of 1,380 yuan for each 
year of employment was the equivalent of the average monthly wage in 
Mianyang and included a clause which meant workers agreed to forgo all 
other retirement, medical and welfare benefits. When this package was 
presented to the workers on June 27 as the company's final offer, it 
was immediately rejected. Nevertheless, management went ahead and 
attended a planned banquet in Mianyang City with local government 
officials to 
celebrate their good fortune after the Lafarge buyout. They had just 
started the banquet when the strike began. Management and local 
government officials rushed back to the plant, but instead of 
addressing the strikers' demands, they sealed off the town, surrounded 
the plant with police and removed all Internet postings related to the 
dispute.
    Likewise, when news emerged that the entire workforce of the 
Jinzhou bus company in Liaoning had gone on strike on July 19-bringing 
the town to a standstill-the authorities did not address the drivers' 
concerns over pay and privatization but merely blocked all news related 
to the strike. By contrast, the rescue of sixty-nine miners from a 
flooded coal mine in Henan in July 2007 was given extensive national 
coverage and portrayed in the official media as a miracle, without any 
analysis of how the miners became trapped in the first place. Blame for 
the accident was put on nature, rather than the human abuse of it. The 
August 2007 Xintai mine disaster killed 181 coal miners and was 
initially given much publicity, as authorities hoped it would provide 
them with another miraculous rescue story. However, as hopes faded for 
the trapped miners, we once again saw the usual media clampdown as 
families of the miners were ordered not to talk to the media. Those 
journalists who attempted to interview relatives were threatened with 
violence. After seven days, the government ordered a complete news 
blackout and all coverage in the official media of what had been a 
major news story ceased overnight.
                         one world, one dream?
    The intensification of news management in the run-up to the 
Olympics has been obvious to all; while foreign journalists have been 
told they will have unfettered access to all news stories in China 
during the run-up to the Games, domestic journalists have been warned 
not to report ``false'' (bad) stories, their movements have been 
restricted, and critical blogs and websites taken down. The television 
journalist who created the infamous ``cardboard pork dumpling'' story 
in Beijing, which claimed that vendors were selling dumplings made of 
pulped cardboard to unsuspecting customers, was jailed for one year and 
fined 1,000 yuan on August 12, 2007 for faking news reports and 
``infringing the reputation of commodities.'' Even the most innocuous 
criticism has been punished. At the end of July, two high school 
teachers on Hainan Island were given fifteen days administrative 
detention for posting bawdy song lyrics critical of local officials.
    All this does not bode well for the Olympics. If, as seems very 
likely, these domestic controls are maintained, how will petitioners or 
protestors arriving in Beijing be treated? Will this traditional avenue 
for seeking redress be allowed any public expression at all in the 
capital next year? We have already seen an attempted march on Tiananmen 
Square on August 28, 2007, by 300 migrant workers demanding the payment 
of their rightful wages broken up by police before it could even begin. 
What will happen to the millions of migrant workers in Beijing who have 
no permanent residency? Will they be forced to return to their home 
towns? Will other social undesirables, beggars and mentally ill people 
be removed from the streets too?
    It seems from the evidence so far that Beijing is more concerned 
with image management than dealing with the underlying causes of its 
problems. We believe, however, that the government should take 
precisely the opposite approach. Instead of trying to conceal the less 
flattering side of China in order to protect its own image, the 
government should grasp the opportunity presented by the international 
media spotlight to openly discuss the real problems facing the country. 
If the Chinese people and the global community could better understand 
these issues, everyone including the government would be in better 
position to resolve them.
                       child labor in the shadows
    The specter of child labor, which BOCOG sought to exorcise so 
swiftly after the Playfair 2008 report, is an obvious example. 
Statistics related to child labor in China are designated ``highly 
secret,'' and apart from occasional highly publicized crackdowns on 
employers the government has done little to address the problem. If, 
however, the use of child labor is brought out in the open and the 
government encourages the active involvement of all sectors of society 
in addressing the problem at its root, the greater the chances are that 
child labor can be checked and reduced in the future. Moreover, the 
government for its part should take urgent measures to reform the rural 
education system and provide sufficient funds to ensure that children 
stay in school, thereby cutting off the supply of child labor at its 
source. Many primary and middle schools in rural areas are currently 
funded almost entirely by fees charged to students' parents. And 
increasingly, these parents are deciding there is little point in them 
paying out thousands of yuan each year if there is little or no chance 
of their child going on to high school or university. As such, many 
children drop out in their second year of middle school (about age 
fourteen) and go straight to work, even though the legal minimum 
employment age in China is sixteen. The government could solve this 
problem by providing enough funding to ensure that the compulsory nine 
years of schooling in China are free and universally available. 
However, the government currently only spends about 3 percent of the 
gross domestic product on education, half the United Nations 
recommended minimum level of 6 percent.
    In addition to the state's chronic underinvestment in education, 
public healthcare has declined to the point where millions of ordinary 
workers' families cannot afford to seek medical treatment or risk 
crippling debt if they do. In the past, workers' health care was 
covered by the state-owned enterprises. However, with the break-up of 
the state-owned enterprise system over the last decade or so, the 
healthcare system has broken down too. Many workers laid-off in the 
privatization process had limited or no healthcare benefits and were 
forced to seek work in the private sector where the intense competition 
for jobs meant that employers could very often set their own terms and 
conditions of employment. Moreover, the migrant workers who have now 
replaced state-run enterprise employees as the backbone of China's 
working class come predominantly from an agricultural background and 
have never had medical insurance, and are therefore less likely to 
demand it from their employers in the cities.
                      tilting the balance of power
    Many employers ruthlessly exploit the passivity and stoicism of 
migrant workers, however many of those migrant workers are now 
beginning to stand up for their rights and demand not only appropriate 
wages but decent working conditions and proper health care. China's 
labor legislation, especially the newly promulgated Labor Contract Law, 
which gives individual workers a wide range of rights and safeguards, 
should in theory provide workers with adequate protection from 
exploitation and abuse. However, as has been demonstrated time and 
again since the enactment of the Labor Law in 1994, the Chinese 
government has routinely failed to enforce its own legislation. All the 
power resides in the hands of the enterprise owners, who in collusion 
with corrupt government officials (often part-owners themselves) can 
dictate how hard and for how long their employees have to work and for 
what reward. In some extreme cases, such as the 2007 Shanxi brick 
factory scandal in which thousands of workers were forced or abducted 
into slavery, that reward was imprisonment and physical abuse.
    Not only can the government not enforce national labor laws, it can 
not even enforce labor related regulations and directives issued by the 
country's most senior leaders. In 2003, Prime Minister Wen Jiabao made 
it his personal mission to resolve the endemic problem of wage arrears 
in China; however, four years later, migrant workers, school teachers 
and factory workers across the country are still only receiving a small 
proportion of their promised salary. Again, following the spate of 
coal-mining disasters in 2004 and 2005, the prime minister spearheaded 
a campaign to improve mine safety. While visiting the families of 
victims of the Chenjiashan Coal Mine disaster of November 2004 in which 
166 miners died, Wen Jiabao stated, ``We must improve safety in the 
workplace. We cannot let another tragedy like this happen again. We 
must take responsibility for our miners.'' However the economic demand 
for coal in China combined with local level corruption in the coal 
fields has meant that production routinely exceeds safe capacity, and 
thousands of miners continue to die each year.
    Given the government's persistent failure to enforce its own laws 
and regulations, the Chinese government should not merely draft more 
legislation to plug the gaps but empower the workers to defend their 
own rights. If workers had the right to organize their own grassroots 
democratic trade unions and the legal right to strike if necessary, 
they could literally play a life-saving role in ensuring coal-mine 
safety. Workers could demand that employers pay collectively negotiated 
wages in full and on time. Moreover, unions could act as an important 
facilitator bridging the gap 
between workers and management so that many of the violent protests 
that have erupted all over China in the last decade could be resolved 
or at least addressed through negotiation before protest became 
imperative. However, despite its commitment to ``putting people first'' 
and creating a ``harmonious society,'' the Chinese government shows 
little sign of granting its citizens the rights or the ability to 
protect themselves. Rather we have seen a disturbing trend in which 
workers (like miners trapped in flooded coal mines) are portrayed as 
weak, pitiable and in need of rescue. And of course in this scenario, 
the only body that can rescue them is the government.
                        fleeting glory for a few
    Chinese workers are dying every single day in China, from 
industrial accidents and work-related illness. Most cannot afford 
decent medical treatment and have to suffer further from breathing 
polluted air, drinking polluted water and eating contaminated food. 
While the supreme health and fitness of the elite will be celebrated 
during the Olympics, the overall health of the nation is not advancing.
    There are state-of-the-art sporting facilities all over China-
private gyms, swimming pools, tennis courts and golf courses-but only 
the very rich can make use of them. The majority of Chinese citizens 
have limited or no access to such facilities. If the massive sums of 
money spent over the last two decades on bringing the Olympics to China 
had been spent on education, health care and sporting facilities 
accessible to everyone, Chinese people would be in a better position to 
actually enjoy the Games. And though the money has already been spent, 
there is still a chance that the international exposure brought by the 
Olympics will have a positive effect on workers' rights, which would 
indeed provide some lasting benefit to the country as a whole.
    The opening date of the Olympics on the eighth day of the eight 
month of the eighth year should signify good fortune for the people of 
China as a whole and not just the privileged few. Thus far, however, 
the Olympics have failed to inspire even those ordinary workers closest 
to the project. Indeed, for many migrant workers interviewed at the 
city's Olympic construction sites, their contribution to China's 
Olympic dream is just another job.
    ``We don't need to know what these buildings are for. As long as we 
do the work and get paid, that's fine,'' a nineteen-year-old migrant 
worker named Dai told the Sports Pictorial. One quarter of the migrant 
workers interviewed by Sports Pictorial said they did not know exactly 
what they were working on and less than a third could correctly 
identify the opening date of the Games. The majority of interviewees 
had no interest in the opening ceremony or who would light the Olympic 
torch. Eight workers thought President Hu Jintao would light the torch, 
others nominated themselves, their work mates or famous movie stars 
such as Chow Yun-Fat. Many workers had no idea if they would still be 
in Beijing during the Olympics, most said they would go wherever the 
work was. For those who were confident they would still be in the 
capital, most did not think they would ever be able to enter the 
facilities they had built. ``Attending the Olympics? That is for rich 
people! We can watch it on television, we can't expect any more than 
that,'' said thirty-year-old Zhu Wanming from Sichuan.
    Zhu Wanming and hundreds of millions like him will be faced with 
great hardships for a long time after the Olympic closing ceremony, and 
it is the Chinese 
government's responsibility not only to ease those hardships but to 
give ordinary workers the power and the right and the ability to 
improve their own lives.
                                 ______
                                 

 Responses by Robin Munro to Questions From Representative Christopher 
                                 Smith

    Question 1. Unfair labor is against our law. I hope that maybe this 
commission could pressure the USTR to take that up anew. Maybe your 
comments on that would be helpful.
    Answer. As I stated in my written testimony for this hearing, ``In 
addition, both multinationals and consumers in the West need to 
recognize that, in order to really achieve better and more acceptable 
labor standards for ordinary working people in China, the cost of 
China's exported goods will inevitably have to rise. Increased 
productive efficiency can only go so far toward providing the funds 
needed to provide Chinese workers with acceptable pay, reasonable 
working hours, mandatory work-related insurance coverage and safe 
factory conditions. The real problem is that these goods are much too 
cheap--and under-priced Chinese goods in Western shopping malls means 
continued labor rights violations in China.
    ``Both citizens and governments in the West should recognize, 
moreover, that higher labor standards for Chinese workers will also 
directly benefit the workforces in their own countries. By making it 
possible for Chinese workers to enjoy minimum acceptable standards, 
Western citizens and consumers will find that their own jobs become 
more secure, the trend toward casualization and part-timing of labor 
will reduce, and working-class families in many countries will benefit 
as a result.''
    For the above reasons, I think the AFL-CIO's submission to the USTR 
was well-founded and should have been acted on by the administration. 
Lack of labor rights in China clearly does, from the point of view of 
U.S. workers and those from other countries that import goods from 
China, amount to unfair competition. This directly disadvantages 
workers in the West, while at the same time preventing Chinese workers 
from achieving acceptable labor standards. In short, it's a lose-lose 
situation for workers everywhere.
    Question 2. The venues for the Olympics. Have any of them been made 
with gulag labor?
    Answer. To my knowledge, there is no evidence that prison labor has 
been used in the construction of the Beijing Olympic venues. However, 
it is well-documented that many prisons in China operate quarries and 
factories that produce raw materials for use in the construction 
industry, including stone and quartz goods and also cement, produced by 
prisoners and ``reeducation through labor'' camp inmates. For more 
information on this topic, I refer the CECC panel to a report I 
researched and wrote for Human Rights Watch in 1995, titled ``The Three 
Gorges Dam in China: Forced Resettlement, Suppression of Dissent and 
Labor Rights Concerns'' (http://www.hrw.org/summaries/s.china952.html). 
Appendix IV of the report contains a list of several dozen prisons and 
labor camps known to be directly involved, at that time, in producing 
raw materials for China's construction industry.
    Question 3. Harry Wu has testified many times about how forced 
labor is endemic. But are any of the venues made by gulag labor? If not 
that, those who did work on the stadiums and the track and field 
aspects of it, what were they paid? What was the situation there? I 
think it is a very valid question.
    Answer. As I said above, to my knowledge there's no evidence that 
prison labor has been used in the Olympic construction sites. As to how 
much the workers at these sites were paid, and what the working 
conditions were like: Nearly all construction workers in China are 
migrant workers from the countryside, and they typically work in 
dangerous working environments and are not provided by their employers 
with work-related insurance coverage, although that is mandatory for 
all workers under the Chinese labor law. Serious workplace accidents 
are common among construction workers, and it tends to be a lottery as 
to how much compensation--if any--they or (in fatal cases) their 
families are paid. Some employers pay a reasonable amount, but most try 
to pay out as little as possible, and they especially don't want to be 
saddled with the medical bills for workers injured on their sites. 
Also, construction workers in China typically have to work very long 
hours, often way in excess of the legal maximum working hours, and they 
often don't get paid once they've finished the job. Employers often try 
to withhold all or part of the wages, and workers then have to go to 
great lengths and expense--via the labor arbitration disputes system or 
via the courts--to get their wages paid. Since the official claims 
process is so onerous, many construction workers simply give up and 
never get paid.
    Question 4. You might want to touch on the issue, if you could, 
briefly, of the missing girls in China. I said it at the opening. Very 
often, the human rights community has been mum on the fact that the 
family has been violated with impunity. Women have been raped by the 
state. Forced abortion is rape. It is horrible. It is used with 
particular impunity against the Uighurs, against the Tibetans, and 
against girls.
    The Chinese government loves to say they have this policy or that 
policy. Since 1998 or 1999, they've been saying we signed the 
International Covenant for Civil and Political Rights, usually when one 
of their heads of state are heading to our shores, so that it allays 
concerns, just like the resumption of the human rights dialogue.
    Answer. I have nothing particular to add on this issue, except to 
say that the government's coercive application of the one-child policy, 
and especially the use of forced abortion, is indeed a serious human 
rights issue in China. When the blind lawyer Chen Guangchen tried, a 
couple of years ago, to expose the widespread use of forced abortions 
in his rural hometown area in Shandong Province, he was arrested and 
sent to prison for over four years on trumped-up charges (``damaging 
property and organizing a mob to disturb traffic''). The government 
should have awarded him a prize for his civic-minded activities, but 
instead they persecuted him like this. That speaks volumes, I think, 
about the government's mindset on this issue.

                                 <all>

</pre></body></html>
